<html>
<title> - HOMELAND SECURITY</title>
<body><pre>[Senate Hearing 107-776]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-776
 
                           HOMELAND SECURITY
=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                 on the

 PRESENT AND FUTURE ROLES OF THE DEPARTMENT OF ENERGY/NATIONAL NUCLEAR 
    SECURITY ADMINISTRATION NATIONAL LABORATORIES IN PROTECTING OUR 
                           HOMELAND SECURITY

                               __________

                             JULY 10, 2002


                       Printed for the use of the
               Committee on Energy and Natural Resources




                          U.S. GOVERNMENT PRINTING OFFICE
82-985                             WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         CONRAD BURNS, Montana
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           GORDON SMITH, Oregon

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel
                     John Kotek, Legislative Fellow
             Howard Useem, Senior Professional Staff member





                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     4
Anastasio, Michael R., Ph.D., Director, Lawrence Livermore 
  National Laboratory............................................    35
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     1
Brooks, Ambassador Linton F., Acting Administrator, National 
  Nuclear Security Administration................................    11
Cantwell, Hon. Maria, U.S. Senator from Washington...............  6, 9
Cobb, Don, Ph.D., Associate Director, Threat Reduction, Los 
  Alamos National Laboratory.....................................    58
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     3
Drucker, Harvey, Ph.D., Associate Laboratory Director, Argonne 
  National Laboratory............................................    71
Feinstein, Hon. Dianne, U.S. Senator from California.............    10
Happer, William, Ph.D., Eugene Higgins Professor of Physics and 
  Chair, University Research Board, Princeton University.........    31
Kyl, Hon. Jon, U.S. Senator from Arizona.........................     5
Murkowski, Hon. Frank H., U.S. Senator from Alaska...............     2
Orbach, Dr. Raymond, Director, Office of Science, Department of 
  Energy.........................................................    18
Powell, Dr. Lura J., Director, Pacific Northwest National 
  Laboratory, Department of Energy...............................     6
Robinson, Ambassador C. Paul, Director, Sandia National 
  Laboratories...................................................    47
Shipp, Billy D., Ph.D., President and Laboratory Director, Idaho 
  National Engineering and Environmental Laboratory..............    67

                               APPENDIXES

Responses to additional questions................................    83


                           HOMELAND SECURITY

                              ----------                              


                        WEDNESDAY, JULY 10, 2002

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:30 p.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Jeff Bingaman, 
chairman, presiding.

           OPENING STATEMENT OF HON. JEFF BINGAMAN, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. Why don't we go ahead and start. We're all 
ready to proceed here.
    The administration has recently proposed a move that 
various Senators and Congressmen had been advocating, and that 
is the creation of a Cabinet-level agency responsible for 
addressing threats to our homeland security. To the 
administration's credit, it's proposal to create a Department 
of Homeland Security gives a nod to the important role of the 
Department of Energy, and also the important role of the 
National Security--National Nuclear Security Administration, 
NNSA, national laboratories and the role they can play in 
protecting homeland security. These roles are many. They 
include developing new technologies to detect and deter 
terrorist threats and provide the skilled manpower to help 
mitigate the consequences of actual terrorist attacks.
    I'm concerned that the administration's proposal does not 
recognize the full depth and breadth of the capabilities at our 
national laboratories, and particularly those laboratories that 
do not have national security as their overriding mission. I 
believe the new department needs to be encouraged to draw on 
needed capabilities wherever they exist, be that in our 
national laboratories, in industry, or in our universities. I'm 
also concerned that the administration's proposal does not 
recognize that the programs to be transferred from the 
Department of Energy and from NNSA to the new Department of 
Homeland Security will lack substantial vitality if they are 
cut off from the larger intellectual institutional context 
which now supports them. The best scientists want to work in 
institutions and environments that are pushing up against the 
frontiers of their field, not in areas that look more like 
technical service organizations.
    Finally, I'm concerned that the organizational structure 
proposed for the new department may result in a disconnect 
between the people developing new technology to combat 
terrorism and the people who will ultimately employ the new 
technology. I believe we need to look seriously at creating a 
position in the new department that would stand above the 
various undersecretaries and have some responsibility for 
developing and integrating research and development programs to 
address a priority list of technologies.
    We have with us an excellent group of witnesses, starting 
with Ambassador Linton Brooks, Acting Administrator of the 
NNSA, Dr. Ray Orbach, who is the Director of the Department of 
Energy's Office of Science. We will then have a second panel of 
senior leaders from our national laboratories and a 
representative from the National Research Council's Committee 
on Science and Technology for Countering Terrorism.
    I look forward to the testimony and hope that through this 
hearing we can gain some insights that will help in the 
upcoming debate here in the Senate on legislation to establish 
a Department of Homeland Security.
    Let me defer to Senator Murkowski and then Senator Domenici 
for any opening statements they have.

      STATEMENT OF HON. FRANK H. MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you very much, Senator Bingaman, 
Senator Domenici. I think the hearing is well in hand with my 
two friends from New Mexico.
    I think it's appropriate that this committee maintain its 
jurisdiction and role in the issue of homeland security. I want 
to compliment the staff of the majority and of the minority for 
scheduling a hearing on the role of the Department of Energy's 
National Laboratories in the proposed development of the 
homeland security.
    Let me first comment, I think our President deserves 
recognition for his bold initiative on this. Defending the 
Nation, whether at home or abroad, is one of the highest 
priorities of our government. It's part of our constitutional 
commitment. And, of course, we saw on September 11 that our 
enemies are real, they're unscrupulous, and they are very, very 
deadly.
    I'm certainly open as to how the new department should be 
organized, but there is no question it should be created. 
Establishment of the Department of Homeland Security is 
certainly going to be a priority for the 107th Congress.
    I wanted to remind everyone that our growing dependence on 
foreign energy is an equal threat to our national security. 
Some have been around here long enough to recall, in 1973, we 
had the Arab oil embargo. It brought our economy to its knees 
when we were 36-percent dependent at that time on foreign oil. 
Now we are 57-percent dependent, and the Department of Energy 
indicates we'll be in the 1960s within a few years.
    As some of you recall, in 1973 we had gas lines around the 
block. People were outraged, ``How could this happen in the 
United States,'' and they were blaming everybody and 
particularly pointing a finger at the Federal Government. But 
we oftentimes forget the lessons of history. But it's quite 
clear that energy is the difference, in many cases, between the 
victor and the vanquished. We've seen that in many areas of 
history and in warfare, as well.
    And we can never, of course, be entirely independent, but 
we can buy a lot of insurance through increased domestic energy 
production, whether it be oil, natural gas, nuclear, coal and 
renewables. Thus, we must complete action on the energy 
legislation that is now in the conference. As far as I am 
concerned, that's what should be covered under our homeland 
security effort.
    With that, I look forward to hearing the witnesses and the 
input of this process in the development of homeland security.
    Thank you, Senator Bingaman.
    The Chairman. Thank you.
    Senator Domenici.

       STATEMENT OF HON. PETE V. DOMENICI, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Domenici. Mr. Chairman, I do believe I will make a 
little opening statement, and I will try to help you this 
afternoon by being here part of the time. If it will 
accommodate you, you can leave, and leave me. I might do that 
once in the session.
    The Chairman. Thank you.
    Senator Domenici. First of all, I've had an opportunity to 
review the President's proposal for homeland security, 
particularly as it relates to science and technology and the 
mission of the department and how our national laboratories 
should contribute to the cause of homeland security. And, 
obviously, one needs to know very little about them to know 
that they have a chance to contribute a great deal to this 
homeland security.
    The proposal submitted by the President certainly 
recognizes the capability of the national laboratories, but the 
manner in which the initial plan was developed and announced 
and communicated to Congress led to a bit of confusion. So let 
me see if I can state quickly what I think it is.
    Before I do that, let me say to Ambassador Linton Brooks, 
you're now the Acting Director of the NNSA. I don't know that 
we always are congratulatory when somebody moves up to a higher 
office, and I was wondering why he had taken our general that 
had just started putting this together, but I assume he needs 
him. And fortunately, we have somebody there that I feel very 
comfortable with in serving as an Acting Director. And so good 
luck to you. You have a very difficult job.
    The President proposed an undersecretary to address the 
science, technology, and operational issues associated with 
chemical, biological, nuclear, and radiological threats. I 
would argue that under the Secretary's mission should be a--
that that should be broadened to cover the entire science and 
technology mission for the whole department, and the 
operational mission should be run by other operational parts of 
the department. Certainly much of the focus will be on the 
chemical, biological, radiological, and nuclear threats, 
because they currently make up some of the threat potential.
    The undersecretary for the science and technology should be 
responsible for a number of things--utilizing R&D base for 
homeland security, as the President suggested, in that they are 
performing Ag and related R&D, as the President suggests. But 
there are several ideas that are left out. The undersecretary 
needs a mechanism to tap into the capabilities of the national 
laboratories. He also needs a DARPA-like organization that can 
rapidly procure technology for homeland security, and I think 
he needs a RAND-like think tank, which has just been recently 
suggested by Science Council, and it's a very prestigious 
group. So they were there before we came to that conclusion. We 
might have borrowed it from them.
    I think we should build upon the ideas that the President 
has suggested to really support the importance of S&T missions 
of this new department as it relates to these national 
laboratories.
    Let me make just a few more comments. Tremendous 
capabilities exist at all the labs, much of it at Sandia, Los 
Alamos, and Livermore; but Oakridge, Idaho, Pacific Northwest 
have unique capabilities also. These capabilities should be 
fully utilized and managed by DHS or at--from a location that 
is certainly located among these laboratories. That's how I 
understand the proposal.
    For the labs to work for the DHS, they should be governed 
by a few principles. The HHS should be able to task and fund 
the labs directly. Homeland security work should be done on an 
equal basis with other important security work at the 
laboratories, not on a work-for-others or a non-interference 
basis. DHS should be able to access all parts of the laboratory 
for expertise, not just a carve-out for homeland science.
    In conclusion, the principles that I've just stated should 
be the basis on which the science and technology missions of 
the homeland department should be carried out.
    I look forward to working with the administration and you, 
Mr. Chairman, and with those who run our laboratories to see 
that we present through the Government Operations Committee, 
the best possible proposal that we can put forth.
    Thank you very much.
    The Chairman. Thank you very much. Let me see if any of the 
other senators wish to make opening statements. Senator Akaka, 
did you wish to make a statement?
    Senator Akaka. Yes.
    The Chairman. Go right ahead.

        STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Thank you very much, Mr. Chairman. I would 
like to add my welcome to the witnesses today.
    The administration's proposal for the Department of 
Homeland Security includes contributions from the Department of 
Energy's National Energy Laboratories. However, the President's 
blueprint contains few details as to why these labs should be 
reorganized and few guarantees of security for Federal 
employees.
    In the past month, I have participated in several hearings 
on the proposed functions of the Department of Homeland 
Security. Unfortunately, the administration has not yet given 
us a national strategy for homeland security. I am concerned 
about some of the President's recommendations pertaining to the 
national labs. For example, the administration proposes moving 
components of the International Materials Protection and 
Cooperation Program within the Department of Energy's Nuclear 
Security Administration into the new Department of Homeland 
Security. This program's core mission is to reduce the threat 
of nuclear proliferation and nuclear terrorism by improving 
security of weapons-usable material worldwide. This office 
directs cooperative nonproliferation efforts in Russia, 
although it also assesses nuclear threats and hoaxes in the 
United States. These programs have primarily a foreign focus, 
not a domestic one, and are similar to international efforts 
managed by the State Department.
    These nuclear security activities have been successful 
because of the relationships built between Russian and American 
scientists. By putting these functions in the Department of 
Homeland Security, American participants may be seen as 
security or intelligence personnel by their Russian 
counterparts rather than American scientists. I fear, as a 
result, that the success of our nonproliferation programs in 
the former Soviet Union could suffer.
    The administration also would transfer DOE's intelligence 
program at Lawrence Livermore to the proposed department. I'm 
concerned that a new focus on homeland security would mean that 
analysis of nonproliferation intelligence on Russian, Chinese, 
and North Korean weapons of mass destruction will become less 
of a priority.
    President Bush told Congress on June 18 that the 
accumulation of a large volume of weapons-usable fissile 
material in the territory of the Russian Federation continues 
to pose an unusual and extraordinary threat to the national 
security and foreign policy of the United States. He is right. 
And, for this reason, the administration needs to justify why 
changes to the organization of our current nonproliferation 
programs are necessary and how such changes will improve our 
security.
    Mr. Chairman, it is interesting to note that while we hold 
this hearing on the contributions of the Department of Energy's 
labs to the proposed Department of Homeland Security, earlier 
today President Bush addressed thousands of Federal employees 
to reassure them that their agencies and jobs would not be 
threatened by the creation of a new department. In the 
President's proposal, I see few guarantees of security for the 
Federal employees or for the continuity of mission of their 
agencies.
    I look forward to the testimonies of our witnesses. Mr. 
Chairman, thank you very much.
    The Chairman. Thank you very much.
    Senator Kyl, did you have some comments?

      STATEMENT OF HON. JON KYL, U.S. SENATOR FROM ARIZONA

    Senator Kyl. Thank you, just a brief comment, Mr. Chairman, 
since I'm not sure I'm going to be here for all of the 
testimony of all of the witnesses, just to indicate that I 
would like to have the witnesses, either in their oral 
presentations or in writing later, address at least the role of 
the Department of Homeland Security with regard to the physical 
protection of our energy infrastructure, number one; number 
two, the cooperation and coordination with the governments of 
Canada and Mexico as we develop our homeland security program; 
and, three, a significant role in assuring cyber protection of 
our energy infrastructure.
    The Chairman. What was the last one?
    Senator Kyl. Cyber security, since computers operate so 
much of our generation and grid as well as hydro systems, 
that's important. And then, finally, to just indicate general 
agreement with Senator Domenici in the view that all of our 
national laboratories have a significant role to play in 
homeland security, and I'm interested in ensuring that they 
have an opportunity to play that role.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Cantwell.

        STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR 
                        FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman, and thank you 
for holding this important hearing on the Department of 
Energy's laboratories in our nation's effort to make our 
homeland more secure.
    This is a big step and an enormous undertaking. I'm sure 
we'll hear from some of those testifying today about some of 
those challenges. But I believe it is important that, while 
we're looking through their testimony, we think of the 
important issues that are involved in creating a new 
department.
    My primary concern is that, given that we have a very 
urgent need to improve our domestic security, how do we 
undertake a massive bureaucratic reshuffling in a way that will 
not slow our efforts and our ability to improve our defenses? 
And specifically, when it comes to the national labs, how do we 
ensure that we maximize and enhance the benefits of the 
research and development efforts already underway at the labs 
in a manner that ensures that DOE labs can continue to fill 
their multipurpose mission while still operating in conjunction 
with the Department of Homeland Security?
    For us, in the Northwest, with the Pacific Northwest 
Laboratory, PNNL, where about 40 percent of the activities are 
related in some way to national security, we definitely see an 
overlap of issues. But yet I think it's important that we 
understand how those missions might be challenged in a new 
agency.
    I would like to take this opportunity, if I could, Mr. 
Chairman, to submit for the record the testimony of Dr. Laura 
Powell, the PNNL's director.
    [The prepared statement of Dr. Powell follows:]
 Prepared Statement of Dr. Lura J. Powell, Director, Pacific Northwest 
               National Laboratory, Department of Energy
    As Director of the Pacific Northwest National Laboratory (PNNL) in 
Richland, Washington, I am pleased to provide this statement regarding 
the present and future roles of the Department of Energy (DOE) and 
National Nuclear Security Administration (NNSA) laboratories in 
protecting our homeland.
    The DOE and NNSA national laboratories have attracted and developed 
many of our nations finest scientists and engineers. Their capabilities 
and assets have been applied toward homeland security and counter 
terrorism challenges long before September 11 as well as since then. I 
believe these capabilities and assets can continue to add significant 
value to the new Department of Homeland Security.
    Specifically, PNNL, as a DOE Office of Science multi-program 
national laboratory, is prepared to continue supporting the nation's 
effort to secure the U.S. homeland. Since 1965, the Pacific Northwest 
Division of Battelle, a not-for-profit entity based in Columbus, Ohio, 
has operated PNNL for the DOE. PNNL employs approximately 3,500 staff 
and maintains a business volume in excess of $500M annually, $230M of 
which is related to national security work for a number of government 
clients in areas such as combating terrorism, homeland security, 
proliferation detection and monitoring, underground nuclear test 
detection, nuclear weapon dismantlement, nuclear materials safeguards 
and security, environmental and waste characterization, and fundamental 
science.
                    our homeland security challenges
    Terrorism is not a new phenomenon and for decades PNNL has 
performed work for government agencies with missions designed to combat 
terrorism. Recent events serve to remind us of the vulnerabilities to 
the security of our homeland and it is becoming even more evident that 
there are terrorist elements with a willingness to deploy weapons of 
mass destruction against U.S. interests--both abroad and at home.
    The threat we face is dynamic and complex. We need to be as 
flexible and adaptable as are the adversaries who would threaten us. As 
we organize around the need to manage the risks associated with the 
threats posed by weapons of mass destruction (WMD), we must do so in a 
reasonable and systematic manner. The actual financial costs of 
developing and implementing mitigating strategies and counter-measures 
are only one consideration of a comprehensive risk management strategy. 
We must also ensure that the solution is implemented in a manner that 
considers negative consequences such as reduced operational 
efficiencies or productivity that currently give U.S. industry and the 
U.S. economy a competitive advantage.
    Finally, it is imperative that organizational and technological 
standards evolve that ensure solutions can be integrated across the 
various functions and responsibilities outlined for the new Department 
of Homeland Security (DHS). Solutions must facilitate integration of 
operations and functions, information sharing, and interoperability.
                pnnl contributions to homeland security
    I'd like to offer a few examples of PNNL programs, technologies and 
capabilities that span the entire WMD threat spectrum.

  <bullet> Millimeter Wave Holographic Imaging System: This system, 
        developed for the FAA for personal security checkpoint 
        screening, is capable of detecting specific threats and 
        contraband.
  <bullet> Acoustic Inspection Device: This handheld system was 
        originally developed by PNNL for inspection of chemical weapon 
        stockpiles in Iraq following the 1991 Gulf War. It can be used 
        by Law Enforcement Officials to detect concealments, hidden 
        compartments or anomalies in liquid-filled containers and solid 
        form commodities; sort material types into groups of like and 
        unlike, and identify liquids and solid materials over a wide 
        range of temperatures. It has recently been commercialized by a 
        private manufacturer and is being used by U.S. Customs and 
        other organizations as an inspection and screening tool.
  <bullet> Biodetection Enabling Analyte Delivery System (BEADS): It is 
        necessary to process large environmental samples to obtain 
        traces of threat biomaterial and deliver that material in a 
        small volume to a sensor. BEADS enables automated sample 
        preparation for biodetection systems.
  <bullet> Plutonium Measurement and Analysis (PUMA): A radiation 
        monitoring system that uses glass fibers to detect the presence 
        of radionuclides, such as plutonium. This technology offers 
        flexible, lightweight, low-power detection capability.
  <bullet> Hazardous Material Chemical Agent Detector (HAZMATCAD): This 
        commercially available tool takes advantage of special 
        (sensitive and selective) polymers developed by PNNL and allows 
        faster response times to lower concentrations of hazardous 
        chemicals and agents.
  <bullet> WMD Interdiction Training for International and Domestic 
        Border Security Officials: In 1997, Congress provided for the 
        U.S. training of international border security officers in 
        detecting, identifying, and interdicting the smuggling of WMD 
        materials and items. Since then, Border Officers from 17 
        nations have been trained as part of the International Border 
        Security Training Program. PNNL is responsible for conducting 
        this highly successful training known as Interdict/RADACAD at 
        the Hazardous Materials Management and Emergency Response 
        (HAMMER) Training Center, a $30M DOE facility located near PNNL 
        at the Hanford Site. The value of this program has been 
        demonstrated by seizures of sensitive materials in Eastern 
        Europe, including nuclear reactor components destined for Iran 
        and a quantity of Uranium-235. The border security officials 
        responsible for both of these seizures attribute their success 
        to the training they received in this program from PNNL at 
        HAMMER. PNNL initiated the training of U.S. Customs Officers 
        this year. Thus far, two 3-day courses in radiation detection 
        and protection and the use of advanced detection equipment have 
        been completed. For the foreseeable future, one U.S. Customs 
        class per month is scheduled.
  <bullet> International Emergency Preparedness for WMD: PNNL supports 
        a U.S. government-sponsored training program that teaches 
        international first responders how to recognize, respond to and 
        manage an incident involving a WMD. In addition to the 
        operations training at HAMMER, PNNL also supports a course for 
        international mail handlers on Postal Chemical/Biological 
        Incident Management. In the same way the international WMD 
        interdiction training eventually expanded to accommodate U.S. 
        Customs Officers, consideration should be given to leveraging 
        this training capability and facility to accommodate the 
        government's articulated desire to train U.S. first responders 
        to handle WMD incidents.
  <bullet> Federal Emergency Management Information System and 
        Emergency Management Advantage (EMADVANTAGE): Decision support 
        and command and control tools have been developed for both 
        emergency managers and emergency responders. These tools 
        provide an automated decision support architecture that applies 
        to situation planning and response capabilities for large 
        multi-user environments.
  <bullet> National Counterdrug Center (NCC): Operational coordination 
        (or interoperability) across multiple agencies, missions, or 
        functions is a known limiting factor impacting interdiction 
        efforts. PNNL is one of several organizations developing the 
        NCC for the Department of Defense. The NCC is a simulation-
        based interoperability training system that can improve multi-
        agency operational planning and execution in a virtual 
        environment. While the current focus is drug interdiction, this 
        national capability can be readily leveraged to accommodate 
        training and planning capability for all-threat interdiction to 
        include weapons of mass destruction. In addition, since the 
        underlying objectives are to support interoperability, it is 
        plausible that the capability and concept of simulation-based 
        interactive environments can support the needs of first 
        responders (police, fire, and emergency medical) as well. One 
        of several folks, not just PNNL. supporting.
  <bullet> Information visualization and knowledge management: For over 
        a decade PNNL has been conducting research that helps 
        government analysts deal with the overwhelming amount of 
        information they must process. PNNL has developed and 
        successfully deployed software tools for exploiting large and 
        diverse sets of information. Analysts within a number of 
        government agencies are currently taking advantage of PNNL 
        tools like SPIRE and Starlight to help them to ``connect the 
        dots.''
  <bullet> Critical Infrastructure Protection: PNNL is one of several 
        DOE laboratories tasked to assure the integrity of energy 
        infrastructures by conducting vulnerability assessments and 
        recommending risk-mitigating strategies. The bulk of this work 
        has focused on the electrical power infrastructure, an area in 
        which PNNL has recognized capability.
  <bullet> Radiological Detection Expertise: Even though PNNL has 
        existed for nearly four decades, there are over 50 years of 
        history related to radiation detection technology development 
        and deployment as a result of the legacy from the Hanford 
        site's involvement in the Manhattan project. Instruments 
        incorporating PNNL radiation detection technologies have been 
        fielded in a number of locations, including: outer space, deep 
        undersea, within the core of both naval and civilian reactors, 
        border crossings, international nuclear test detection 
        networks, high altitude aircraft, nuclear accident sites such 
        as Three Mile Island and Chernobyl, U.S. nuclear complex sites, 
        and deep underground. In addition, PNNL staff participate in a 
        number of U.S. Government or international policy working 
        groups including the Radiation Detection Panel (DOE), the 
        Nuclear Smuggling Working group (IAEA), and the Radiation 
        Instrumentation Steering Committee (IEEE.) PNNL currently holds 
        leadership positions in the International Nuclear Materials 
        Management Association.
  <bullet> Radiation Portal Monitoring Support to U.S. Customs: The 
        U.S. Customs Service, Office of Information and Technology 
        (OIT), Applied Technology Division (ATD), working with the 
        Department of Energy (Pacific Northwest National Laboratory-
        PNNL), has established a terrorist radiation/nuclear detection 
        project to investigate systems and technologies to augment and 
        enhance their existing radiological detection capabilities. 
        This project addresses the maritime, aviation, land crossing, 
        and rail USCS inspection environments.
    the role of science and technology and our national laboratories
    The science and technology response to our homeland security 
challenges must draw broadly on the talent and expertise resident in 
our research universities, our industry, and in all the government 
laboratories managed by multiple agencies. The national laboratories 
managed by DOE and the National Nuclear Security Administration will 
play a very substantial role, particularly on weapons of mass 
destruction issues. These laboratories have specialized capabilities in 
several areas of science and technology, such as the control and 
detection of nuclear materials, and expertise pertinent to 
radiological, chemical and biological threats. The national 
laboratories maintain the interdisciplinary approach and scientific and 
engineering breadth necessary to take a broad systems view of these 
problems, and have the ability to deliver solutions in a secure 
environment.
    I very much appreciate the opportunity to provide this statement 
for the record.

    Senator Cantwell. And while she was unable to join us today 
because of a conflict, her testimony details many of the 
contributions that PNNL is already making to homeland security. 
For example, PNNL is developing or has developed a holographic 
imaging system for the FAA, and they use that for personal 
security checkpoints. They've developed radiation detection 
technology, the legacy of which goes back to Hanford's 
involvement in the Manhattan project. They've been involved in 
training and border security, both with programs developed at 
the PNNL lab and the Hammer facility, which is located in 
Richland, Washington. So they've already trained, many people, 
I think, from 17 different nations in how to do border 
security.
    So these are just some of the many examples, but there are 
other issues. For example, last spring I attended the 
dedication of the world's most advanced nuclear magnetic 
resonance spectrometer, which is at the PNNL Environmental and 
Molecular Science Lab, and is poised to play a central role in 
the fast-growing revolution in systems biology. And, while I 
can say that that would have some benefit for us in the area of 
bioterrorism, it has many other missions besides that. How will 
we make sure that those missions, whether it's helping us look 
at new sources of hydrogen necessary for distributed generation 
or looking at new ways to remediate nuclear waste are 
presented? There are so many things that that particular 
science and technology will allow us to do, and if its mission 
were moved to Homeland Security, how will we keep the key focus 
on those other projects?
    So all of these, I believe, are important issues at the 
core of the Department of Energy, and I believe that our 
efforts in these areas should be redoubled and certainly not 
inadvertently undermined by moving part or some of them to the 
Department of Homeland Security.
    And, Mr. Chairman, thank you again for holding the hearing 
and allowing us to give opening statements.
    [The prepared statement of Senator Cantwell follows:]
Prepared Statement of Hon. Maria Cantwell, U.S. Senator From Washington
                  homeland security and national labs
    Thank you, Mr. Chairman, for holding this important hearing on the 
role of our Department of Energy laboratories in our nation's effort to 
enhance our homeland security. I applaud the Administration for 
stepping forward to propose a new Department of Homeland Security. This 
is a big step and an enormous undertaking. But I also believe it is 
Congress' duty to raise some very important questions, which I believe 
must be answered before moving toward creating this new Department.
    I recently had the opportunity to question Governor Ridge regarding 
the specifics of the Administration's proposal as a member of the 
Judiciary Committee. My primary concern in that context is, I believe, 
quite relevant here: Given that we have a very urgent need to improve 
our domestic security, how do we undertake a massive bureaucratic re-
shuffling in a way that will not further slow our ability to improve 
our defenses? And specifically when it comes to our national labs, how 
do we ensure that we maximize and enhance the benefits of the research 
and development efforts already underway in a manner that ensures our 
DOE labs continue to fulfill their multiple important missions, while 
bolstering the efforts of the Department of Homeland Security?
    As I mentioned, substantial effort is already being devoted to 
homeland security issues at many of our national labs--including 
Washington state's Pacific Northwest National Laboratory (PNNL), where 
about 40 percent of the activities are in some way national security-
related.
    I would like to take this opportunity to submit for the record the 
testimony of Dr. Lura Powell, PNNL's Director. While Doctor Powell was 
unable to join us here today due to a conflict, her testimony details 
many of the contributions PNNL is poised to make to our homeland 
security. For example, PNNL is developing or has developed: a 
holographic imaging system for the FAA's use at personal security 
checkpoints; radiation detection technology, the legacy of which dates 
back to the Hanford site's involvement in the Manhattan Project; and 
training for border security agents in the interdiction of weapons of 
mass destruction. This last training program--developed by PNNL and the 
HAMMER facility also located in Richland, Washington--has already 
educated boarder officers from 17 nations and resulted in the seizure 
of materials in Eastern Europe, including nuclear reactor components 
and Uranium-235 destined for Iran.
    This is just a sampling of PNNL's activities, which makes clear 
that our national labs can and must make a crucial contribution to the 
effort to improve our homeland security. But I also want to add one 
important note. As Congress continues to refine the President's 
proposal, we must remain vigilant about unintended consequences. That 
is, certain ongoing multidisciplinary programs may contribute to the 
homeland security effort, but must continue to serve the independent 
objectives that remain part of DOE's core mission.
    For example, this spring I had the opportunity to attend the 
dedication of the world's most advanced NMR (nuclear magnetic 
resonance) spectrometer at PNNL's Environmental and Molecular Sciences 
Lab, which is poised to play a central role in the fast-approaching 
revolution in systems biology, the seeds for which were sown by the 
amazing success of the Human Genome Project. While it's true that 
systems biology and proteomics (PRO-TEE-OHM-ICS) research will have an 
important role in quelling the bioterrorist threat, it will also lead 
to new and innovative strategies to address climate change, 
technologies allowing us to more efficiently tap our nation's abundant 
renewable energy resources, ways to more efficiently produce the 
hydrogen necessary to power certain sources of distributed generation 
such as fuel cells, and even innovations in the remediation of our 
nation's nuclear waste sites.
    All of these are important, core missions of the Department of 
Energy and I believe our efforts in these areas should be redoubled--
and certainly not inadvertently undermined as we move forward with the 
proposed Department of Homeland Security. In fact, I believe a clear 
legislative mandate for the Department of Energy's biological research 
programs would likely be beneficial for our overall federal research 
initiatives--creating a more transparent R&D structure among and 
between the various departments.
    So I look forward to today's testimony, and thank you again, Mr. 
Chairman, for holding this important hearing.

    The Chairman. Thank you. Senator Feinstein, did you have 
any opening comments?

       STATEMENT OF HON. DIANNE FEINSTEIN, U.S. SENATOR 
                        FROM CALIFORNIA

    Senator Feinstein. Just briefly, Mr. Chairman, if I might. 
I'm delighted to see Chancellor Orbach again. He was the 
distinguished chancellor at the University of California at 
Riverside and did some very important work in that capacity, so 
it's good to see you again, Doctor.
    I am really delighted that Lawrence Livermore was chosen as 
a center of excellence in this program. Originally, there was a 
great deal of concern that the entire $1.2 billion budget at 
Livermore would be shifted to the new department. Now I 
understand that just about $40 to $50 million of program areas 
will shift over, and I believe this represents about one-third 
of the Department of Energy's lab spending at Livermore that 
will be transferred to the new Department of Homeland Security.
    I have some concern about the size of the Department of 
Homeland Security, but I think the administration is moving in 
the right direction here by targeting the DOE lab programs most 
directly related to homeland security for inclusion in the new 
department.
    I have a couple of concerns. And maybe the witnesses can 
address these concerns in their comments. And I'd just like to 
quickly spell out two. I'd like to get a better understanding 
of how the transition of these lab programs would work. For 
example, when the administration says it's moving Livermore's 
chemical and biological programs to the Department of Homeland 
Security, how will that be reflected in the day-to-day work of 
lab personnel? Do they stay in the same lab? Do they go to a 
different place? Will scientists and others be relocated? Would 
a scientist that worked on homeland security at Livermore also 
be able to do research for the Department of Energy? That's one 
area of concern.
    The other is in the--Livermore's intelligence programs. 
Livermore has important intel programs, and my understanding--
they're proposed for transfer to the Department of Homeland 
Security. Now, they also provide important support to our 
country's strategic nuclear defense posture, and so I would 
like to know how this program ensures that both intel goals are 
met by this transfer.
    With that, I'm anxious to hear from the witnesses.
    The Chairman. Well, thank you very much.
    Why don't we go ahead and hear from the witnesses? 
Ambassador Brooks, why don't you go first, and Dr. Orbach 
follow him, and then we'll have some questions.

STATEMENT OF AMBASSADOR LINTON F. BROOKS, ACTING ADMINISTRATOR, 
            NATIONAL NUCLEAR SECURITY ADMINISTRATION

    Ambassador Brooks. Thank you very much, Mr. Chairman. I 
have a prepared statement. I'd just like to summarize----
    The Chairman. We'll include the full statement in the 
record of both witnesses.
    Ambassador Brooks. I'm very pleased to be here to talk 
about the DOE and NNSA and the national labs contribution to 
homeland security. And the focus of this hearing on the 
national laboratories is apt, because the national 
laboratories, from the technology side, are the key to making 
all of this work.
    The first and most important message that I want to leave 
with the committee is that the Secretary of Energy and the 
whole department, the National Nuclear Security Administration, 
are fully committed to the homeland security mission. We're 
fully committed to the successful establishment of the 
Department of Homeland Security, and we're fully convinced that 
the President's approach does not represent any reduction in 
our ability to carry out our core mission. And, in the question 
period, I can amplify on that if you wish.
    I think the new department will let us respond more 
effectively to today's threats. Now, to do that, the new 
department will require some capabilities, as the opening 
statements have made clear, that are now under my stewardship. 
The details of what will be transferred were worked out 
directly with our office, and they were worked out collegially. 
And so we are both satisfied that we're going to be able to 
continue to carry out our mission, and we're committed to 
making the transfer of responsibilities both smooth and 
effective.
    I want to talk briefly about the functions first, in title 
III, which is the technology area, and then very briefly in 
title V. With respect to title III, the capabilities that are 
being proposed for transfer are now within my Nonproliferation 
and Verification Research and Development Program. Now, that 
program has three elements. It has an element, about a third of 
it--the whole program is about $286 million--somewhere around a 
third of it is nuclear explosion monitoring, and that will 
remain in the Department of Energy and is not at issue. 
Somewhere around $70 million is chemical and biological 
national security, and that will all be transferred to the new 
department. And I'll say a word or two about that in a minute. 
And then the third and largest area is called proliferation 
detection. Proliferation detection sponsors a number of 
technologies that have both nonproliferation and homeland 
security application. Where we can disaggregate and show that 
something is primarily one or the other, that's where it'll go. 
And, at a minimum, our efforts to counter nuclear smuggling are 
clearly homeland-security related, and they'll be transferred 
to the new department.
    Where the programs are so intertwined that they must 
continue to support both departments, the President's 
legislation authorizes--the President's proposed legislation 
authorizes us to look at joint programs. This is illustrative 
of a basic principle. We understand that the Department of 
Energy and the new department, in this area, are going to have 
to work together very closely, because we're going to be 
sharing the resources of the national laboratories.
    The chemical and biological functions to be transferred 
develop technologies primarily to detect and respond to 
domestic attacks against civilian targets, so it complements 
the work done by the Department of Defense. An example is the 
so-called PROTECT system, which was demonstrated in December in 
the Washington metro to detect against chemical attack, or the 
so-called BASIS system, which is a biological detector which 
was deployed at the Winter Olympics.
    In proliferation detection, nuclear smuggling, which is 
about $10 million, clearly is relevant to the new department 
and will be transferred. That program grew from the work to 
determine nuclear-weapons signature, and that's illustrative of 
the point that several of the senators made in their opening 
statements that the capabilities of the national laboratories 
are going to be involved in both my world and the homeland-
security world in the future, just as they have been in the 
past.
    In addition, we propose to transfer the department's 
Nuclear Assessment Program. I need to make it clear, because 
there have been several conflicting reports. The Nuclear 
Assessment Program is administratively located within the 
Material Protection Control and Accounting Program, which, as 
the Senator mentioned, is primarily a program that involves 
upgrading facilities in Russia.
    The facilities in the work in Russia will remain with me 
and are not proposed for transfer. There's a very small $6 
million effort which is administratively located within this 
program which evaluates nuclear threats. It evaluates claims of 
nuclear extortion. And that seems to us to be more 
appropriately a homeland-security function. Basically what this 
program does is it reaches into the national laboratories for 
experts so that when a threat is received, we can help law 
enforcement assess the credibility. That's the only part of 
what you might think of as nonproliferation operational work 
that is being transferred. Our nonproliferation programs will 
remain in the department.
    Under title V, we propose to transfer operational 
responsibility for responding to nuclear incidents. We are, as 
you know, prepared to respond anywhere in the world to nuclear 
and radiological incidents in emergencies. We have about 900 
people, the overwhelming majority of whom are at the 
laboratories and are part-time, and they derive their expertise 
in incident response from what they do in their regular jobs.
    The way the President's proposal would work, we would 
continue to be responsible for maintaining that capability, for 
training and equipping them, but, just as the National Guard or 
the volunteer fire department can be called up in time of 
emergency, they could be called in time of emergency and would 
operate under the direction of the office of homeland security.
    Under the approach that the President has proposed, we will 
be establishing--or the Office of Homeland Security will be 
establishing--centers of excellence at several of the national 
laboratories. At the moment, we envision the three weapons 
laboratories, Pacific Northwest Laboratory and Oakridge, but 
that obviously can be adjusted, depending on need. And the 
notion here is to make certain that the new department can tap 
all of the capability of all of the national laboratories.
    Let me conclude with a couple of observations.
    The Chairman. Is that last statement on your part, the 
centers of excellence, is that a substitute for what has been 
bantered around as a new headquarters at Livermore?
    Ambassador Brooks. It's not a substitute, sir. It's 
something different. The notion----
    The Chairman. Do you need both?
    Ambassador Brooks. What is now being proposed is that the 
Office of Homeland Security would have a Federal facility, 
Federal employees to do the oversight and management. That 
facility will, keeping in mind that many of these decisions are 
not yet made, probably be located at Livermore. But it's 
important that the department be able to reach into all of the 
laboratories, and so there would be a mechanism created at each 
of the laboratories to make sure that all of the capability is 
made available to the new department.
    The Chairman. Thank you very much.
    Ambassador Brooks. A couple of concluding points, if I may, 
Mr. Chairman. It seems to me that it is going to be critically 
important for the new department and for the congressional 
committees that oversee it to join with us in maintaining the 
technology base at the national laboratories. The reason we 
could provide some capabilities quickly after September 11 is 
that the laboratories and the department had invested, over the 
years, in the technology base. And it will be very important 
that both departments continue to regard that technology as 
important.
    Second, and particularly with regard to proliferation 
protection programs, no matter how we do the split, there will 
be things in each department's area of responsibility that also 
benefit the other department. And, therefore, it is going to be 
particularly important that the Department of Energy and the 
Department of Homeland Security work together closely. We are 
starting that effort by trying to work very closely in the 
development of the president's proposal with the Office of 
Homeland Security, and we are completely committed to that 
partnership.
    Finally, I want to conclude where I began. The Secretary 
and I fully support the establishment of a new the Department 
of Homeland Security. We're fully comfortable with the transfer 
of the programs that have been proposed by the President. And 
we think that this will help us meet our fundamental obligation 
to ensure that all Americans are safe.
    And, with that, sir, I look forward to your questions after 
you've heard from Dr. Orbach.
    [The prepared statement of Ambassador Brooks follows:]
     Prepared Statement of Linton F. Brooks, Acting Administrator, 
                National Nuclear Security Administration
                              introduction
    Thank you, Mr. Chairman for having me here today. This is an 
exciting time: the United States is on the verge of establishing a new 
Government Agency that will have sweeping responsibilities. It will 
enable us to more effectively respond to today's threats, through a 
streamlined and dynamic institution that will greatly enhance our 
ability to respond quickly, decisively, and where necessary, before 
threats against our homeland materialize. In short, we are on the verge 
of making history. It's critical that we get it right.
    The Department of Energy and the National Nuclear Security 
Administration are fully committed to the homeland security mission, 
and the successful establishment of the Department of Homeland 
Security. We recognize that this will require some restructuring and 
relocation of critical assets now under the stewardship of the NNSA. We 
are prepared to support these shifts in responsibilities, and indeed, 
to do what is necessary to make any transfer of responsibilities as 
smooth and painless as possible.
    There is an enormous amount of experience and expertise now 
residing in DOE/NNSA that will be vital to the success of the new 
Department. Our Technology Research and Engineering assets have been 
applied to homeland security problems long before last September; since 
then, such contributions became even more focused and accelerated.
    We've conducted the PROTECT subway demonstration, which will help 
provide chemical protection to the U.S. population. We deployed a 
prototype biodetection capability at the winter Olympics. We have 
greatly increased our work with the U.S. Customs and Coast Guard with 
radiation and nuclear technology--specific areas that will directly 
benefit the new Department. DOE/NNSA is committed to ensuring that its 
assets can continue to provide enabling science and technology to 
support homeland security and counter-terrorism mission needs.
    There are a number of capabilities currently residing in the 
Department of Energy that will support or be transferred to the new 
Department. Today I want initially to focus on those relevant to Title 
III of the legislation, that is, those germane to technology research 
and development in support of the Homeland Security mission.
    We currently support the FBI in its role as ``lead agency'' in 
responding to an emergency within the United States, including a 
potential nuclear emergency. We expect that these emergency response 
functions will play a major role in supporting the Homeland Security 
mission, as stipulated in Title V of the bill. I want to discuss these 
functions as well.
    Before turning to those topics, let me briefly mention a few things 
that the Homeland Security Act does not do. It will not affect our 
ability to conduct our principle missions of stockpile stewardship, 
nuclear nonproliferation, naval reactors, and, just coming to NNSA, 
emergency response. NNSA will retain all of its programs and 
responsibilities that contribute to our ability to assure the safety, 
security, and reliability of the nation's nuclear weapons stockpile.
    With respect to nuclear nonproliferation, the Administration 
proposes to transfer the core of our chemical-biological WMD work and 
certain nuclear programs related to the domestic threat. This is 
largely self-contained work and almost exclusively supports domestic 
preparedness programs.
    NNSA has unique assets and capabilities, developed primarily from 
our work with nuclear weapons and with nonproliferation, that have been 
applied to homeland security problems long before last September.
    Some of these initiatives have long timelines. Long before 9/11, 
DOE has led USG efforts to support ``first responders'' with our 
chemical, biological, and nuclear research programs. We've worked 
closely with the FBI and other agencies to ensure that cutting edge 
detection and identification technologies are available to those that 
would need them first. And we began this work long before there was a 
recognized need to do so--we took the initiative because we anticipated 
the requirement. It is as good an example as any of why long-range 
research is so critical to the security of this country.
    We have aggressively pursued these efforts since last 9/11. But 
it's time for a more focused organization and we are committed to that 
change and to continuing to provide enabling science and technology in 
support of homeland security and counter-terrorism mission needs.
                            title iii issues
    The NNSA Nonproliferation and Verification Research and Development 
Program conducts applied research, development, testing, and evaluation 
of technologies that lead to prototype demonstrations and resultant 
detection systems. As such, the program strengthens the U.S. response 
to current and projected threats to national security worldwide posed 
by the proliferation of nuclear, chemical, and biological weapons and 
the diversion of special nuclear material. The R&D program provides 
operational organizations with innovative systems and technologies to 
satisfy their nonproliferation and counter-terrorism mission 
responsibilities. The program's four main elements are:

  <bullet> Nuclear explosion monitoring, which will remain within the 
        Department of Energy;
  <bullet> Chemical and Biological National Security, which will be 
        transferred in its entirety to the Department of Homeland 
        Security;
  <bullet> Proliferation Detection; and
  <bullet> Supporting Activities.

    Within the proliferation detection program is an element on nuclear 
smuggling that will be transferred to the Department of Homeland 
Security. Proliferation detection has aspects that support both 
nonproliferation and homeland security. Those elements that can be 
disaggregated and identified as supporting homeland security will be 
transferred to the new Department. Where the activity supports both the 
homeland security and non-proliferation functions, we will examine such 
arrangements as joint programs. The Administration's proposed 
legislation gives the President the necessary flexibility to provide 
for joint operation.
    Let me describe those functions that will be transferred, after 
which I will return to the subject of long-term coordination.
Major Activities Identified for Transfer
    Within, the Nonproliferation and Verification Research and 
Development Program, the Chemical and Biological National Security 
Program and the nuclear smuggling detection activity fall squarely into 
the Homeland Security mission and thus have been designated for 
transfer in their entirety.
    The Chemical and Biological National Security Program develops and 
applies detection technologies entirely for domestic homeland mission 
requirements, such as a prototype biological detection system used at 
the Salt Lake City Olympics and a prototype chemical detection system 
currently being installed in Washington D.C.'s metro system. The 
nuclear smuggling detection directly supports U.S. homeland nuclear 
detection requirements, such as a nuclear detection system designed for 
regional deployment, for example around a major city. I wish to 
describe each program briefly, and then also discuss our nuclear 
assessments program, which is also to be transferred.
Chemical and Biological National Security Program
    The Chemical and Biological National Security Program works to 
develop technologies and systems to improve the U.S. capability to 
prepare for and respond to domestic chemical and biological threats 
against civilian populations, complementing DOD's focus on the 
battlefield and military installations. As part of its primary nuclear 
science and technology mission, NNSA and the National Laboratories have 
developed extensive capabilities in chemistry, biology, and materials 
and engineering sciences that form the basis for the NNSA chemical and 
biological national security program. We have conducted research on the 
biological foundations necessary to establish signatures of biological 
threat agents and develop assays certified by the Centers for Disease 
Control for those agents, which are applied to develop detectors.
    NNSA has conducted demonstration projects of prototype detector 
capabilities in partnership with other agencies to support their 
operational missions, such as the systems I just mentioned that have 
been developed and applied for the Olympics and the Washington Metro, 
to illustrate possible system approaches for population protection. We 
are now working to expand the number of signatures and assays of 
biological agents that we can detect with increased sensitivity, and to 
improve public health response through the CDC. The next generation of 
bio-detectors will detect a much wider range of agents, which will 
enable public health agencies to more rapidly treat affected people.
Homeland Security Nuclear Smuggling Activities
    The nuclear smuggling component of our proliferation detection 
program also squarely fits within homeland security and will be 
transferred. NNSA and the National Laboratories have unique insight 
into nuclear proliferation activities--the facilities and 
infrastructure, as well as the observable signatures of nuclear weapon 
development activity. We also have the capability to develop technical 
solutions for the U.S. government to detect and characterize such 
proliferation activities in their early stages. NNSA has worked closely 
with homeland security agencies, including U.S. Customs, U.S. Coast 
Guard, and the Departments of Transportation and Justice to apply this 
technical base to detection of nuclear weapons and materials at U.S. 
borders. We have previously conducted demonstrations with these 
agencies of radiation detection methods at an international border 
station, a port, a rail yard, and airport personnel and baggage 
handling facilities. With many of these agencies becoming part of the 
new Department, it is a good fit for the R&D applications to counter 
nuclear smuggling to be transferred to the Department of Homeland 
Security.
Nuclear Threat Assessment and Trafficking in Nuclear Materials
    The Department of Energy's Nuclear Assessment Program provides a 
national capability to assess accurately and swiftly the credibility of 
communicated threats of nuclear terrorism. The Lawrence Livermore 
National Laboratory (LLNL) leads this unique effort. Since September 
1978, the Nuclear Assessment Program has been used to assess the 
credibility of over 60 nuclear extortion threats, 25 nuclear reactor 
threats, 20 non nuclear extortion threats and approximately 650 cases 
involving the reported or attempted illicit sale of nuclear materials.
    When activated, DOE-based threat credibility assessment teams 
perform comprehensive technical, operational and behavioral assessments 
of communicated nuclear threats at the start of an actual or perceived 
emergency. Since communicated nuclear threats are a serious violation 
of federal law, the FBI is the lead federal agency. Since the Program's 
inception in 1977, the Nuclear Assessment Program has developed close 
and working relationships with its counter-terrorism counterparts in 
Customs, State, FBI, DIA, CIA, and others in the nonproliferation 
community. The Program also provides expert technical support to law 
enforcement and others for Special Event Preparedness, on-scene 
technical support, and national and international training.
    Since 9/11 the Nuclear Assessment Program has performed 
approximately 70 assessments involving communicated nuclear threats, 
reports of illicit trafficking of nuclear materials, and special 
analysis reports for law enforcement and intelligence components. This 
national asset provided immeasurable support to all government agencies 
tasked with separating critical from non-critical information in the 
aftermath of 9/11.
                             title v issues
    I want to now turn to emergency response, and Title V of the 
proposed bill.
    The Department is prepared to respond immediately, anywhere in the 
world, to discrete and specific nuclear-radiological incidences and 
emergencies. People and equipment are trained, and they are ready to 
respond right now.
    There are seven basic teams that make up this nuclear-radiological 
incident response capability, which includes nuclear emergency support 
activities. These include aerial measurement teams, accident response 
groups, and a radiological assistance program that works closely with 
state and local agencies. Through these tailored and responsive teams, 
NNSA marshals highly trained and unique scientific and technical 
expertise, drawing across the NNSA resources and the Department as a 
whole.
    There are more than 900 individuals on call to respond in the event 
of a nuclear-radiological incident or emergency. Only a handful of 
these about 70 are full time. It is the ability to call upon a broad 
range of professionals from across the weapons complex that brings this 
program its depth and ability to respond to a wide range of crises or 
emergencies.
    Comparisons to volunteer fire departments or National Guard units 
have been made; these teams are staffed with nuclear professionals who 
take this work on as additional duty. Day-to-day, they are the 
individuals who ensure the safety, the security, and the reliability of 
our nuclear weapons stockpile. It is this everyday work that qualifies 
them for serving in an emergency.
    To support the new Department, we envisage that these teams would, 
when requested, be activated and deployed to help manage a crisis; in 
other words, current practices would prevail. The team members would 
continue to work in their current jobs in the Department of Energy and 
the NNSA. In response to a WMD incident, our teams would deploy under 
the authority of the Department of Homeland Security. We do not 
anticipate that the DOE-NNSA capabilities or response to a nuclear-
radiological accident or incident would be compromised in any way by 
this transfer of operational control for specific domestic responses.
                              observations
    With the transfer of Title III programmatic responsibilities to the 
Department of Homeland Security, it will be critically important that 
the new Department maintain the technical base at the National 
Laboratories, so that the capability and the scientific atmosphere to 
pursue high risk, long-term research be encouraged in spite of the need 
to focus on short-term requirements for homeland security. It is the 
ability to pursue such research that makes our national laboratories a 
national treasure--and a unique asset with unmatched capabilities. Only 
through such investment will the scientific and technical capability 
exist to meet the needs for innovative solutions to future homeland 
security problems.
    With respect to the remainder of the proliferation detection 
program, no matter how the responsibilities are finally apportioned, 
the research will be of value to both departments. For that reason, it 
is critical that we work together closely. By so doing, our 
nonproliferation and homeland security efforts will continue to benefit 
from the unparalleled capabilities of the National Laboratories.
    I support fully the concept of locating the new Department's main 
research facility at Lawrence Livermore, with satellite centers of 
excellence located at other national laboratories. It will create a 
campus-like environment where scientists will be dedicated, full-time, 
to thinking about homeland security, and it will allow for direct 
interaction with the expertise that resides at the other DOE labs as 
well as other labs throughout the federal government. It's good for DOE 
and it's good for the Department of Homeland Security.
    Just as DOE and NNSA fully support the transfer of programs as 
stipulated in Section 302 of the bill, we also believe that Title V of 
the bill is the right way to incorporate the NNSA nuclear emergency 
response assets into the operations of the new department.
                               conclusion
    I want to reiterate in no uncertain terms: The National Nuclear 
Security Administration supports fully the transfer of the programs 
noted in Section 302(2) of the bill under discussion. The details of 
what would be included in the legislative package were worked out 
directly with my office. These programs are a natural fit for the 
Department of Homeland Security, whose primary mission is the critical 
task of protecting the United States from catastrophic terrorism. DOE/
NNSA will also work to ensure that its assets can continue to 
contribute enabling science and technology in support of DHS mission 
needs.
    Obviously, that is a goal that I am pleased to support 
wholeheartedly. I believe that the bill as being discussed goes a long 
way toward its realization.
    Thank you, and I look forward to any questions you may have.

    The Chairman. Dr. Orbach, why don't you go right ahead, and 
then we'll have some questions.

          STATEMENT OF DR. RAYMOND ORBACH, DIRECTOR, 
            OFFICE OF SCIENCE, DEPARTMENT OF ENERGY

    Dr. Orbach. Thank you, Mr. Chairman.
    I, too, would like to submit my testimony for the record, 
if I may, and then give a few comments.
    The Chairman. Very good.
    Dr. Orbach. Thank you.
    First of all, it's a pleasure to be here again and to 
discuss title III of the Homeland Security Act as it applies to 
the Office of Science in the Department of Energy. We believe 
that the President's plan makes good sense.
    Each of you has brought up some important issues associated 
with the strength of the laboratories and, if I may, the 
strength of our research program in the United States, because, 
in my ten laboratories, about half of the research that is 
carried out that is funded by the laboratories--or, I should 
say, by my office--goes to universities, the other half to the 
laboratories.
    And what we have done in order to meet some of the issues 
you raise--namely not leaving the Department of Homeland 
Security isolated, but rather coupling it to the entire 
research base of the Nation--is to appoint a point of contact 
within each of the ten laboratories that are a part of the 
Office of Science. Those laboratories have a single point of 
contact. And as we go around the country with our site visits, 
we are inviting the vice provost or vice presidents for 
research from all of the universities in the geographic area 
associated with the laboratory to attend and become part of a 
national program to assist the new Department of Homeland 
Security. So we are using the laboratories as a means of 
outreach to the research community, both in the private and in 
the public sector. We hope this will, as I say in my testimony, 
enrich and nourish the research and development programs which 
are so essential to the new department.
    We have also transferred programs from the Office of 
Science; in particular, in the area of genomics dealing with 
both pathogens which are lethal and those which are related to 
them for the purpose of identification of dangerous pathogens, 
but also to avoid false positives. What we have done is to put 
together a package that will give a core competency to the 
Department of Homeland Security in the biological-threat area. 
It is certainly not sufficient to cover every area and all 
aspects of biological security. And, indeed, as all of you have 
pointed out, it's important to use a national research base. 
But it is also essential for the department to have a 
competency and its own laboratories to be able to experiment, 
to be able to match the information that it will receive, and 
also to inform the research community of the opportunities that 
are present for contribution to homeland security.
    One of my experiences, as I've gone around the country, is 
one of great patriotism. This entire Nation is committed to the 
fight against terrorism, and scientists want to contribute to 
that fight. The creation of this department will give them a 
targeted vehicle for input, in terms of their own ideas and 
also information from the department that they can use for 
their own information and direction.
    Now, the area of dual-use came up with both Senators 
Cantwell and Senator Feinstein, and this is a tricky issue, 
because we are dealing with the health and strength of the 
laboratories as well as the needs for homeland security. And 
this is one where we believe the Department of Homeland 
Security has to have its own core--as I called it, a core 
competency--but it must rely, ultimately, on the laboratories, 
their strengths, and the university communities.
    So in the case, for example, of the 900 megahertz 
spectrometer at PNNL, that is a device which will be used for 
both, and, for structural determinations of pathogens, for 
example, would be available to the Department of Homeland 
Security. And its very existence, which is based on the entire 
spread of science that it will accomplish, will be available 
for homeland-security purposes.
    In the programs we have transferred in the biological 
areas, it is clearly not all of the biological programs, 
because, within the Department of Energy, we have a mission, as 
well, using biological approaches. Nevertheless, the 
relationship between our laboratory programs and the core 
competency of the Department of Homeland Security ensures that 
there will be exchange of ideas. There will not be an isolation 
which would lead to a decay of that competency within the 
department.
    Finally, let me say that I believe we have a important 
mission. I believe that the creation of the Department of 
Homeland Security gives us a way to bring science and 
technology directly into the national arsenal to deal with the 
threat of terrorism. And, as Ambassador Brooks said, our Office 
of Science is fully committed to working with the new 
department and making available to it all the resources that we 
can provide to assist it in its pursuits.
    Mr. Chairman, that concludes my remarks, and I, too, would 
be pleased to answer any further questions.
    [The prepared statement of Dr. Orbach follows:]
Prepared Statement of Dr. Raymond Orbach, Director, Office of Science, 
                          Department of Energy
    Thank you, Mr. Chairman. On behalf of Secretary Abraham it is a 
pleasure to be here today with Ambassador Linton Brooks to discuss 
Title lll of the Homeland Security Act as it applies to the Office of 
Science and the Department of Energy.
    The President's proposal to organize the Department of Homeland 
Security will significantly improve the way the Government responds to 
threats against the United States. The President's plan simply makes 
good sense. We at the Department of Energy are proud of our role in the 
fight against terrorism and we look forward to working with Congress 
and the Administration to make a smooth transition to a new department.
    As the President has said, there are dozens of international 
terrorist organizations capable of doing harm to the United States. But 
if we wait for threats to full materialize, we have waited too long. It 
is clearly in the interest of all Americans to create a new Department 
of Homeland Security.
    The federal agencies with the best access to the nation's sources 
of scientific, engineering and medical research lie outside the 
proposed department, and close cooperation will be needed to allow the 
new department to produce the best to counter terrorism.
    The Office of Science and Technology Policy (OSTP) within the 
Executive Office of the President (EOP) has a critical role with the 
capability to interact with the science and technology community in 
support of the Department of Homeland Security.
    The present OSTP director has given homeland security a top 
priority and he has asked the President's Council of Advisors on 
Science and Technology to give these issues priority as well.
    The Office of Science is responsible for some of this nation's most 
critical and most farsighted scientific research. Our capabilities and 
assets are currently being applied toward a host of homeland security 
and counter-terrorism challenges. Several DOE Science-related 
activities will be transferred to the Department of Homeland Security, 
including:
    DNA SEQUENCING--High throughput DNA sequencing is used to determine 
the sequences of pathogenic microbes that can be used by bio-terrorists 
and related microbes. Each pathogen has many close genetic relatives 
that do not cause disease but that need to be characterized so that 
more accurate detection methodologies can be developed that avoid 
unnecessary and alarming false positives.
    TECHNOLOGY DEVELOPMENT--We are now using computational tools to 
compare the gene sequence from an organism to the database of existing 
gene sequence. This research can be redirected to aid in anti-terrorism 
research and development.
    COMPUTATIONAL TOOLS AND DATABASES--Faster, more robust 
computational tools are being developed for searching the rapidly 
expanding databases of microbial (and other) DNA sequence data. In 
addition, dedicated, secure databases may be needed in some cases to 
prevent sensitive information on potential bio-threat agents or on 
methods for their detection from falling into the hands of terrorists.
    ADVANCED SCIENTIFIC COMPUTING AT LAWRENCE LIVERMORE--The Advanced 
Scientific Computing Research program supports researchers at LLNL in 
applied mathematics and computer science to achieve optimal 
efficiencies from large scale computing systems.
    The transfer of these activities to the Department of Homeland 
Security makes sense because it will provide the new Department with a 
critical core competence is several area of science that will be 
necessary for DHS to set the research direction for the Department.
    It will allow for the Department of Homeland Security to reach out 
broadly, to the unclassified, fundamental research community that 
exists at other laboratories, at our nation's universities and in 
industry to tap the intellect and patriotism of the entire U.S. 
research community.
    I believe this is vitally important--no single agency or research 
group will provide all the answers we will need to fight terrorism and 
protect our country. Instead, we need a strong research arm within the 
new agency that can work with the full spectrum of research being 
performed in this country to get the best from the best, and in doing 
this maintain the vitality of science to counter terrorism.
    Time and again, we have learned that science conducted in a vacuum 
suffers, while science subjected to the pollination, and pruning, from 
a larger community thrives. Further, we have identified a point of 
contact within each Office of Science laboratory to act as the vehicle 
for transmitting anti-terrorist research and development needs of DHS 
to the laboratory, and opportunities within the laboratory to DHS.
    To maximize involvement in research technologies a broad dialogue 
on a variety of topics is needed. An effective approach is to attract 
the private sector in a dual-use strategy in which security uses and 
commercial applications rest on a common base of investment.
    In addition to providing for creative research, universities also 
play vital role between federal programs and the needs of state and 
city governments.
    Again, it's a pleasure to be here with you today and I look forward 
to answering any of the questions you or other Members of the Committee 
may have.

    The Chairman. Well, thank you very much. Let me start with 
a few questions.
    One concern which I have is that I don't really understand 
what is meant by this phrase, ``proposed transfer.'' Ambassador 
Brooks, you've indicated you propose--or ``the administration 
proposes to transfer.'' Does that mean that the individuals who 
are working in one wing or one hallway of a particular 
laboratory somewhere in the country will be physically moved, 
or does it mean that they just will told they no longer report 
to the people they used to report to, or what will we be doing 
with them when once they've been transferred?
    Ambassador Brooks. Mr. Chairman, the individuals working on 
specific projects, the scientists, quite possibly won't know 
that they've been transferred. The laboratories function as 
intellectual and technological scientific research 
establishments, and people work on particular projects that are 
assigned them by--or that are assigned to the laboratories by 
the Department of Energy.
    What will happen is that the responsibility and the budget 
associated with those projects and the relatively small--in the 
case of chem-bio, less than ten--Federal employees or Federal 
positions who supervise them will be moved to the new 
department. But the strength of the national laboratories and 
of the President's proposal is that the laboratories are a 
synergistic organization, and we don't propose to build any 
walls within the laboratories or to paint some of the 
laboratory employees green and some of them blue. So the 
laboratory directors will retain the flexibility to assign 
people to projects as they need.
    So what will be happening is the scientists will still be 
doing the same work, but that work will be for a different 
Cabinet department and ultimately, as we go on, someone other 
than me will be setting relative priorities for them.
    The Chairman. Well, given that understanding, then, my 
impression, as I visited our laboratories, particularly in New 
Mexico, but also Livermore over many years now, is that they do 
a great deal of what they call ``work for others,'' where they 
don't--they're not working for the Department of Energy; 
they're working for the Navy or they're working for the CIA or 
they're working for some other Federal agency. And that 
generally works pretty well. They do the work that the--
presumably the laboratory administration contracts to do a 
certain project or certain research, technology development for 
one of these other agencies, and that is work for others, and 
they do it, and everything works fine. Isn't that what you're 
just describing?
    Ambassador Brooks. Almost, but there are a couple of 
differences. One is philosophical. The laboratories now see 
their role--well, let me speak of the NNSA weapons 
laboratories--as being responsive to the National Nuclear 
Security Administration. And ``work for others'' is as 
available. It's a second priority.
    The notion that we have is that the Secretary of Homeland 
Security and the Secretary of Energy would both be tasking the 
laboratories. The laboratories have two primary customers. That 
has both a philosophical aspect--that is, we want to emphasize 
that this new mission is important--and it also has an 
administrative aspect that some find the current procedures for 
``work for others'' to be somewhat cumbersome, and the intent 
is not to adopt those procedures, but to have the work that is 
done by the--under the auspices of the Department of Homeland 
Security managed and tasked in a comparable way that the work 
that's done under the Department of Energy. But, once again, if 
you're the engineer or the scientists, it's not clear to me 
that you would see huge differences.
    Dr. Orbach. If I could add to the comments of Ambassador 
Brooks.
    The Chairman. Dr. Orbach.
    Dr. Orbach. There is also the speed of response. This new 
department has a tremendous responsibility, and it has to act, 
and act quickly. It's not a time to go looking for those who 
may be available to assist it. So having some core 
competencies, some strengths of its own in research and 
development to be able to respond quickly is essential, I 
believe, for the function of that--the new department. So these 
programs that we have transferred--and sometimes it's money, 
most--sometimes it's people; it'll be a combination, as 
Ambassador Brooks has said--are, in fact, committed to the 
department and its responsible--or its responsibilities. I 
think this is the reason why there has to be some element of 
rapid response associated with the transfer of technologies.
    The Chairman. Well, it still strikes me, frankly, as 
potentially very confusing. If I'm an engineer, and I've just 
been transferred to a new department, and the director of the 
laboratory, who's still working for the Department of Energy, 
calls me up and says, ``Hey, I've got something I want you to 
do.'' Is my response supposed to be, ``Fine, I'll do whatever 
you say,'' which is presumably my response today, or is the new 
response supposed to be, ``Wait a minute. I'm not working for 
you anymore. I'm working for the new Secretary of Homeland 
Security, and if you want me to do anything for you, you'd 
better talk to him or her''?
    Ambassador Brooks. Yes, sir. I didn't make myself clear. 
There is nothing in the President's proposal that alters the 
fundamental structure of the laboratories, which are unique 
entities, but they are private corporations, the weapons 
laboratories, the people will work for Paul Robinson or John 
Brown or Mike Anastasio, just like they do now. What is altered 
is the source of funding and direction to the laboratories. So 
you shouldn't think of it in terms of individual scientists 
being transferred to another department. You should think of it 
as the laboratory, as a whole, having a responsibility to 
another department that is equal in importance with the 
responsibility that it has to my department.
    The Chairman. But that is not the--that's not what they're 
doing now when they do work for others. I mean, they--
presumably when they agree to do a project for the Navy or 
they're requested to something for the CIA or whoever, or the 
Customs Department, they presumably----
    Ambassador Brooks. That's correct, sir.
    The Chairman [continuing]. Have responsibilities to them 
and--you know, commit the resources and do that work. But 
you're saying this is a different situation?
    Ambassador Brooks. I am saying this is different in two 
respects. One is the philosophic one that that's at least 
conceptually an ``as available.'' And we are looking to have 
equal priority for homeland security. And the second is the 
administrative one that the procedures for getting ``work for 
others'' started are believed, by some, to be more cumbersome 
than is appropriate to the new Department of Homeland Security.
    The Chairman. But they'll still get their paycheck, even 
this group--the paycheck still comes from that laboratory.
    Ambassador Brooks. Yes, sir, it will.
    The Chairman. It does not come from new department.
    Ambassador Brooks. Yes, sir, that's correct.
    The Chairman. I've used all my time here. Let me defer to 
Senator Domenici.
    Senator Domenici. There's a vote up, Mr. Chairman.
    The Chairman. That's correct, we've started a vote. Do you 
want to go with your questions, and then we'll break?
    Senator Domenici. [Inaudible.]
    The Chairman. Okay, why don't you ask your questions, and 
then we'll go vote, and members may want to vote early, 
whatever.
    Senator Domenici. Well, Mr. Chairman and fellow Senators 
and witnesses, not only the two that are there, but those who 
are waiting, there aren't a lot of us in this room that 
remember the last major reorganization. We had a minor one, but 
the major one created the Department of Energy. It had a 
predecessor named ERDA. I'm old enough to have been here for 
both of them.
    The truth of the matter is, from any standpoint whatsoever, 
what we reorganized turned out worse than what we organized. 
And there is no doubt about it. You can go ask anybody that 
knows. If what I'm seeing around here has any carryover, that 
will hold true this time, too.
    I recall, when you'd go to a room, there would be a few 
members of Congress, but this room wouldn't hold the staff that 
wanted to go to every meeting. Well, when you see a note that 
says, ``Staff invited for meeting on new department,'' peak in. 
You need to open the air vents. It'll be jammed full. The last 
one I sent somebody to count, there were 120, Mr. Chairman, 
staff from probably every committee around. They're wonderful, 
they're bright. Hopefully we can get it all organized where we 
can get something out of it.
    But let me say, if we make it too complicated, we're going 
to be inviting tentacles that are going to be all over the 
place, and you're going to get one senator with all his 
admiration for this President. I'm going to be trying to find 
out how we make it not work or how we don't do it, unless we 
can make it rather simple.
    Second point, you know, I have been appropriating the money 
for now on 6 years as the principal appropriator for all these 
laboratories, including Lawrence Livermore. And, for the life 
of me I cannot see why Lawrence Livermore is offered the lead 
in any respect over the two labs that are its brother labs. 
None. They had to get this NIF program, which we had to pay 
for, or they would have fallen off the ladder and been second 
rate in total when we put that program in--$4 billion NIF.
    So for those who are wandering around, they ought to get 
their marbles straight with reference to this. They did less of 
the work for the nuclear weapons; thus, more biological 
research, and somebody looks at it and says, ``Woo, biology 
research, that's what we need for the war--for this new war.'' 
So somebody says they're going to lead something. And they're 
going to lead something just like the other laboratories, it 
would appear to me. And they may have some particular area 
where they'll have a lead. And we ought to forget about arguing 
over that, and we ought to decide how we're going to manage 
this thing and who is in charge of what.
    From what I can tell--from what I can tell, it can be done. 
And, from what I can tell, everything that I've looked at that 
you all have put down, there's some interpreting and some 
working together, I think it will work. It's not going to be 
easy, because you can have a mixture of the kinds of 
departments. You're going to have nuclear weapons makers, 
designers, developers--although they don't do that now, in 
terms of building new ones--but we have those mixed in this 
time not only with all the rest of the research, but now we 
have it in with the homeland--the homeland terrorism--the anti-
terrorism work. So it's not going to be so easy, in my opinion, 
to do it.
    I would hope that we could streamline a suggestion from the 
laboratories through the Secretary, through you for your share, 
and just give us what you would recommend as a streamlined way 
of--coming out of this Department of Energy, what are we going 
to come out with after we do this, and what's going to be--
that's going into the new homeland management episode, whatever 
it is?
    I don't want to prejudice anyone in my discussions, but, 
frankly, I think I know a little bit about this, not that I 
will get my way; I don't intend to. But you work awful hard on 
a laboratory like Sandia National Laboratory, which manages 
tremendous programs, has no nuclear weapons there, and it 
seems--talking about the other two laboratories, versus it--and 
they come along and say Lawrence Livermore is going to 
``manage'' this episode or be the home office or something. 
Now, that's been mellowed down, and I guess it's not really 
that anymore. Let's hope it borders on equality when we're 
finished, and not this other business.
    So I didn't have any questions. I'm sorry you----
    Ambassador Brooks. But may I just make one--there's nobody 
in the Department of Energy who thinks we're going to put one 
lab in a position of primacy over another lab, and I don't 
think that's where the homeland security folks are going now. 
There was some early confusion.
    Senator Domenici. I thank you very much.
    The Chairman. We'll take about a 15-minute recess and then 
come back. Thank you very much.
    [Recess.]
    The Chairman. The gentleman from Hawaii is recognized.
    Senator Akaka. Yes, I do have some questions for Ambassador 
Brooks.
    Does the NNSA currently have the personnel needed to 
properly manage the various research programs in NNSA?
    Ambassador Brooks. Yes, sir.
    Senator Akaka. Will the creation of a new set of programs 
through the Department of Homeland Security potentially drain 
away managers currently dedicated to run NNSA's research 
programs?
    Ambassador Brooks. I don't think it will drain away. I do 
think that those managers who supervise programs to be 
transferred will be logical candidates to be transferred. For 
example, the people who supervise the chemical and biological 
work, I would think it would make the greatest sense if they 
were to continue to supervise that work in the new department. 
But that's a decision that has not been made. But I don't 
expect to lose talent that I can't--by this--the standing up of 
this new department.
    Senator Akaka. Dr. Orbach, the President proposes to move 
the Advanced Scientific Computing Research Program in the 
Office of Science to the new department. Does this office work 
with other agencies and non-Federal agencies? If so, will these 
relationships be maintained over the next 5 or 10 years, or 
will the facility become more and more focused on homeland 
security research?
    Dr. Orbach. The actual transfer in the Advanced Scientific 
Computing Research Program is the component that was invested 
at Lawrence Livermore National Laboratory. I amounts to about 
$3 million, whereas, the full program is of the order of $200 
million. This particular component is one that we think will 
give the new department the core competency in advanced 
scientific computation, which it will need. It will mean that 
some of the programs that we were supporting at Livermore will 
be transferred to the new department, in terms of their 
capacity--computational capacity--but it will not affect the 
vast majority of the program, which, as you say, is focused in 
other areas.
    Senator Akaka. Ambassador Brooks, the Nuclear Assessment 
Program provides technical assistance and training support to 
help our international partners improve tracking of nuclear 
threats. Should a domestic security department train and assist 
foreign law enforcement officials?
    Ambassador Brooks. Probably it should not, but the part 
that we propose to transfer is not involved in working with 
foreign officials. The part that we propose to transfer 
assesses the credibility of extortion and other nuclear 
threats, and it works with domestic law enforcement officials, 
domestic--or with intelligence agencies and then with the 
national laboratories. So it won't affect my continued ability 
to improve border security in the former Soviet Union.
    Senator Akaka. Dr. Orbach, I have met with scientists and 
inventors from Hawaii who are confused about who they should 
approach within the Government with their ideas for homeland 
security. In their testimony, many of the lab directors state 
what their facilities are doing to build partnerships with 
local industry and academia. My question is, how does the 
office reach out to the private sector, especially smaller 
businesses, on developing new tools and techniques?
    Dr. Orbach. Well, the proposed structure that I have been 
discussing is actually set up for that. And, indeed, when I 
visited Lawrence Berkeley National Laboratory for the first 
site visit, where we had already a single point of contact, the 
vice president for research at the University of Hawaii came 
and was represented there. And we gave him the responsibility 
to provide the input from the private sector and from the 
university in Hawaii into the laboratories for--then 
transformed or transmitted to the new department. So this is 
our form of outreach to accomplish precisely that.
    And I must say that the enthusiasm that we found was quite 
significant. I think that will work.
    Senator Akaka. Well, thank you for that. I was looking for 
that point of contact, and I'm glad you mentioned him.
    Ambassador Brooks, I'd like to ask you a question about the 
intelligence program. In his written testimony, the Director of 
Lawrence Livermore states that the intelligence program needs 
to maintain its access to raw intelligence and its ability to 
use nuclear weapons design tools. The question is, will the 
intelligence program lose these abilities if removed from DOE 
and, therefore, no longer designated as a ``field intelligence 
element''?
    Ambassador Brooks. I don't expect that it will lose its 
designation as a field intelligence element. My interpretation 
of the President's proposed legislation is to transfer the 
funding that we are now applying from our Department to the 
intelligence efforts at Livermore so that the new director will 
have dedicated funding and unambiguous access to that 
intelligence capability. I expect that, as I look at future 
budgets, I will find that I'll move money around so I, too, 
continue to fund that capability. And if this suggests that the 
intelligence function at Livermore may grow, that's quite 
possible.
    What's crucial, as the Director's testimony makes it clear, 
is that this asset and comparable assets at other labs have to 
have access both to the technology and science of the labs and 
the knowledge of the intelligence community. By doing that, 
they can produce unique analyses, which are valuable to me in 
nonproliferation and in other areas, and are valuable to the 
Director--or the Secretary of Homeland Security.
    So I don't expect that I will be--that the field-
intelligence element status will be lost, and I don't expect to 
lose my access. I do expect to lose a certain amount of money 
in order that the--remember, this whole thing is going to be 
totally budget-neutral--that the new Secretary has comparable 
access.
    Senator Akaka. Ambassador Brooks, the Federal Government 
has a Federal Response Plan to designate lead and support 
agencies during emergencies and provide an all-hazards approach 
to disaster preparedness and response. The President has stated 
that he supports an all-hazards approach, yet the President 
proposes to legislate a special relationship between the 
Department of Homeland Security and the Nuclear Incident 
Response Team, which conflicts with the all-hazards approach. 
The question is, in order to maintain an all-hazard approach, 
shouldn't the relationship between the proposed department and 
the Nuclear Incident Response Team be developed in the Federal 
Response Plan?
    Ambassador Brooks. Senator, with regard to the specific 
question of what should be in or out of the Federal Response 
Plan, I'd like to take that for the record.
    With regard to the broader, I don't know whether it's 
broader or just separate question of our capability for 
response, we think that the legislation will not hamper, and, 
indeed, in many ways, will improve our ability to respond. Our 
forces will continue to be organized, trained, equipped, and 
manned from within the Department of Energy, but they'll now be 
responding to the same person who is responsible for all other 
aspects of response to accidents and incidents in terrorism. So 
it seems to us that this is a sensible solution.
    The training responsibility needs to stay with us, because 
most of these people are part-time, and they gain their 
expertise from what they do in their full-time jobs. So I'm 
quite comfortable.
    With regard to the specific question of the Federal 
Response Plan, I'll have to give you an answer for the record. 
I'm not knowledgeable.
    [The information follows:]

    As we understand it, the ``special relationship'' referred to in 
the Senator's question refers to the proposal that the Department of 
Energy's Nuclear Incident Response Teams will be transferred to the 
operational control of the Department of Homeland Security (DHS) when 
deployed in support of the Homeland Security mission. We do not see 
this as being in conflict with an all-hazard approach, but as an 
operational necessity based on the unique nature of our response 
infrastructure. The fact that our response assets are predominantly 
composed of part time volunteers precludes transferring those personnel 
to DHS as full time employees.
    Under the current Terrorism Incident Annex of the Federal Response 
Plan (FRP), DOE assets respond in a supporting role to the FBI as the 
Lead Agency for Crisis Response (CR) and to FEMA as the Lead Agency for 
Consequence Management (CM). These agencies have the overall lead for 
management and coordination of the Federal response. Although the 
specific operational role of DHS has not yet been promulgated, we 
envision that they will assume the role as the lead agency for both CR 
and CM (particularly with the absorption of FEMA) and DOE will still be 
in a supporting role to the designated lead agency. DOE feels that it 
would be imperative for the roles of all supporting agencies be fully 
addressed in the new Federal all-hazards response plan.

    Senator Akaka. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Craig.
    Senator Craig. Mr. Chairman, thank you. And, gentlemen, I 
apologize for being late to this hearing. It's an important 
one. And, Mr. Chairman, I'm pleased you're holding it. And 
we're examining roles to be played and opportunities to be 
effectively utilized within DOE.
    I think, Director Orbach, this question would be 
appropriately addressed to you. The United States has, 
obviously, a large energy infrastructure that is generally not 
well protected through physical security, such as refineries 
and petrochemical facilities, oil and natural gas pipelines, 
and our electrical transmission lines. What role will the 
Department of Homeland Security play in assuring the physical 
protection of our energy infrastructure, as you see it?
    Dr. Orbach. I don't know all of the technical details of 
how we will carry out that mission, but it will have the 
responsibility of defining the problem and the approach to the 
solution. I believe the next panel may have more information, 
in terms of the details.
    Senator Craig. Yeah.
    Dr. Orbach. For example, in terms of the electrical grid, 
it is, right now, very vulnerable, as you point out, and there 
are ways of making it smart and handling distribution in a 
reactive way that would be self sustaining. And these would be 
responsibilities of the new department. The Department of 
Energy will assist, in that regard, very closely.
    Senator Craig. Well, Dr. Shipp is with us today, who is 
director of our lab in Idaho, the Idaho National Engineering 
and Environmental Lab, and I'll be making a pitch later on to 
the administration as it relates to the role I think we can 
play in critical infrastructure testing. We have some unique 
capabilities at that lab that provide us with an opportunity. 
But, in that context, let me ask this next question, then.
    Part of our problem, I sense, in visiting with utilities, 
are the free flow of information between the private sector and 
the Government sector is going to be critical in the protection 
of this energy infrastructure. But industry appears to be 
reluctant to provide sensitive information to government, 
because it may become subject to release under the Freedom of 
Information Act. And government has difficulty providing threat 
information to industry because much is classified.
    Do you think that the Freedom of Information Act should be 
modified to assure the non-disclosure of critical and sensitive 
industrial information or industry information?
    Dr. Orbach. Senator, I would prefer to respond on the 
record on that. I don't have sufficient information to respond 
here.
    [The information follows:]

    I believe the current Freedom of Information Act provides for the 
protection of proprietary information that has been provided to the 
Federal government by the private sector. This protection has allowed 
our laboratories to successfully partner with the private sector to 
assist in resolving difficult and critical technical questions facing 
an industry sector or individual firm. In light of the many changes 
occurring as a result of the events on September 11, it might be 
beneficial to carry out a review of this law to determine whether some 
changes could provide our nation and ourselves better protection from 
these new and ever changing threats.

    Senator Craig. I think it's an important question that 
deserves to be responded to, and if you would do that, I would 
appreciate it, because that's part of our problem in this 
interrelationship that we're attempting to develop in the 
context of homeland security. So do you think that security 
clearances should be granted to personnel in critical 
infrastructure industries so that the Government threat 
information could be provided to industry?
    Dr. Orbach. That, I can answer. We have asked the heads of 
each of our laboratories, even though they do not do classified 
work, in many cases, to have a clearance sufficient to be able 
to be briefed by counterintelligence if there is a threat 
against the laboratories. And I assume that in the private 
sector a very comparable situation would be present, and they 
would be allowed to apply and, if successful, receive 
clearance.
    Senator Craig. Okay. Well, it is an issue that, Mr. 
Chairman, we're going to have to deal with. One of the 
uniquenesses I've discovered of recent, a colleague--a former 
colleague that we all know well, my former colleagues, now the 
governor of Idaho, Dirk Kempthorne, when he was capable of 
sitting at this dias, he had certain levels of clearance and 
access to information that today he is prohibited from having 
because he's not a U.S. Senator; he's a Governor. He hasn't 
changed. But the character of his role has changed; and, 
therefore, his clearance has changed; and, therefore, his flow 
of information has changed.
    Now, I'm not quite sure we can have an effective seamless 
homeland security system if we don't understand that kind of 
difficulty and correct it, and it is a problem that will play 
against the private sector or the public sector as it relates 
to this, if you will, ``seamless relationship,'' hopefully, 
that builds a better security system for this country.
    Thank you. Gentlemen, thank you.
    The Chairman. Thank you.
    Senator Feinstein.
    Senator Feinstein. Thanks very much, Mr. Chairman.
    I wanted to ask a question, if I might, on the issue of 
nuclear powerplants and their safety and what role you envision 
for the Energy Department in this regard, because now that 
Yucca Mountain is going to become the waste repository, as far 
as I know there is no real transportation plan that offers the 
protection that might prevent sabotage. As far as I know, we 
have no real way of really deterring a plane from crashing into 
a nuclear powerplant. And I'd like to know if you--either of 
you have any thoughts in this direction of how your department 
is going to proceed in that regard.
    Ambassador Brooks. Senator, it's my understanding that the 
narrowly defined safety at nuclear powerplants is primarily 
under the jurisdiction of the Nuclear Regulatory Commission. 
With regard to transportation, now that the Yucca Mountain 
decision has been made, I'm not sure that all of those issues 
have been worked out. I know if they have, I don't know them, 
and I think I'd be safer providing you a more complete answer 
for the record.
    Senator Feinstein. But will that be part of the 
responsibility of this agency?
    Ambassador Brooks. That's an excellent question to which, 
I'm sorry, I can't answer.
    Senator Feinstein. All right.
    Ambassador Brooks. I'll get you an answer for the record.
    Senator Feinstein. Okay. I don't want to get into a 
disagreement with Senator Domenici. I heard, while I was out of 
the room, he made some disparaging comments about what I regard 
as a premier laboratory, and I've read your written comments 
with respect to them--with respect to it. Do your comments 
reflect the policy of the administration?
    Ambassador Brooks. The policy of the administration with 
regard to the three weapons laboratories is that they're all 
priceless national assets and it is----
    Senator Feinstein. Are you running for public office?
    [Laughter.]
    Ambassador Brooks [continuing]. And it is quite possible 
that there are people dumb enough to try and sit here and rank 
them relatively, but I'm not one of them, Senator.
    [Laughter.]
    Senator Feinstein. All right. Then I guess we'll just have 
to wait and see how this all turns out.
    Ambassador Brooks. No, but I do need to make an important 
point. It is important for the Department of Homeland Security 
to have access to all of the capabilities of all of the 
laboratories. That's one point. It's important that we not 
build walls within the laboratories. The strength of the 
laboratories, in part, lies from their ability to work 
synergistically across disciplines and to draw in different 
resources.
    The reason that the President's proposal keeps the 
laboratories as discrete units under their present management 
is precisely so that we don't lose that synergy. So we see that 
all of the capabilities of--in my case, the weapons 
laboratories; in Dr. Orbach's case, the other laboratories--are 
going to need to be brought to bear, and we see this done the 
same way it's done for me, which is to say with the values of 
intellectual competition and the benefits of management 
cooperation. And I would assume that's the culture that we 
assume will be passed on to the relationship with homeland 
security.
    Senator Feinstein. Thank you very much. Just one other 
quick question, on my intel question with respect to how you're 
going to utilize the intelligence function there. I'm a member 
on the Intelligence Committee, as is Senator Kyl, and one of 
the things that we've been looking at is whether the community, 
as set up, is best able to function in this new milieu of 
terrorism. And so I am curious how the present intelligence 
programs will be carried out, as well as how this would fit 
into homeland defense, what you would take and what you would 
leave for strategic nuclear defense intelligence for--related 
intelligence.
    Ambassador Brooks. I think part of the problem is that 
we're using the language of programs and entities to talk about 
what is really budgets, at least in this area. Here is our 
understanding, both of what's important and what's planned. 
What's important is that the intelligence units, the field-
intelligence elements at the labs, continue to have access both 
to the intelligence community--hence, being field-intelligence 
elements--and to the rest of the labs in the technology 
community, because that's their source of leverage. It's the 
interaction between technology knowledge and intelligence 
knowledge.
    My understanding--my interpretation of the transfer of the 
intelligence function at Livermore is that the funding that is 
now going from the Department of Energy to that function will 
be transferred to the Secretary of Homeland Security. And that 
will make it clear that the Secretary has the ability to get 
the same kind of support that I am getting.
    I anticipate that, as future NNSA budgets are developed, 
future DOE budgets are developed, we will find it necessary to 
put some money against that function, as well. And so the net 
result will be that both of us will benefit from the resource 
represented--in the case of Livermore, by Z Division; in the 
case of the other labs, by comparable elements.
    So I am not--if I thought I wasn't going to be able to draw 
on that capability, I'd be worried. I think I am going to be 
able to draw on that capability. So is the Secretary of 
Homeland Security. And I think that this, once again, is a 
specific example of my point about not building walls within 
the laboratories. We're not trying to fence off any part of the 
laboratory from either of the departments.
    Senator Feinstein. Thank you very much.
    Thanks, Mr. Chairman.
    The Chairman. Thank you very much.
    We have six additional witnesses scheduled on panel two. 
Let me just ask Senator Carper, did you want to ask this panel 
questions, or would you be willing to wait for the next six 
witnesses?
    Senator Carper. I'm willing. I'm a willing member of this 
committee, Mr. Chairman.
    The Chairman. Your cooperation is greatly appreciated.
    Senator Domenici. Mr. Chairman?
    The Chairman. Yes?
    Senator Domenici. Very briefly, I would like to address 
what Senator Feinstein has expressed in her concern about 
transportation.
    We sit on this committee--it really will be the 
responsibility of this committee to oversight that new 
licensure process, the Nuclear Regulatory Commission, as a 
component of that process, and licensing should be a highly 
integrated directed-transportation system. And that is our 
responsibility. It isn't in place now, and it shouldn't be 
until we determine licence.
    Lastly, what the Admiral has just said about the 
department, the new department owning certain capabilities, 
certain assets, and having access to other assets and not 
building walls, I think is critically important because of the 
talent that is spread out across all of these laboratories. And 
not that the new department should take ownership of them, but 
have access to them, although a new department has to have 
ownership of something or it wouldn't exist. And I think that's 
the role that has to get played out here.
    Senator Feinstein. Thank you.
    The Chairman. I thank both witnesses very much.
    And let me call panel two to the witness stand, please. 
This panel will start with Dr. William Happer, who is the 
Eugene Higgins professor of physics and chair at the University 
Research Board at Princeton University, and a member of the 
National Research Council's Committee on Science and Technology 
for Counter-Terrorism. Following his testimony, we can just go 
across the line here--Dr. Anastasio, who is the newly appointed 
head of Lawrence Livermore National Laboratory; Ambassador 
Robinson, who is the longstanding Director of Sandia National 
Laboratory; Don Cobb, who is the Associate Director for Threat 
Reduction at Los Alamos National Laboratory; Dr. Bill Shipp, 
who is the director of the Idaho National Engineering and 
Environmental Laboratory; and Dr. Harvey Drucker, who is the 
associate laboratory director for Energy and Environmental 
Science and Technology at Argonne. We're very pleased to have 
all of you here.
    We will include all of your statements in the record, of 
course, so if you could take 5 minutes and give us the main 
points you think we need to be focused on as we consider how to 
have input into this issue about establishing a new Department 
of Homeland Security, we would appreciate it, and then we'll 
have a few questions.
    Dr. Happer, why don't you start?

STATEMENT OF WILLIAM HAPPER, Ph.D., EUGENE HIGGINS PROFESSOR OF 
    PHYSICS AND CHAIR, UNIVERSITY RESEARCH BOARD, PRINCETON 
                           UNIVERSITY

    Dr. Happer. Well, thank you, Mr. Chairman. I'm honored to 
be here.
    I was the chair on the panel of Nuclear and Radiological 
Terrorism for the National Research Council Academy's report. 
Actually, one of the members of the panel was Mike Anastasio, 
who is right here beside me. And I want to thank many of the 
labs who briefed us during that time.
    I have a few observations I'd like to make based on the 
work of this panel and also on my own experience as director of 
the Office of Energy Research, the job that Dr. Orbach has now.
    So the first point is that, if you look at the academy's 
report, the first serious chapter is Nuclear and Radiological 
Terrorism, and I think that represents the consensus that if 
you really rank potential terrorism, the thing that is most 
worrisome of all is a nuclear weapon in a U.S. city. And when I 
look at this country and I say, ``Where do I get the capability 
to counter that,'' it's clear it's the national laboratories of 
the Department of Energy and the NNSA. So that's where we have 
to turn. There are no other organizations that have the hands-
on experience and understanding of nuclear weapons, all 
aspects--production, maintenance, security, and safeguards. And 
so we really need them badly for our new agency.
    I would point out that the labs also have capabilities that 
go well beyond the nuclear role. They have played an important 
role in bioterrorism. It's not by accident that the DOE has 
been involved in the human genome project, because recognition 
of the effects of radiation on the human genome started even 
during World War II, so that it really started at the DOE.
    My third observation is that there's a tradition of quality 
control at the laboratories which is strengthened by the fact 
that there are competing laboratories. I think it's wonderful 
that there is Livermore and Los Alamos and Sandia and Oakridge. 
It's very hard to pull a fast one with that kind of scrutiny on 
all sides. So if you get work done at the labs, you're likely 
to get very good work done.
    So I have a couple of recommendations that come from our 
panel. One is that--certainly for radiological and nuclear 
issues, that the DOE/NNSA laboratories should have the lead 
role. You know, we don't take a strong position as how you 
should organize that, but it's clear that it ought to be front 
and center of that problem.
    And then I have a second recommendation goes back to some 
of my experiences as a Federal bureaucrat here, and that is 
that the time to get the management straight on this is now.
    It's very hard to manage organizations like this. If you 
look at the chain of bureaucracies involved, it's pretty 
frightening. There are headquarters here in Washington, there 
are field organizations, there are management organizations at 
the lab, the--Mr. Anastasio's paycheck is not from the 
Department of Energy; it's from the University of California. 
So this is a very complicated thing. It doesn't necessarily 
work well.
    When I was a bureaucrat, I had a lot of trouble getting 
other Federal agencies to pay their fair share of overhead 
charges at some of the labs. So it would be nice to be sure 
that that is clear right from the start.
    So, thank you. I'll stop my testimony here.
    [The prepared statement of Dr. Happer follows:]
 Prepared Statement of William Happer, Ph.D., Eugene Higgens Professor 
 of Physics, and Chair, University Research Board, Princeton University
    Chairman Bingaman and members, thank you for the opportunity to 
appear before the Committee on Energy and Natural Resources to testify 
on the role of the Department of Energy (DOE)/National Nuclear Security 
Administration (NNSA) Laboratories in protecting the homeland security 
of the United States. My name is William Happer, and I am the Eugene 
Higgens Professor of Physics and chair of the University Research Board 
at Princeton University. I also served as chair of The National 
Academies' panel that examined the role of science and technology for 
countering nuclear and radiological terrorism. I am here today to 
discuss some of the conclusions of that panel's report, an unclassified 
extract of which appears as chapter 2 in The National Academies Report 
entitled Making the Nation Safer: The Role of Science and Technology in 
Countering Terrorism, which was released on June 13, 2002. I also want 
to share some personal views based on my experience as director of 
DOE's Office of Energy Research (now the Office of Science) from 1991-
1993.
    In this testimony I offer three observations and two 
recommendations for the committee's consideration. Except where noted, 
these represent my personal views, and not necessarily the views of The 
National Academies.
    Observation 1: The DOE/NNSA laboratories have an important and 
unique role to play in protecting homeland security, especially from 
acts of nuclear and radiological terrorism. During the course of its 
deliberations, The National Academies panel I chaired received over a 
dozen briefings on national laboratory research and development (R&D) 
projects related to nuclear and radiological counter-terrorism. This 
work is extensive in scope and appears to be of high quality. The 
examples given below illustrate the diverse portfolio of work on 
nuclear and radiological counter-terrorism underway principally at 
three national laboratories--Lawrence Livermore National Laboratory, 
Los Alamos National Laboratory, and Sandia National Laboratories:

  <bullet> Deployment of materials protection, control, and accounting 
        technologies to protect nuclear weapons and special nuclear 
        materials in Russia.
  <bullet> Research to understand current and likely future patterns of 
        terrorist-state cooperation to obtain or develop technologies 
        and special nuclear material (highly enriched uranium and 
        plutonium) for improvised nuclear devices.
  <bullet> Research, development, and deployment of sensor systems to 
        detect illicit nuclear materials in commerce.
  <bullet> Modeling studies to understand the consequences of attacks 
        on nuclear power plants using civilian airliners.
  <bullet> Modeling studies to understand the dispersion of 
        radioactivity from terrorist use of radiological weapons, also 
        known as ``dirty bombs.''

    No other organization in the world has more hands-on experience or 
understanding of nuclear weapons production, maintenance, security, and 
safeguards. This knowledge can readily be brought to bear on the 
homeland defense mission. Other federal agencies appear to recognize 
these unique capabilities of the national laboratories as well: The 
U.S. Nuclear Regulatory Commission, for example, has contracted with 
Sandia National Laboratories for some of its nuclear safety and 
security R&D work.
    Observation 2: The DOE/NNSA laboratories have capabilities and 
expertise that go well beyond nuclear weapons and radioactive 
materials. The labs have unique expertise in building sensors and 
sensor systems. For example, the development of space-deployed ``bang-
meters'' by the national laboratories has given the United States great 
confidence that clandestine tests of nuclear weapons in the atmosphere 
are likely to be detected. Both the weapons laboratories and the non-
weapons DOE laboratories have a great deal of experience in remote 
sensing of the atmosphere and oceans, as well as seismic signals that 
could reveal underground tests of nuclear weapons. They also have 
strong capabilities for sensing biological, chemical, and explosive 
agents.
    Observation 3: There is a tradition of internal quality control at 
DOE laboratories that keeps flawed science and technology to a minimum. 
The DOE/NNSA laboratories have a strong tradition of intellectual 
independence and freedom to pursue research ideas wherever they lead. 
The labs also expose the work of their researchers to rigorous review 
by peers to improve its quality, both at the front end (project 
conception) and the back end (publication of results) of the R&D cycle. 
The federal government's practice of providing funding to multiple 
laboratories has proven to be a good way to increase the competition 
among research ideas, develop a deep pool of research talent, and 
thereby promote high-quality work.
    The private sector also has much science and technology to 
contribute to the goal of countering terrorism. But some private-sector 
proposals violate well-established scientific principles, since there 
is not the depth of internal quality control that is standard operating 
procedure at the national laboratories. Additionally, the review of 
private-sector proposals can be complicated by the need to protect 
proprietary ideas.
    Mr. Chairman, it is my strong personal opinion that the DOE/NNSA 
labs should play a pre-eminent role in homeland defense R&D, regardless 
of the organizational form of the new agency that is ultimately created 
by the Congress. As your committee considers changes to the national 
laboratory system to improve its capabilities to support the homeland 
defense effort, I offer the following two recommendations for its 
consideration:
    Recommendation 1: The DOE/NNSA laboratories should be given the 
lead role for homeland defense R&D. Quite clearly, science and 
technology are key weapons in the nation's counter-terrorism arsenal, 
but new organizational approaches will be needed to deploy these 
weapons effectively in the nation's service. In fact, the National 
Academies' panel on countering nuclear and radiological terrorism that 
I chaired noted that, to be effective, the nation's efforts to counter 
nuclear and radiological terrorism

        must bring to bear the best scientific and technological 
        resources available to the federal government and must be well 
        coordinated with other federal R&D and counter-terrorism 
        activities.

    The panel also noted that

        important progress is already being made by the R&D and policy 
        communities to reduce the nation's vulnerability to nuclear and 
        radiological terrorism. There is not much evidence, however, 
        that the R&D activities are being coordinated, that thought is 
        being given to prioritizing the activities against other 
        national counter-terrorism needs, or that effective mechanisms 
        are in place to transfer the results of these activities into 
        application.

    The panel concluded that the

        effectiveness of the nation's counter-terrorism efforts could 
        be improved if one agency were given the lead responsibility 
        for coordinating and prioritizing, in consultation with other 
        interested agencies, nuclear and radiological counter-terrorism 
        R&D.

    Accordingly, the panel recommended that

        A single federal agency, possibly the Department of Energy's 
        National Nuclear Security Administration, should be designated 
        as the nation's lead research and development agency for 
        nuclear and radiological counter-terrorism. This agency should 
        develop a focused and adequately funded research and 
        development program to fulfill this mission and should work 
        with other federal agencies, the President's science advisor, 
        and the director of the Office of Homeland Security to 
        coordinate this work and ensure that effective mechanisms are 
        in place for the timely transfer of results to the homeland 
        defense effort.

    The panel's recommendation that an agency like NNSA should take the 
lead role for counter-terrorism R&D was based primarily on the 
recognition that DOE/NNSA national laboratories have scientific and 
technological talents and capabilities that are unmatched elsewhere in 
the federal government. Simply put, no other agency has the breadth or 
depth of scientific and technological capabilities required to execute 
this role.
    Recommendation 2: New funding and management arrangements should be 
established to help ensure the ultimate success of the counter-
terrorism R&D effort. As noted elsewhere in my testimony, the federal 
government's practice of providing funding to multiple laboratories has 
worked well to foster competition and improve quality, positive 
attributes that I hope will be carried over to the counter-terrorism 
R&D effort. This practice has, however, produced a ``not invented 
here'' attitude among some lab personnel that has hampered the 
effective transfer of R&D ideas and results across and outside of the 
national laboratory system.
    The National Academies' panel on countering nuclear and 
radiological terrorism recognized that the centralization of R&D 
responsibilities was not, in itself, sufficient to ensure the success 
of the counter-terrorism effort:

        The centralization of lead R&D responsibilities into a single 
        federal agency is no guarantee of success absent commitments to 
        certain operating principles. Among these are commitments to 
        appoint technically capable staff to manage the R&D work; to 
        provide sufficient and sustained funding to carry out an 
        adequate program; and to reach across agency boundaries and 
        outside government to obtain the expertise needed to execute 
        the work and to ensure that results are moved expeditiously 
        into application. While the events of September 11 appear to 
        have produced a renewed sense of cooperation among federal 
        agencies, the challenge for whichever agency is selected to 
        lead this important R&D effort will be to nurture and sustain 
        this spirit.

    Mr. Chairman, as the Congress considers the future roles of the 
DOE/NNSA laboratories in the counter-terrorism effort, it will be 
vitally important to organize the R&D effort in a way that serves to 
break down walls between the national laboratories to encourage 
coordination of cross-laboratory R&D work. One key way this objective 
might be achieved would be to organize the R&D effort into a few key 
topical areas and to establish cross-laboratory steering groups 
comprised of researchers and administrators to keep the work focused 
and coordinated.
    Another key issue that needs to be addressed is the appropriate 
management relationship between the DOE/NNSA laboratories and DOE 
headquarters. Speaking from my personal experiences as director of the 
Office of Energy Research, I have observed a penchant among Washington 
agencies to micromanage contractors. This is very wasteful of resources 
and results in much less performance per dollar spent than we should 
expect. Too little management also can be a problem, but to judge by 
the mood of recent years, the big worry will be too much management. 
Since the DOE/NNSA owns the laboratories, and the laboratories are 
managed (in principle) by contractors like the University of California 
and Lockheed-Martin, there is a long gauntlet of bureaucracies that can 
greatly diminish the labs' effectiveness. The time to optimize 
management strategies is now--before bad precedents are set.
    I believe that DOE headquarters has a legitimate role to play in 
oversight of R&D work at the DOE/NNSA laboratories to ensure that 
taxpayer funds are being used effectively. DOE headquarters can best 
play this role by establishing, in consultation with the laboratories, 
directions and goals for the R&D work, and also in arranging for 
periodic programmatic reviews of the effectiveness of the R&D 
activities so that deficiencies can be identified and corrected. The 
national laboratories and their contractor management organizations 
should be left to the day-to-day management of this work and should not 
have to waste time and resources responding to demands for information 
from headquarters beyond the activities enumerated above.
    Finally, the effectiveness of the homeland defense R&D effort will 
depend to a large extent on the adequacy, both in terms of magnitude 
and constancy, of the funding provided to undertake the work deemed to 
be important to homeland security. The new homeland security agency 
should recognize that the R&D effort will never end--technological 
capabilities to inflict massive harm on U.S. populations are becoming 
increasingly widespread and accessible to terrorists worldwide. It will 
be necessary for the United States to mount an aggressive, long-term 
counter-terrorism R&D effort to stay at least one step ahead of 
terrorist capabilities.
    It may prove difficult to maintain funding for an effective R&D 
effort precisely because it will have improved the nation's success in 
preventing terrorist acts. As terrorist threats become less visible in 
the public consciousness, there will likely be less willingness to 
support the counter-terrorism R&D effort in the face of other national 
priorities. As an analogy, consider the progressive erosion of support 
for the Federal Aviation Administration's federal marshals program as 
the number of airliner hijackings decreased in the 1970s and 1980s.
    The funding pressures are likely to be manifested in at least two 
ways: Outright cutbacks in funding for the R&D work by the contracting 
agency (presumably the new homeland security agency), or an attempt to 
shift more of the R&D costs directly to the national laboratories by 
reducing reimbursements for overhead. I believe that the new homeland 
security agency should expect to pay its fair share of the costs of the 
R&D work undertaken for national benefit, including its fair share of 
the overhead costs.
    Whatever the form of this new agency, I personally believe that it 
should have in its charter an explicit charge to undertake an 
adequately funded R&D effort through the DOE/NNSA national laboratories 
to support the homeland defense mission, and that it be required to 
seek advice periodically from independent advisory groups on both the 
scope and size of an adequate effort. While this will not ensure that 
such support is provided, it will provide the agency and the Congress 
with an independent assessment of the resources needed to sustain an 
effective national effort.
    This concludes my testimony to the committee. I would be happy to 
clarify my comments or answer committee members' questions. Again, 
thank you for the opportunity to testify.

    The Chairman. Thank you very much.
    Dr. Anastasio.

 STATEMENT OF MICHAEL R. ANASTASIO, Ph.D., DIRECTOR, LAWRENCE 
                 LIVERMORE NATIONAL LABORATORY

    Dr. Anastasio. Thank you, Mr. Chairman and members of the 
committee, for the opportunity to testify on this very 
important subject.
    I support the bold undertaking of the Congress and the 
administration to form this Department of Homeland Security, 
and I'd like to make just a few comments in my oral testimony 
from a technical perspective, especially regarding the science 
and technology capabilities that were required for this 
department.
    Defending the Nation from terrorism, especially from 
weapons of mass destruction, as Will Happer alluded to, is a 
very daunting challenge, and science and technology will be a 
key weapon in this defense. Now, the success of this endeavor, 
I believe, requires, as many of us have said, the access to the 
full spectrum of capabilities across the country, as 
represented by all of the organizations here in this panel as 
well as the universities and industry. And success will also 
require a sustained investment to meet the country's goals in 
these areas while we leverage the other investments in these 
outstanding institutions that have been made by the Government, 
as we've heard from some of the senators. And also, as Linton 
Brooks alluded to, it's important that this investment from 
homeland security also is there to enhance the science base at 
the institution to best achieve the goals.
    But the Department of Homeland Security will be primarily 
focused on operations and require real products to get put in 
the hands of the end users. So I think for this organization to 
be a success, there must be a set of clear goals that are 
established for the science and technology. And then successful 
products will result from the integration of an analysis of the 
threats, the operational needs of the end users, whether they 
be the State of California or Washington or some local 
community or a national context of a border, and the science 
and technology and industrial capabilities of the nation. And 
then potential components or overall systems that come out of 
this process must be evaluated against standards in the 
community-wide set of standards that lead to the ultimate 
procurement of these products.
    When we think about the science and technology, I think 
it's also important to realize that we need some kind of 
essential--centralized function that's really directly coupled 
to the technologists that allows an integration, a focus, and a 
prioritization of the research development, testing, and 
evaluation--investments for both the near-term and the long-
term, of course, within the context, always, of a finite 
budget. And if the Department of Homeland Security chooses to 
locate some of their functions at Livermore, as Linton Brooks 
alluded to, we would certainly be honored and welcome to have 
them there.
    Well, let me illustrate what I mean by this operational 
approach with a specific example. And I chose the example of 
BASIS that Linton Brooks alluded to, the Biological Aerosol 
Sentry and Information System. And here, a clear goal was 
established--that is, to have a biological detection and 
monitoring system that was deployed for the Salt Lake City 
Olympics. Close interactions of the end users with the 
technology developers took place, where they considered things 
like the false alarm rates, response times to any signal they 
might get, the integration of operations with the federal, 
regional, and local emergency responders and public-health 
system. And this was done from the very conception of the ideas 
all the way through the implementation and ultimate operation 
of this capability.
    And then with an understanding of the requirements, in this 
case, Livermore and Los Alamos, teamed together in a 
partnership on the science and technology to develop a system-
level solution taking advantage of the best biological 
detection technology that was available. This happened to be, 
at the time, PCR technology that was developed at Livermore and 
already licensed to industry.
    And then after we had a product we thought was going to 
serve our needs, tests and evaluations were done against 
standards. And then, as an example, the biological assays that 
were developed were done in cooperation and collaboration with 
the Center for Disease Control. And the overall system was 
tested with local law enforcement and public-health officials 
to make sure it was well integrated into their system. So, as a 
result of this process, the deployed system worked exactly as 
designed and was a successful part of the overall security 
strategy for the Olympics.
    In my written testimony, there's a number of other 
contributions, capabilities, and assets of Livermore that are 
appropriate for homeland security and describe some of the 
connectivity that we've made with both the State of California 
and other States and local organizations to try to apply this 
capability, and I won't discuss any more of that detail, to 
same some time, but to say that, of course, we're, as we've 
heard many times, also endorsing the notion that this 
capability that's there for homeland security is also important 
to be available for our other important missions, and that 
there needs to be a free flow of access for the people and for 
the physical assets of the institution to go back and forth.
    So let me conclude by saying that we, at Livermore, are 
fully committed to supporting the Congress and the 
administration in this difficult and long-term national-
security challenge and feel that we, at Livermore, are well 
positioned to provide effective, development, testing, and 
evaluation capabilities for the new department.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Anastasio follows:]
      Prepared Statement of Michael R. Anastasio, Ph.D., Director,
                 Lawrence Livermore National Laboratory
                            opening remarks
    Mr. Chairman and members of the committee, thank you for the 
opportunity to appear before you today. I am the Director of the 
Lawrence Livermore National Laboratory (LLNL), a position I assumed on 
July 1, 2002. It is an honor and immense responsibility to lead one of 
the nation's national security laboratories, particularly in the wake 
of September 11. The events of that day tragically make clear that the 
United States is not immune to the scourge of terrorism, and they call 
for the nation's leaders and technical community to take dramatic steps 
to improve homeland security.
    Enactment of legislation to form a Department of Homeland Security 
an idea supported by the President and the Congress will fundamentally 
change for the better the nation's approach to preventing terrorist 
attacks on the United States, reducing the nation's vulnerability to 
terrorism, and managing the aftermath of any attack. The mission is 
complex and daunting in scope. One major challenge for the new 
department will be effective integration of relevant activities, which 
are currently dispersed among many government organizations. Another 
challenge will be focusing the unsurpassed scientific and technical 
talent of this nation to improve capabilities to deal effectively with 
threats, those most critical today and as well as those emerging in the 
future.
    I support formation of a Department of Homeland Security and I am 
here to comment from a technical perspective on both the needs of the 
new department to pursue a sustained research, development, testing, 
and evaluation (RDT&E) program and the capabilities available to it to 
do so. Currently, RDT&E capabilities are dispersed, but there is an 
important concentration of them particularly related to chemical, 
biological, radiological and nuclear threats in the Department of 
Energy's National Nuclear Security Administration (NNSA) and its 
laboratories and other sites. I will discuss relevant capabilities at 
LLNL and some of the important programs and partnerships we have in 
place. They illustrate LLNL's approach to developing and deploying 
technologies and systems to strengthen homeland security and the 
success we are having in placing the right tools in the hands of the 
right people.
    Effective partnerships among the various sources of expertise and 
with the users of new capabilities are required to make necessary 
improvements in homeland defense to cope with today's dangers and 
prepare for the threats of tomorrow. Focus on the most effective 
approaches to the highest priority issues is also required. To that 
end, the Administration's proposal prudently includes the formation of 
a ``center'' to ensure that all needed science and technology elements 
are being addressed to deal in particular with the weapons of mass 
destruction threats, without unnecessary duplication of effort, and 
that the best use is made of the nation's technical and fiscal 
resources. As Governor Ridge has testified (June 25, 2002), there needs 
to be ``one unit . . . that deals with research and development, 
science and technology'' and provides ``strategic direction for 
homeland security research and development.''
    The Administration has made clear that they would like to locate a 
center of excellence at the Lawrence Livermore National Laboratory and 
use as well other national labs and other research facilities around 
the country. General John Gordon, testifying before Congress as NNSA 
administrator, voiced support for the concept of locating the 
Department of Homeland Security's main research facility at LLNL with 
satellite centers of excellence elsewhere. A center at Livermore would 
not only benefit from the Laboratory's multidisciplinary capabilities 
and those at Sandia National Laboratories (California), it would be 
advantageous for the homeland security mission and facilitate 
partnerships because of the Laboratory's location in the San Francisco 
Bay/West Coast area, which has many intellectual resources and homeland 
defense challenges. At LLNL, we are honored by the Administration's 
proposal, we are anxious to contribute to homeland security to the best 
of our abilities, and we are confident that we can help make the 
Department of Homeland Security a success.
               llnl's contributions to homeland security
    Lawrence Livermore National Laboratory was established 50 years ago 
to pursue innovative solutions to the nation's pressing needs to 
advance nuclear weapons science and technology. Since then, the 
Laboratory has continually adapted to address the evolving challenges 
of the day and anticipate future needs, keeping a central focus on 
national security. As one of NNSA's three national laboratories, LLNL 
is a principal participant in the Stockpile Stewardship Program to 
maintain and enhance the safety, security, and reliability of the 
nation's nuclear weapons stockpile. The Laboratory is also engaged in 
vital national programs to reduce the threat posed by the proliferation 
of weapons of mass destruction (WMD) and to provide for homeland 
security. These complementary missions--stockpile stewardship and 
countering WMD threats--are integrally connected in terms of their 
overarching goal of enhancing security, and the research activities 
largely draw on the same base of scientific and technical capabilities 
and expertise.
    Because Livermore and our sister NNSA laboratories (Los Alamos and 
Sandia) have long been working to develop technical capabilities to 
detect, counter, and mitigate WMD proliferation and terrorism, we were 
able to respond rapidly and effectively to the events of September 11 
and its aftermath. Although those investments are paying great 
dividends in the newly declared war on terrorism, substantial sustained 
investment is needed to develop vastly improved warning and response 
capabilities to protect the U.S. against these threats, now and in the 
future. We are fully committed to this long-term national security 
endeavor and are well positioned to provide RDT&E support to the 
Department of Homeland Security.
    Lawrence Livermore is contributing widely and effectively to the 
war against terrorism with capabilities and partnerships and through 
RDT&E programs directly relevant to the Department of Homeland 
Security's mission. The provided examples illustrate three major points 
about the Laboratory:

  <bullet> LLNL has demonstrated the capability to work problems from 
        end-to-end--starting with an understanding of the threat and 
        the users' needs, devising a systems solution, developing the 
        enabling technology advances, testing both the component 
        technologies and systems solution in cooperation with users, 
        moving the new technologies to U.S. industry, and working with 
        the user community to ensure effective deployment and training.
  <bullet> LLNL has strong capabilities and active programs in each of 
        the WMD areas--chemical, biological, radiological, and nuclear. 
        In addition, the Laboratory has major programmatic activities 
        in threat assessment and intelligence support as well superb 
        supercomputing capabilities. Accordingly, we have a ``critical 
        mass'' of programs and capabilities that provides the 
        Laboratory an excellent overall perspective of threats, 
        technical opportunities, and user needs.
  <bullet> LLNL has many strong ties to research partners and the user 
        community--including sister laboratories, the Nevada Test Site 
        for remote testing, a wide range of universities, and many ties 
        at the local- and state-government level.
The Capability to Work Problems from End-To-End--BASIS as an Example
    A research and development program particularly focused on the area 
of WMD terrorist threats is an integral part the legislative proposal 
for a Department of Homeland Security for good reason--the nation faces 
a dire immediate threat that unquestionably will grow more 
sophisticated over time. The nation's vulnerabilities vary widely in 
their significance and their potential for being ameliorated by new 
capabilities and/or changes in operations. What is needed is a 
comprehensive perspective of the issues, a vision where one wants to 
go, and a pragmatic approach to problem solving to put products in the 
field expeditiously.
    At LLNL, we take a systems approach to the overall problem and 
determine what priority items can be dealt with expeditiously with 
existing equipment or modest improvements in technology and where 
investments in longer-term research and development will be necessary. 
In those areas where a new system based on existing or emerging 
technologies can make a substantial difference, it is important to work 
the problem comprehensively with the end user in mind.
    The development of the Biological Aerosol Sentry and Information 
System (BASIS) by Livermore and Los Alamos exemplifies this approach 
and serves as model of how the Department of Homeland Security could 
most rapidly and effectively take technology from the conceptual stage 
through to actual deployment. The process is more than R&D, it is 
RDT&E--research, development, testing, and evaluation.
    In late 1999 we were challenged by the Secretary of Energy to 
develop and field a biological detection system in time for the 2002 
Salt Lake City Olympics. At the time, there was no system suitable for 
civilian use for broad-scale biological environmental detection and 
monitoring. Early detection and rapid response are the keys to reducing 
the human health consequences of a biological agent attack. Over the 
next three years, we and our colleagues at Los Alamos developed and 
demonstrated a successful system to meet this challenge. BASIS was 
fielded at Salt Lake City in February 2002 as part of the overall 
security strategy for the Olympic Games where it performed exactly as 
designed. The goal-oriented approach used in this program greatly 
contributed to its outstanding achievement. In particular, BASIS 
benefited from:

  <bullet> A Clear Objective at the Outset. For BASIS, clear, top-level 
        objective was established at the beginning of the project with 
        respect to the desired cost and performance attributes of the 
        system. The objective was based on an understanding of the 
        threat, technical possibilities, and user needs. After this, 
        the management of the program and the technical details were 
        left to the technical team.
  <bullet> Close Interactions between Users and Technology Developers. 
        There were extensive direct interactions with the Salt Lake 
        Olympic Committee, local, state, and federal response agencies, 
        the public health system, and the technology developers from 
        conception through implementation and operation.
  <bullet> Problem-Solving Systems Approach. The sponsors, users, and 
        technologists recognized the need for a system-level solution, 
        not a single technological widget, and for the system to work 
        in conjunction with other equipment (e.g., medical surveillance 
        systems). LLNL and LANL brought together a team of engineers, 
        biologists, computer scientists, and operations specialists to 
        execute the program.
  <bullet> Advanced Technology Developed by Labs, Transferred to and 
        then Procured from Industry. The system used the most advanced 
        biological detection technologies available (i.e., PCR). The 
        best biological detection instrument for this application was 
        from a commercial entity (Cepheid) that had earlier licensed 
        the technology from LLNL.
  <bullet> Testing and Evaluation against Standards by Recognized 
        Authority. The biological assays were co-developed by LLNL and 
        the Center for Disease Control's (CDC) Bioterrorism Laboratory. 
        The testing regimen was established with law enforcement and 
        public health, assuring a high level of confidence in the 
        system.
  <bullet> Transfer of Operations to Contractors. Local contractors 
        provided the bulk of the staff for all aspects of the system 
        operations at the Olympics. LLNL/LANL staff were used in 
        supervisory roles and for technical support.
Strong Capabilities and Active Programs Nuclear and Radiological 
        Threats
    As one of NNSA's three national laboratories, LLNL is fully engaged 
in the Stockpile Stewardship Program and has a very large science and 
technology base supportive of work on nuclear weapons, nuclear 
materials, and nonproliferation that can be leveraged to support 
homeland security. The Laboratory is home to one of the nation's two 
research facilities for special nuclear materials. It operates a remote 
test site and has a close working relationship with the Nevada Test 
Site where work that requires even greater isolation is carried out. 
Several activities that contribute to homeland security merit special 
mention:
    Nuclear Threat Assessment Program. The NNSA's Nuclear Assessment 
Program was established in 1977 to provide a national capability for 
correctly and expeditiously assessing the credibility of communicated 
nuclear threats. Shortly after its inception, the Nuclear Assessment 
Program became the central point of contact and action office within 
the NNSA for assessing and monitoring illicit nuclear material 
trafficking incidents worldwide. Selected elements of the program are 
routinely used to provide NNSA technical support to the law 
enforcement, diplomatic and intelligence communities. The major support 
activities include real-time assessments of nuclear threats and black 
market transactions, participation in FBI designated Special Events, 
and providing NNSA courses on nuclear crime at various national and 
international training venues. Since the terrorist attack on September 
11, there has been dramatic increase in requests for our services; we 
have assessed 25 nuclear threats, 90 illicit trafficking cases, and 51 
other nuclear related incidents.
    The operational capability consists of a small group of 
professionals who are collectively knowledgeable in nuclear explosives 
design and fabrication, nuclear reactor operations and safeguards, 
radioactive materials and hazards, linguistics analysis, behavioral 
analysis and profiling, as well as terrorist tactics and operations. 
The assessor teams are organized into specialty teams and operate in 
secure facilities at the three participating NNSA contractor sites. An 
Assessment Coordinating Center at LLNL directs credibility assessment 
operations for the NNSA and provides a single point of contact for 
federal crisis managers during emergency operations.
    Nuclear Incident Response. The Laboratory is a key participant in 
the national nuclear incident response groups, including the Joint 
Technical Operations Team (which deals with nuclear terrorism or 
extortion threats), the Accident Response Group (which responds in the 
event of an accident involving U.S. nuclear weapons) and the 
Radiological Assessment Program (which assists state and local 
agencies). Livermore maintains a deployable response capability, called 
HOTSPOT, which can be transported to any location by military aircraft 
to provide local radiological field support.
    Specifically, the Radiological Assessment Program (RAP) provides 
technical and operational expertise to state and local agencies to 
mitigate the consequences of a radiological incident or emergency. It 
uses DOE and national laboratory experts with skills in assessing 
radiological and toxic contamination and the attendant risks to human 
health. The Livermore RAP teams have primary responsibility for 
California, Nevada, Hawaii, and the U.S. Pacific Rim territories. They 
are called upon, on average, three to five times per year. In 2001, 
they responded to three requests for assistance along with normal 
exercises and training. Typically, RAP investigates containers 
suspected of housing radioactive materials, seeks the location of lost 
industrial or medical radioactive sources, and advises federal, state, 
and local authorities on the consequences of a radioactive release or 
personnel contamination. RAP regularly drills with similar teams from 
other federal agencies, state, local, and tribal governments as well as 
private companies and organizations.
    To deal with the latest emerging threats, LLNL now maintains a home 
team capability to assist response workers at all levels. The home team 
is trained to recognize and respond to nuclear terrorism. Included 
within this umbrella is the ability to supply timely interpretation of 
signals from field instruments (the so-called ``nuclear triage'' 
program being developed at NNSA headquarters).
    Search and Inspection Technologies. There is a pressing need for 
technologies to improve the screening of passengers, baggage, and 
cargo. Candidate technologies, in various stages of development at 
Livermore, include computed tomography (CT), x-ray scanning, gamma-ray 
imaging, neutron interrogation, and ultrasonic and thermal imaging. 
These efforts build on projects and expertise in the Stockpile 
Stewardship Program to develop improved sensors for non-destructive 
evaluation of the condition of weapons and weapon components in the 
stockpile. NNSA has assigned LLNL the responsibility to establish a 
national test bed for the inspection of cargo containers (discussed 
further below).
    Two Laboratory-developed search technologies demonstrated their 
applicability to counter-terrorism response when they were deployed to 
the World Trade Center. The first, a micropower radar, can ``see'' many 
feet into concrete rubble and could be a valuable tool for search and 
rescue operations. The other, a remote monitoring instrument that uses 
hyperspectral data to detect and identify trace gas emissions, was 
flown over Ground Zero to characterize hazardous gases emanating from 
the rubble.
    Sensor Networks. Livermore has developed a concept for correlated 
sensor networks for detecting and tracking ground-delivered nuclear 
devices or nuclear materials, the Detection and Tracking System (DTS). 
A novel algorithm integrates data from the various sensors, together 
with information from other sources (e.g., an intelligent traffic 
system) to identify sources of concern, track their movement through 
the road network, and guide responders in intercepting the suspect 
vehicle. Since September 11, DTS development was accelerated and a 
prototype system was demonstrated in an urban environment. We are 
preparing for further, larger scaled demonstrations of this system with 
added capabilities.
Strong Capabilities and Active Programs Biological and Chemical Threats
    Bioscience research at the Laboratory traces its root to 1963, when 
a program was established to study how radiation and chemicals interact 
to produce adverse consequences to humans. Research activities at LLNL 
and LANL led to a focus on DNA and technology development that led to 
DOE's decision to launch its Human Genome Initiative in 1987. Both 
laboratories are part of DOE's Joint Genome Institute, which includes 
Lawrence Berkeley National Laboratory and is located in nearby Walnut 
Creek, California, and have contributed to deciphering the human 
genetic code. We are applying our expertise in genomics to counter the 
threat of bioterrorism. In addition, in support of Livermore's national 
security and other programs, the Laboratory also has outstanding 
capabilities in chemistry and materials science.
    Biological Agent Detectors. The biodefense capabilities that have 
been deployed in the wake of September 11 have, at their core, advances 
in biological detection instrumentation developed at Livermore. We have 
made technology breakthroughs in biodetection instrumentation, 
pioneering the miniaturization and ruggedization of both flow cytometry 
and DNA identification devices. Our miniature thermal cycler unit makes 
possible DNA amplification via polymerase chain reaction (PCR) and 
identification in minutes rather than the hours and days previously 
required. Livermore's miniaturized PCR technology has been licensed to 
private industry and forms the basis of today's most advanced 
commercial biodetection instruments (e.g., Cepheid's Smart Cycler, 
Environmental Technology Group's hand-held biodetector).
    Cepheid Smart Cyclers are the heart of the field laboratory of the 
Biological Aerosol Sentry and Information System (BASIS), developed 
jointly by Livermore and Los Alamos and previously discussed. In 
developing BASIS, the two laboratories worked closely with the many law 
enforcement, emergency response, and public health agencies that would 
be involved in dealing with a bioterrorism event to develop appropriate 
sample handling (chain of custody), communications, and response 
protocols.
    DNA Signatures. Biodetectors depend on unique antibodies or DNA 
sequences to identify and characterize biological pathogens. Livermore 
is developing gold-standard DNA signatures of top-priority threat 
pathogens (anthrax, plague, etc.) and are working with the Centers for 
Disease Control and Prevention (CDC) to validate these signatures and 
distribute them to public health agencies nationwide. We are also 
working with the Federal Bureau of Investigation, CDC, Department of 
Defense, and U.S. intelligence agencies to develop detailed biological 
``fingerprints'' and data to support forensic analysis of any act of 
biological terrorism.
    Chemical Analysis for Forensic Attribution. Timely and complete 
analysis of suspect chemicals can answer important questions related to 
nonproliferation, counter-terrorism, and law enforcement. Our Forensic 
Science Center has assembled a unique capability for detecting and 
characterizing ultra-trace levels of virtually any compound in any 
sample matrix. Expertise and instrumentation are available for complete 
chemical and isotopic analysis of nuclear materials, inorganic 
materials, organic materials (e.g., chemical warfare agents, illegal 
drugs), and biological materials (e.g., toxins, DNA). The Forensic 
Science Center also develops advanced laboratory and field capabilities 
for ultra-trace analysis, including a portable (55-pound) gas 
chromatograph/mass spectrometer, field kits for thin-layer 
chromatography, and novel sample collectors using solid-phase 
microextraction.
    The Forensic Science Center has begun the rigorous testing required 
to become the second U.S. laboratory certified by the Organization for 
the Prohibition of Chemical Weapons (OPCW), which is responsible for 
implementing the Chemical Weapons Convention (CWC). Under the terms of 
the CWC, all samples collected from inspected facilities must be 
analyzed at two OPCW-designated laboratories. The U.S. Congress 
mandates that all U.S. samples be tested in the U.S. Currently, the 
U.S. has only one designated laboratory, the Edgewood Chemical and 
Biological Forensic Analytical Center. Livermore will provide the 
second required facility.
Strong Capabilities and Active Programs--Underpinning Capabilities and 
        Facilities
    Several special capabilities at Livermore merit special mention 
because they provide broad yet critical support to homeland security: 
our International Assessments Program, the National Atmospheric Release 
Advisory Center (NARAC), the Counterproliferation Analysis and Planning 
System (CAPS), high-performance computations, and the Computer Incident 
Advisory Capability.
    Intelligence Analysis and Threat Assessment. One of the most 
critical, yet difficult, elements of homeland security and counter-
terrorism is gaining insight into the capabilities, intentions, and 
plans of persons, groups, or states hostile to the U.S. Our 
International Assessments Program (Z Division) is one of the strongest 
capabilities in the country for analysis and research related to 
foreign nuclear weapons and other weapons of mass destruction, 
including early-stage foreign technology development and acquisition, 
patterns of cooperation, and foreign cyber threats. Such intelligence 
analyses serve as the foundation for homeland defense against WMD 
threats. Intelligence provides an essential input to threat analyses 
that, in turn, provide the basis for defining functional requirements 
for technical homeland security systems. Furthermore, intelligence can 
provide ``indications and warning'' of an imminent attack, thus guiding 
further deployment of defensive assets. Thus there is a critical need 
for both long-term, in-depth intelligence analysis and timely, 
responsive indications and warning.
    Z Division regularly provides analysis products to our 
intelligence, defense and policy-making customers. Our assessments of 
foreign weapons programs and activities provide important input to 
policy makers and diplomats as they develop strategies for U.S. 
responses to events affecting national security. The capabilities in Z 
Division also support our Nuclear Threat Assessment Program (previously 
discussed), which analyzes nuclear terrorist threats and smuggling 
incidents.
    In addition to filling a critical niche by providing all-source 
intelligence analyses of foreign nation-state programs to acquire WMD, 
we develop data analysis tools and data integration methods to aid 
intelligence collection and assessment and avoid the pitfalls of 
information stovepiping. Some of these tools are currently being 
evaluated by our analysts as well as end-users across the Intelligence 
Community, while many others are under intense development and will be 
applied to the counter-terrorism problem. In the aftermath of September 
11, we provided intelligence analysts and assessments as well as 
information-operations tools and expert personnel to the U.S. 
Intelligence Community.
    There is tremendous potential for the knowledge and capabilities of 
Z Division to support Department of Homeland Security needs for threat 
analyses, and for new analysis tools. However, I want to emphasize that 
this expansion of scope needs to be accomplished in a way that 
preserves Z Division's access to raw intelligence, and its ability to 
use nuclear weapons design tools in its analyses, both of which have 
historically been enabled by our designation as a Field Intelligence 
Element of DOE.
    Atmospheric Modeling for Consequence Management. The National 
Atmospheric Release Advisory Center (NARAC), located and operated at 
the Laboratory, is a national emergency response service for real-time 
assessment of incidents involving nuclear, chemical, biological, or 
natural hazardous material. NARAC can map the probable atmospheric 
spread of contamination in time for an emergency manager to decide 
whether protective actions are necessary. NARAC is on call to respond 
to real incidents and can also be used to evaluate specific scenarios 
for emergency response planning, such as optimizing the siting of 
bioaerosol samplers or determining evacuation routes.
    Since it was established in 1979, NARAC has responded to more than 
70 alerts, accidents, and disasters and has supported more than 800 
exercises. In addition to accidental radiological releases (e.g., 
Chernobyl, 1986; Three Mile Island, 1979), NARAC has assessed natural 
and manmade disasters (Mt. Pinatubo volcanic ash cloud, 1991; Kuwaiti 
oil fires, 1991). NARAC has also provided assessments to state and 
local responders to toxic chemical accidents (e.g., Richmond sulfuric 
acid cloud, 1993; Sacramento River Spill, 1991). State and local 
agencies can request NARAC support for actual releases or planning by 
contacting DOE's Office of Emergency Response or the NARAC program 
office at Livermore.
    The Counterproliferation Analysis and Planning System (CAPS). 
Developed continually updated by LLNL, Counterproliferation Analysis 
and Planning System (CAPS) is a versatile and powerful modeling system 
for analyzing, end-to-end, a proliferator's WMD production processes 
and for assessing interdiction options and their corresponding 
consequences. CAPS is as easy to use as a Web browser, with its 
powerful and complex science (spectral analysis, toxic release 
modeling, etc.) invisible to the user. CAPS is widely accepted by the 
military's mission planners and is the Department of Defense's 
preferred counterproliferation planning tool.
    High-Performance Computing. With supercomputers acquired as part of 
NNSA's Advanced Simulation and Computing (ASCI) program and additional 
institutional investments in massively parallel computers, Livermore is 
an international leader in high-performance computing. Many 
groundbreaking applications are being developed. An example directly 
relevant to homeland security is our computational biology work 
directed at genomics--the development and use of bioinformatics tools 
and databases.
    We have developed computational tools to automatically identify 
regions of bacterial and viral pathogen genomes that have a high 
probability of being unique to that genome. We can now process any 
draft or finished pathogen genome in a few hours and confidently detect 
all regions that are not ``matched'' in any other known sequenced 
genome. This capability has been tested on numerous bacterial and viral 
pathogens both at LLNL and with collaborators such as the Centers for 
Disease Control, the U.S. Army Medical Research Institute of Infectious 
Diseases, and the Department of Agriculture. We are currently using 
this unique computational capability to satisfy pathogen detection 
needs of these and other federal and state agencies.
    Building on the approach we are taking, we will attempt to tackle 
more complex problems such as automatically determining all protein 
signature targets in a genome and determining the ``pathomics'' of 
virulence across all pathogens (i.e., the molecular mechanisms of 
virulence itself). The computational needs to address these problems 
will require use of cutting-edge supercomputer resources such as those 
at LLNL.
    Computer Incident Response. LLNL is home to DOE's Computer Incident 
Advisory Capability (CIAC), which was formed in 1989. We assist any DOE 
facility that experiences a computer security incident with analysis, 
response, and restoration of operations. CIAC serves as DOE's watch and 
warning center, notifying the complex of vulnerabilities that are being 
exploited, specifying countermeasures to apply, and providing a picture 
of the attack profile. The center also develops science and technology 
solutions in support of computer network defense and products such as 
SafePatch, which earned its developers a Government Technology 
Leadership Award. CIAC's list of clients has grown to encompass other 
government agencies, and there have been several incidents where the 
team worked with the Federal Bureau of Investigation.
Strong Ties to Research Partners and the User Community
    Many of our various research partners are cited throughout my 
testimony, and I discuss the vital need for partnerships later. An 
often overlooked--yet important--aspect of a successful research and 
development program is understanding the users' needs. Additional 
examples of our connections and work with the user community follow.
    Expert Personnel Assisting in Homeland Security. Livermore 
scientists serve on various task forces, committees, and advisory 
groups dealing with aspects of homeland security and counterterrorism. 
For example, a Livermore expert on x-ray imaging is a member of the 
National Academy of Science Committee on Assessment of Technology 
Deployed to Improve Commercial Aviation Security. Other Laboratory 
scientists serve as technical advisors to the U.S. Customs Service, the 
National Guard, and the Los Angeles Emergency Operations Center, and as 
members or advisors to various Defense Science Board task forces 
addressing homeland defense. Still others are assisting the California 
Highway Patrol and the California State Office of Emergency Services 
(OES) with training related to weapons of mass destruction and serving 
as members of the California Council on Science and Technology, which 
is providing technical advice to the OES's State Strategic Committee on 
Terrorism.
    Forensic Science Support to Law Enforcement. Over the years, 
Livermore's Forensic Science Center (previously discussed) has 
responded to many requests from law enforcement for assistance in 
forensic analysis of unique samples. Since September 11 and the 
subsequent anthrax scare, hundreds of samples of concern have been 
analyzed for local and federal law enforcement and government 
officials. Previously, the Center has been brought in to analyze 
Supernote counterfeit bills, methamphetamine samples, biotoxins, 
suspect chemical-warfare specimens, and nuclear contraband. It has 
characterized explosive traces from the 1993 World Trade Center 
bombing, the Unabomber case, and the Fremont serial bomber; performed 
forensic sleuthing related to the Riverside ``mystery fumes'' case; 
analyzed samples for the Glendale ``Angel of Death'' case; and analyzed 
Capitol Hill offices as requested following anthrax decontamination. 
Locally, the Center assisted Livermore police by rapidly identifying a 
vapor that sickened response personnel at the scene of a suicide; once 
the chemical was identified (malathion), law enforcement agencies were 
able to take appropriate personnel-protection measures and complete 
their investigation.
    LINC for Improved Emergency Preparedness. Through the LINC program 
(Local Integration of the National Atmospheric Release Advisory Center 
with Cities), we are currently working with local agencies in the 
Seattle area. A LINC pilot project is testing and evaluating the 
effectiveness of an approach to emergency preparedness that offers the 
potential for dramatic improvements. Sponsored by NNSA's Chemical and 
Biological National Security Program, LINC integrates capabilities at 
LLNL's NARAC (previously discussed) with local emergency management and 
response centers. Ultimately, LINC's goal is to provide continuous 
operation of an integrated, nationalwide system that aids emergency 
preparedness and response at all levels of government.
    A National Test Bed for Standards, Test, and Evaluation. One key 
function of the Department of Homeland Security will be the setting of 
standards for technical homeland security systems. To set such 
standards will require practical, technical judgment, with 
consideration of the threats that the technology is intended to 
address, a concept of operations for its use, and the infrastructure 
necessary to use it effectively. This process must involve the 
Intelligence Community, end users in federal, state and local 
government, and technical experts. Candidate technologies must undergo 
objective testing and evaluation to determine how well they satisfy the 
standards, as input to acquisition decisions by those with operational 
responsibilities.
    NNSA has assigned LLNL the responsibility to establish a national 
test bed for the inspection of cargo containers for chemical, 
biological, radiological, and nuclear weapons and materials. To meet 
this responsibility, we have initiated threat analyses to establish the 
range of threat scenarios that such inspection systems should address. 
We have also begun a research program, based on calculations and 
experiments, to characterize the relevant ``observables'' for 
successful detection. We have engaged federal, state and local 
organizations with operational responsibilities in this area to factor 
in their practical, operational constraints. We have set up a test 
facility where exemplar containers are loaded with surrogate materials, 
as well as typical cargo, so that commercial equipment and research 
prototypes can be tested in meaningful scenarios. We believe that this 
methodology should be extended to other terrorist scenarios of concern.
    Risk and Vulnerability Assessments of Critical Facilities. Through 
our participation in DOE's Vulnerability and Risk Assessment Program, 
we have made systematic assessments of the threat environment, cyber 
architecture, physical and operational security, policies and 
procedures, interdependencies, impact analysis, risk characterization, 
and possible mitigation measures for the 2002 Winter Olympic Games in 
Salt Lake City, eleven electric and gas infrastructures, and several 
independent service operators (ISOs), including the California ISO 
during the electrical energy crisis. We have also analyzed the 
vulnerability of buildings, dams, and other structures to catastrophic 
damage from earthquakes and explosive events. Projects have included 
evaluation of the earthquake vulnerability of major bridge structures 
(including the Golden Gate and San Francisco-Oakland Bay bridges), the 
structural integrity of nuclear material shipping containers for a 
variety of impact scenarios, and the likely damage resulting from the 
explosion of natural gas storage tanks in a suburban environment.
    More generally, LLNL has applied risk and decision theoretic 
methodologies to a wide range of hazardous endeavors, both internal to 
the Laboratory and for the public sector, and we can be considered a 
major scientific contributor to the discipline of risk assessment and 
risk management. We have developed methodologies for and conducted risk 
assessments of nuclear power generation, nuclear explosive operations, 
information systems, transportation systems and hazardous material 
protection (called vulnerability analyses) to identify and enhance 
safety, safeguards and security. In addition, LLNL has assisted other 
federal agencies in the application of risk management.
    Engineering a Novel Truck-Stopping Device. In October 2001, the 
Governor of California contacted Livermore requesting assistance to 
develop a means of stopping tanker trucks, to keep hijacked trucks from 
becoming motorized missiles. The objective was to make it possible to 
stop these large trucks using equipment readily available to peace 
officers, namely their vehicles and their weapons. A retired Livermore 
engineer and consultant teamed with Laboratory engineers, technicians, 
and heavy equipment operators to develop a simple mechanical device to 
accomplish this. It can be readily attached to the back of a tanker 
truck. When bumped from the rear by the patrol vehicle, the device 
would cause the trailer braking system to lose air pressure 
automatically locking the trailer brakes. A prototype was demonstrated 
in Oakland in late November 2001, and testing at high speeds was 
conducted at the Nevada Test Site in February and March 2002. We are 
currently developing a portable remote-controlled system and working 
with the California Highway Patrol and a major California trucking 
company on implementing a field trial program.
            rdt&e within the department of homeland security
    Securing the U.S. homeland is a formidable undertaking, 
particularly in light of declared terrorist intentions to acquire and 
potentially to use weapons of mass destruction against us. Bold steps 
by the nation are needed including the creation of a Department of 
Homeland Security. Bold steps are also needed to effectively align 
RDT&E to meet today's WMD challenges and tomorrow's threats. As the 
President recently said, ``History . . . teaches us that critical 
security challenges require clear lines of responsibility and the 
unified effort of the U.S. Government.'' To this end, I offer the 
following observations about the science and technology (S&T) element 
of the Department of Homeland Security.
    Science and technology is a key ``weapon'' in the U.S. arsenal 
against terrorism--it is critical to this effort. However, many of the 
S&T challenges that must be met--whether to protect U.S. borders, 
counter a WMD terrorist attack, protect critical U.S. infrastructure, 
or improve data mining and analysis of intelligence information--are 
extremely difficult. They require the efforts of the nation's best 
technical talent and the involvement of the entire relevant national 
S&T community. Since the problem space is large and fiscal resources 
are always limited, thoughtful prioritization of threats, potential 
solutions, and RDT&E investments are necessary.
    A Center for Homeland Security RDT&E. An appropriate degree of 
central coordination is essential to ensure that all the needed WMD S&T 
elements are being addressed, without unnecessary duplication of 
effort, and that best use is made of the nation's technical and fiscal 
resources. As Governor Ridge recently testified (June 25), there needs 
to be ``one unit . . . that deals with research and development, 
science and technology'' and provides ``strategic direction for 
homeland security research and development.''
    As we understand it, this unit would provide overall RDT&E program 
management and facilitate interagency coordination. It would assist 
users in implementing new capabilities and evaluating their 
effectiveness. In addition, it would work with experts, whether located 
at government laboratories, universities, or industry, to define the 
appropriate portfolio of advanced technologies and concepts for the 
department to pursue. These efforts would include defining systems 
architectures and requirements for development programs based on threat 
assessments, vulnerabilities, and user needs and, from these, component 
specifications. Clearly such a function would need a sustained level of 
funding for adequate staff with required expertise and facilities to 
carry out these activities as well as some portion of the technical 
RDT&E program.
    The highly successful BASIS program that I discussed provides an 
example how such a unit or center would be expected to structure a 
major program effort for the Department of Homeland Security--first 
establishing a clear top-level objective; ensuring that a systems-level 
approach is taken; fostering close interactions between technology 
developers, commercial producers, and users; testing and evaluating new 
systems; and helping in the transfer of operations to customers or 
their contractors.
    Our experience is that to succeed the center should:

  <bullet> Have a mission-oriented, problem-solving focus and 
        structure, with technical and organizational agility and the 
        ability to integrate multiple technical disciplines.
  <bullet> Work closely with the end users at the national, regional 
        and local levels.
  <bullet> Be a recognized leader in RDT&E, prototyping, and 
        implementation of technologies and systems to counter WMD 
        terrorism.
  <bullet> Be managed by leaders with the ability and credibility to 
        interact effectively at top levels of government.
  <bullet> Provide a ``critical mass'' of top scientists and engineers, 
        with long-term ability to attract, retain, and effectively use 
        technical talent.
  <bullet> Have extensive and effective connectivity with the broad 
        homeland security community (Intelligence Community, other 
        national labs, government agencies, industry, universities, 
        operational entities).

    Center Location. The Administration has made clear that they would 
like to develop a center at the Lawrence Livermore National Laboratory. 
As stated in the White House press release on June 18, 2002, ``The 
President's legislation . . . has in mind a system where there will be 
a substantial facility based at Lawrence Livermore that will be a 
Department of Homeland Security facility, and it will manage a R&D and 
science and technology program related to homeland security that will 
occur in many different places, in many different national 
laboratories.'' General John Gordon, testifying before Congress as NNSA 
Administrator, voiced support for the concept of locating the 
Department of Homeland Security's main research facility at LLNL with 
satellite centers of excellence elsewhere.
    A center at Livermore would benefit from Lawrence Livermore's 
multidisciplinary capabilities and those at the adjacent Sandia 
National Laboratories (California). Our existing mission 
responsibilities and demonstrated track record of working with a wide 
range of partners and bringing technologies from concept to prototype 
development make Lawrence Livermore a suitable choice for the center's 
location. We are honored to have the designated center here and we will 
manage whatever implementation hurdles emerge. Also, very importantly, 
I believe Livermore has the ability to meet its homeland security 
objectives while continuing to meet its many other important 
programmatic commitments, especially those relating to the nuclear 
defense posture of the nation.
    One strong advantage of locating the center at Livermore is the 
Laboratory's proximity to important assets--potential major partners in 
RDT&E and commercialization as well as key customers for homeland 
security. The San Francisco Bay Area is home to three international 
airports, two seaports, an FBI field office, Customs and INS 
headquarters, Silicon Valley, area biotechnology firms and health-care 
providers, mass transit and rail systems, and high-visibility targets 
(e.g., Golden Gate Bridge). In addition, as part of University of 
California, LLNL has close ties with the many UC campuses in the area 
(Berkeley, San Francisco, Davis, and Santa Cruz) as well as Stanford 
University (and associated medical schools). Examples of almost every 
aspect of the homeland security equation are just minutes away from 
Livermore.
    The Need for Partnerships. I firmly support Governor Ridge and Dr. 
Marburger as to the need for a center for homeland security S&T. 
According to Dr. John Marburger, the President's Science Advisor, one 
of the functions of this center would be to represent science to the 
rest of the department. Very important will be the need for effective 
partnerships between this center and other key members of the homeland 
security RDT&E community with satellite centers of excellence. The 
long-standing partnership of the three NNSA laboratories--LLNL, LANL, 
and SNL--and the Nevada Test Site, which has successfully focused for 
decades on national security issues, can be extraordinarily useful to 
homeland security. There are other DOE national laboratories and 
research facilities as well with special expertise and capabilities 
that should be part of the team.
    The center for homeland security RDT&E would also need to 
facilitate effective partnerships with the Department of Health and 
Human Services (DHHS) and its system of laboratories, especially to 
feed in new DNA signatures, assay protocols, and detection technologies 
developed by the NNSA laboratories and others for DHHS validation and 
dissemination to the public health community. Likewise, the center 
would need to draw on private industry, especially in the field of 
information technology, and on universities for their special 
expertise, integrating these S&T contributions into robust, responsive 
system architectures for homeland security.
                            closing remarks
    In its efforts to combat terrorism and ensure homeland security, 
the nation can build on an attribute that has made the United States 
the world leader that it is the remarkable capability of the American 
people to focus extraordinary energy on achieving important objectives 
in a time of need. Establishing a Department of Homeland Security can 
fundamentally change for the better the nation's approach to preventing 
terrorist attacks on the United States, reducing the nation's 
vulnerability to terrorism, and managing the aftermath of any attack.
    As the Administration and many leaders in Congress have already 
stated, to succeed the new department will need to pursue a sustained 
RDT&E program particularly related to chemical, biological, 
radiological and nuclear threats that is prioritized to meet prudently 
established objectives. These threats are significant and will grow 
more sophisticated over time. At Livermore, we are fully committed to 
this long-term national security endeavor to improve homeland security 
and are well positioned to provide effective RDT&E support to the 
department. LLNL brings to the Department of Homeland Security relevant 
existing mission responsibilities and programs, experience working with 
a wide range of research partners and users, and a track record of 
taking technologies from concept to prototype development and 
deployment.

    The Chairman. Thank you very much.
    Ambassador Robinson, we're glad to have you here.

  STATEMENT OF AMBASSADOR C. PAUL ROBINSON, DIRECTOR, SANDIA 
                     NATIONAL LABORATORIES

    Ambassador Robinson. Thank you very much, Senator. Members 
of the committee, thank you very much for the opportunity to 
appear.
    In my written statement I focused on three areas, the 
contributions we've made to countering terrorism prior to 
September 11 and some of the efforts since then. The question 
of how best to allow the national labs to participate with the 
new homeland security Department, and then a very few thoughts 
on organizing the government in the best way to take on this 
challenging mission.
    Some of the contributions I wanted to mention are for the 
purpose of your realizing that the work the labs have done is 
not new and is not just theoretical. We started a lot of these 
efforts several years ago, or the technology would not have 
been available when it was needed.
    First, if the decontaminant foam which kills biological 
weapon agents and chemical-warfare agents in minutes. It was 
developed at Sandia by the Army, and they carried out a 
competition head to head with a lot of technologies for doing 
either chemical or biology weapons in the year 2000. We then 
licensed the formulation to U.S. firms. And when it was needed 
to decontaminate both the buildings here in Washington, the 
post offices, and several private offices, our scientists 
suited up and went into harm's way themselves with the material 
to effect the clean up.
    Bomb disablement technology, now the primary tools which 
bomb squads use in the United States and allied countries, was 
developed in our lab. These tools disrupt and render safe bombs 
of all sizes and types--backpacks, truck bombs, car bombs, even 
large truck bombs as were applied Oklahoma City. It does this 
without initiating the explosive itself or destroying forensic 
information.
    We've developed a lot of detectors for explosives for 
nuclear devises and materials, for chemical warfare and 
biological warfare agents, also under a variety of 
circumstances. And we've deployed these systems not as 
individual scientific items, but as full warning systems, and 
they're deployed in the metro system here, in subways in other 
cities, and in major airports. And each month more and more of 
those system go up.
    We developed a synthetic-aperture radar imager, which has 
exceptional clarity and special capabilities--for example, to 
tell you if a change has taken place from any previous time. 
The system is all-weather, works day and night from a great 
variety of platforms, either manned or unmanned platforms, and 
had just tremendous use in Afghanistan.
    Partnering with Los Alamos, we developed the National 
Infrastructure Simulation and Analysis Center to analyze and 
assess the risk to the critical infrastructures, which Senator 
Craig had just mentioned, both the electrical grids, now 
pipeline grids, transportation systems, as well as beginning to 
model what are the linkages and interactions between those two, 
which will be an important part for us to understand.
    We've always been active in cyber-defense systems, because 
of the responsibility to protect nuclear-weapon codes, but our 
own important government networks, including classified 
networks between our laboratories, have to be protected. We've 
done this work now for many agencies of the Government, 
including the systems that control major utilities--power, 
water, et cetera.
    We've continued the work in water systems security and have 
worked increasingly with the Department of the Interior to 
protect reservoirs and dams as well as State and local 
municipalities, their water systems, against attack.
    The next major area of focus in the testimony is, how can 
we ensure that we can make our best contributions to solving 
this homeland security challenge and thwarting the terrorism we 
face as a nation? I must echo the statements that Dr. Happer 
made. I've been around this community a long time, and I think 
there are enormous hurdles to surmount. Many different ways of 
bringing science to bear on government problems have been 
tried. And, unfortunately, the record of failure is far greater 
than the record of successes in the past. Government R&D 
generally has been characterized as overly bureaucratic and 
stifling of new ideas.
    On the heels of the Manhattan Project, which was one of the 
great triumphs of science for the national interest, President 
Truman tasked Vandever Bush to establish a science and 
technology infrastructure and plan that might keep the United 
States ahead in these critical areas and be sure that science 
was being applied to national needs. One conclusion he made was 
that, quote, ``There are few things the American citizenry can 
do to further the cause of science other than to pick men and 
women of brilliance, back them heavily, and leave them alone to 
do their work.''
    Now, unfortunately, I think you would find little evidence 
today that any government agency has chosen that route. On the 
whole, things have become very bureaucratic. It's that red tape 
that slows down the process the most of getting from idea to 
fielded application. We need new processes to successfully move 
from prototypes to manufactured hardware. And I think science 
and technology in this new agency will not be successful unless 
you are willing to give them great powers of simplifying and 
streamlining and cutting through a lot of the red tape that's 
plagued so many attempts in the past.
    I would suggest some routes for consideration. First, is 
giving mission assignments to laboratories, to different 
laboratories, not just task orders to the scientists and 
engineers. When people have a missions, they try and solve the 
whole problem and give you a system solution.
    Hold competitions for ideas, not just competitions for 
money. And when you've gotten the best ideas--we're all in this 
Nation together--assign them to the labs as you need to and 
keep things moving instead of stalling.
    I strongly believe in the principle of end-to-end 
responsibility. Cradle-to-grave is what we've often referred to 
the phrase--an obligation to make sure that the ideas you come 
up with successfully operate in the field and meet the needs of 
the user.
    Lastly, I give a few thoughts on how to organize the 
homeland security department for science and technology, but I 
would draw your attention to what I think is the most important 
sentence in my statement. It's at the top of page two. Our 
experience is that any thoughtful organizational structure can 
work if well-meaning and empowered people carry out that work. 
It's our intention to do everything we can, whatever the 
organizational structure is, to be sure and make the homeland-
security mission successful.
    I thank you for your attention.
    [The prepared statement of Ambassador Robinson follows:]
           Prepared Statement of C. Paul Robinson, Director, 
                      Sandia National Laboratories
                              introduction
    Mr. Chairman and distinguished members of the committee, thank you 
for the opportunity to testify on the present and future roles of the 
National Nuclear Security Administration's national laboratories in 
homeland security. I am Paul Robinson, director of Sandia National 
Laboratories.
    Sandia National Laboratories is managed and operated for the 
National Nuclear Security Administration (NNSA) of the U.S. Department 
of Energy (DOE) by Sandia Corporation, a subsidiary of the Lockheed 
Martin Corporation. Sandia's unique role in the nation's nuclear 
weapons program is the design, development, qualification, and 
certification of nearly all of the nonnuclear subsystems of nuclear 
warheads. We perform substantial work in programs closely related to 
nuclear weapons, including intelligence, nonproliferation, and treaty 
verification technologies. As a multiprogram national laboratory, 
Sandia also conducts research and development for other national 
security agencies when our special capabilities can make significant 
contributions.
    At Sandia National Laboratories, we perform scientific and 
engineering work with our missions in mind--never solely for its own 
sake. Even the fundamental scientific work that we do and we do a great 
deal of it--is strategic for the mission needs of our sponsors. 
Sandia's management philosophy has always stressed the ultimate linkage 
of research to application. When someone refers to Sandia as ``the 
nation's premier engineering laboratory,'' that statement does not tell 
the whole story: We are an applied science and engineering laboratory 
with a focus on developing technical solutions to the most challenging 
problems that threaten peace and freedom.
    My statement will give an overview of Sandia's contributions to 
homeland security in recent months, followed by a discussion of the 
major laboratory capabilities of importance to the homeland security 
mission in the future. I will also share my thoughts on how best to 
structure a science and technology capability for homeland security in 
order to have maximum success, including suggestions for how 
legislation can ensure access to the research and development (R&D) 
resources that the new Department of Homeland Security will require to 
support its missions. Let me stress at the outset, however, that our 
experience has been that almost any thoughtful organizational structure 
can work, if well-meaning and empowered people carry out the work of 
the organization.\1\
---------------------------------------------------------------------------
    \1\ This conclusion is one of the observations made by the authors 
of Built to Last: Successful Habits of Visionary Companies, by James C. 
Collins and Jerry I. Porras, who made a landmark study of America's 
most successful companies.
---------------------------------------------------------------------------
    sandia's contributions to homeland security and the war against 
                               terrorism
    Like most Americans, the people of Sandia National Laboratories 
responded to the atrocities of September 11, 2001, with newfound 
resolve on both a personal and professional level. As a result of our 
own strategic planning and the foresight of sponsors to invest 
resources toward emerging threats, Sandia was in a position to 
immediately address some urgent needs.
    For example, by September 15, a small Sandia team had instrumented 
the K-9 rescue units at the World Trade Center site to allow the search 
dogs to enter spaces inaccessible to humans while transmitting live 
video and audio to their handlers. This relatively low-tech but timely 
adaptation was possible because of previous work we had done for the 
National Institute of Justice on instrumenting K-9 units for SWAT 
situations.
    You may perhaps be aware that a formulation developed by Sandia 
chemists was one of the processes used to help eliminate anthrax in 
this very building (Dirksen), as well as in the Hart and Ford buildings 
here on Capitol Hill and at contaminated sites in New York City and in 
the Postal Service. We developed the non-toxic formulation as a foam 
several years ago and licensed it to two firms for industrial 
production in 2000. The formulation neutralizes both chemical and 
biological agents in minutes.
    Special devices invented by explosives experts at Sandia have 
proved to be effective for safely disarming several types of terrorist 
bombs. For the past several years, our experts have conducted training 
for police bomb squads around the country in the techniques for using 
these devices for safe bomb disablement. The shoe bombs that Richard 
Reid allegedly attempted to detonate onboard a trans-Atlantic flight 
from Paris to Miami were surgically disabled with an advanced bomb-
squad tool originally developed at Sandia. That device, which we 
licensed to industry, has become the primary tool used by bomb squads 
nationwide to remotely disable handmade terrorist bombs while 
preserving them for forensic analysis.
    Sandia is a partner with Argonne National Laboratory in the PROTECT 
program (Program for Response Options and Technology Enhancements for 
Chemical/Biological Terrorism), jointly funded by DOE and the 
Department of Justice. PROTECT's goal is to demonstrate systems to 
protect against chemical attacks in public facilities, such as subway 
stations and airports. For more than a year, a Sandia-designed chemical 
detector test bed has been operating in the Washington D.C. Metro. The 
system can rapidly detect chemical agents and transmit readings to an 
emergency management information system. We successfully completed a 
demonstration of the PROTECT system at a single station on the 
Washington Metro. The program has since been funded to accelerate 
deployment in multiple Metro stations. DOE has also been requested to 
implement a PROTECT system for the Metropolitan Boston Transit 
Authority.
    Another major worry for homeland security is the potential for acts 
of sabotage against municipal water supplies. In cooperation with the 
American Water Works Association Research Foundation and the 
Environmental Protection Agency, Sandia developed a security risk 
assessment methodology for city water utilities. This tool has been 
employed to evaluate security and mitigate risks at several large water 
utilities. We have used similar methodologies to evaluate risks for 
other critical infrastructures such as nuclear power-generation plants, 
chemical storage sites, and dams.
    As a result of our sustained program of research and development on 
Synthetic Aperture Radar (SAR), several state-of-the-art systems have 
recently been provided to various DoD operational units, either through 
Sandia directly or by a corporate partner. These systems are deployed 
in various critical and time-urgent national security missions, 
including direct support of Joint Forge, Enduring Freedom, and homeland 
defense activities, and they have earned recognition for their 
exceptional performance and utility. Unlike more conventional electro-
optical systems, SAR provides a day/night, all-weather imaging 
capability. Sandia has performed research and development on SARs since 
the early 1980s, an activity that grew from roots in nuclear weapon 
radar fuzing and has continued under the sponsorship of both DOE and 
DoD and some corporate partners.
    These and other contributions to homeland security and the war 
against terror are possible because of strategic planning we conducted 
years ago and early investment in the capabilities that were needed to 
respond to emerging threats. The outstanding technology base supported 
by NNSA for its core missions is the primary source of this capability. 
We also made strategic decisions to invest Laboratory-Directed Research 
and Development (LDRD) funds in the very things that we judged were 
likely to become future needs: items to the Afghanistan theater, the 
decontamination foam, the sensors we have deployed, and special-purpose 
robotics we developed. In recent months, requests for Sandia's services 
from federal agencies other than DOE for work in emerging areas of need 
have increased. Approximately twenty-eight percent of our total 
laboratory operating budget is now provided by federal agencies other 
than DOE.
              sandia's capabilities for homeland security
    Sandia National Laboratories and the other NNSA laboratories 
constitute a broad, multidisciplinary technology base in nearly all the 
physical sciences and engineering disciplines. We are eager to leverage 
those capabilities to support other national security needs germane to 
our missions, including homeland security, when our capabilities can 
make significant contributions. Following are a few areas of expertise 
at Sandia that are directly applicable to the homeland security 
mission.
Nuclear Sensing
    As part of Sandia's mission for stockpile stewardship, we have long 
been committed to safeguarding nuclear weapons from terrorists and 
actively supporting nonproliferation. The terrorist attack at the 1972 
Munich Olympics focused our awareness on vulnerabilities to terrorist 
attacks abroad and, in particular, on the need to protect our stored 
nuclear weapons. This led to our work on access delay and denial 
systems at weapons storage sites and improving the security of weapon 
storage vaults. More recently, we have turned our physical protection 
expertise to protection and control of nuclear materials in Russia and 
the former Soviet Union.
    One important tool in the war against nuclear terrorism is the 
Department of Energy's Second Line of Defense (SLD) program. Its 
purpose is to minimize the risk of nuclear proliferation and terrorism 
through cooperative efforts with foreign governments to strengthen 
their capability to detect and deter illicit trafficking of nuclear 
material across their borders. The NNSA laboratories' expertise has 
been essential in this program. Short-term, the Second Line of Defense 
program has adapted commercially available radiation detection 
equipment, security systems, and communications equipment to work 
comprehensively with Russian Customs and other foreign agencies to stop 
nuclear smuggling. It is effective in detecting both weapons material 
and radiological dispersal devices (RDDs) or so-called ``dirty bombs.'' 
Long-term, the Second Line of Defense program will deploy radiation 
detection equipment optimized for border use, integrate it with local, 
regional, and national-level communication systems geared for quick 
response, and cooperatively train foreign officials in use of the 
systems.
    Sandia National Laboratories produces radiation sensors for a 
variety of government customers. One of our specialties is spectral 
sensor systems that provide automatic radioactive material 
identification using special algorithms developed by Sandia. These 
systems detect and analyze nuclear materials quickly, in real time, in 
indoor or outdoor environments, and with a high degree of precision 
that provides high confidence. We have produced a wide variety of 
sensor systems, from very large, fixed installations to small, rugged, 
portable battery-powered units.
    Sandia's Radiation Assessment Identification and Detection (RAID) 
System was originally conceived, built, and tested before the tragic 
events of September 11, 2001. However, it meets the post 9/11 need to 
help safeguard our nation from nuclear terrorism. This system is 
designed to detect and identify radioactive materials transported 
through portals at passenger and package terminals at international 
ports of entry. RAID uses a commercial sodium iodide scintillation 
spectrometer and associated electronics, along with Sandia-developed 
analysis algorithms, to detect and identify radioactive materials 
passing within several meters of the sensor. A video image of the 
detection scene is displayed on a base-station computer. The system 
automatically and continuously updates and recalibrates for background 
phenomena and can identify a radioactive source even if the source is 
shielded.
    Based on our experience with RAID and other more advanced nuclear 
sensing systems, we believe the state of development of our nuclear 
sensors is such that the technology could be quickly transferred to 
commercial producers and widely and rapidly deployed at a cost of less 
than $50,000 per unit. These deployed systems would have a very high 
probability of detecting a smuggled nuclear weapon or an RDD if 
properly deployed. Nuclear sensing systems could be placed at ports of 
entry, around likely targets, or even scattered throughout a city to 
scan people, packages, and vehicles. Since these sensors are passive 
devices, they don't emit a signal and, consequently, are very difficult 
to detect. In other words, a terrorist can't use a radar detector to 
determine if one of these sensors is present. Unbeknownst to a 
terrorist, an alarm from one of these sensors could alert law 
enforcement personnel to the presence or movement of a weapon that 
employs radioactive material.
    Of course, significant challenges exist in transitioning any 
technology from the laboratory to mass-produced industrial products. 
However, as we have demonstrated many times with technologies that we 
have transferred to industry in the past, Sandia works closely with 
industrial partners to work through the design challenges associated 
with manufacturing engineering and commercialization.
Chemical and Biological Agent Sensing
    Sandia is researching a variety of technical solutions to counter 
the threat posed by chemical and biological agents. This activity is 
supported by the DOE Chemical/Biological Nonproliferation Program 
(CBNP) and the Department of Defense and includes threat and response 
analysis, environmental sensing and monitoring, facility protection, 
advance chem/bio-terror warning systems, reagent design, and 
decontamination technology.
    Sandia is developing a portable bio-sensor called ``microChemlab'' 
to put into the hands of first responders. Configured to detect toxins 
such as ricin and botulinum, the device uses micro-fabricated ``chips'' 
as a miniature chemical analysis lab to isolate and identify biological 
agents. This system has been demonstrated to also reliably and rapidly 
detect a variety of chemical weapon agents in realistic situations 
where obscurants to mask the signature are present. The system is being 
modified to analyze viruses and bacteria.
    We are identifying commercial partners to produce and market the 
unit. We are also exploring a process for identifying anthrax in a 
period of minutes, rather than hours. In the laboratory, we are 
analyzing fatty acid esters vaporized from the cell walls of bacteria 
and comparing them to cataloged signatures indicative of anthrax or 
other pathogens. If successful, these signatures can be incorporated 
into the hand-held microChemlab unit described above. The ability to 
identify a biological agent quickly is a crucial step toward developing 
bio-attack warning systems and defenses. Sandia's Laboratory-Directed 
Research and Development (LDRD) program supports this work.
    Sandia is engaged in an accelerated development effort for a 
standoff biological weapons detection system to provide advance warning 
of a biological weapon threat. The system will employ ultraviolet 
laser-induced fluorescence to scan for and to discriminate clouds of 
biological agents over a broad field of view. Prototypes of this system 
have been demonstrated on various mobile and fixed platforms and have 
demonstrated excellent standoff range and sensitivity. Under NNSA 
sponsorship, we are moving toward the demonstration phase of the system 
development in the next several months.
    As critical as sensor technology is to an effective biodefense, an 
even more overriding question is, What should an integrated biodefense 
system look like? For the past several years, Sandia has been working 
with partners to understand the issues associated with defending cities 
against biological attack. Starting with the basic objectives of 
limiting casualties and minimizing the impact of an attack on the 
health care system, we have evolved system concepts that combine early 
medical surveillance with environmental monitoring. Early medical 
surveillance looks for patterns in the population for earlier 
indications of an attack than would be possible if we waited for 
definitive patient diagnoses. Environmental monitoring aims for still 
earlier detection by using sensors, such as those described above, to 
detect dispersal of a disease agent. An urban environmental monitoring 
system would likely consist of a wide-area monitoring component in 
combination with facility monitoring for high-value facilities such as 
government buildings, subways, and airports.
    Even with a good defensive system, knowing what to do in the 
``fog'' of a biological attack is extremely difficult, especially when 
information may trickle in over the course of days, where ``no action'' 
may be a decision with serious consequences, and where multiple 
jurisdictions complicate decision making. To better understand the 
real-world factors affecting such decisions and to help prepare 
decision makers, Sandia has developed a multi-player interactive 
simulation that we call, ``Weapons of Mass Destruction--Decision 
Analysis Center'' (WMD-DAC). We are currently applying this simulation 
capability to both biological and nuclear defense scenarios.
Explosives Detection
    Today, a commercially produced, walk-through portal for detecting 
trace amounts of explosive compounds on a person is available for 
purchase and installation at airports and other public facilities. The 
technology for this device was developed, prototyped, and demonstrated 
by Sandia National Laboratories over a period of several years and 
licensed to Barringer Instruments of Warren, New Jersey, for 
commercialization and manufacture. The instrument is so sensitive that 
microscopic quantities of explosive compounds are detected in a few 
seconds.
    Using similar technology, we have developed and successfully tested 
a prototype vehicle portal that detects minute amounts of common 
explosives in cars and trucks. Detecting explosives in vehicles is a 
major concern at airports, military bases, government facilities, and 
border crossings. The system uses Sandia's patented sample collection 
and preconcentrator technology that has previously been licensed to 
Barringer for use in screening airline passengers. The same technology 
has been incorporated into Sandia's line of ``Hound'' portable and 
hand-held sensors, capable of detecting parts-per-trillion explosives 
and other compounds.
    These devices could be of great value to customs and border agents 
at ports of entry. You will recall the incident in December 1999 when a 
terrorist attempted to cross into the United States from Canada at Port 
Angeles in Washington State. An alert border agent noticed his 
suspicious behavior and inspected the trunk of the vehicle, which was 
packed with explosives. A less alert agent might easily have allowed 
the vehicle to proceed. If we could install vehicle inspection portals 
at ports of entry to scan for explosives and radiological materials 
quickly and efficiently, we would greatly improve our homeland 
security.
Bomb Disablement Technology and Training
    As first responders, American firefighters, police, and emergency 
personnel will be called upon to be America's first line of defense 
against terrorist attacks. These men and women must be prepared for the 
full range of terrorist threats, from improvised explosive devices to 
chemical, biological, radiological, and nuclear weapons of mass 
destruction. It will be the responsibility of the Department of 
Homeland Security to ensure they have access to the training and tools 
they need to do their jobs.
    Sandia National Laboratories began holding advanced bomb-
disablement technology workshops for bomb squad technicians in 1994. 
Since then, Sandia has transferred advanced bomb-disablement technology 
to more than 750 workshop participants through Operation America and 
its predecessors, Operation Riverside and Operation Albuquerque. 
Operation America is a series of ongoing regional workshops hosted by a 
local police department in the state where the event is held and 
supported by regional FBI offices. Participants come from bomb squads, 
police and fire departments, and emergency response organizations 
throughout the United States, including most of our major metropolitan 
cities and the U.S. Capitol Police. They also come from other 
government agencies, all branches of the U.S. military, and, 
internationally, from our allies in some of the world's terrorism hot 
spots. Participants learn applied explosives technology and advanced 
bomb-disablement logic, tools, and techniques. Technical classroom 
presentations, live-range demonstrations, hands-on training, and 
special high-risk scenarios give them the knowledge and technology they 
need to respond to terrorist threats involving explosives.
    Most of the bomb-disablement technologies demonstrated in Operation 
America were developed by Sandia National Laboratories as part of the 
DOE Laboratory-Directed Research and Development (LDRD) program and our 
work for other federal agencies. These tools include the Percussion-
Actuated Nonelectric (PAN) Disrupter used to dismantle suspected 
explosive devices and preserve forensic evidence. The device was used 
at the Unabomber's cabin in Montana and was available at the 1996 
Summer and 2002 Winter Olympic Games. More recently, Massachusetts 
State Police, with the assistance of the FBI, used the Sandia-developed 
PAN Disrupter to disable the alleged shoe bombs removed from an 
American Airlines flight from Paris to Miami.
    The PAN disrupter, as well as other advanced disablement tools 
developed by Sandia, are currently in use by local bomb squads and 
could be used against terrorist threats such as radiological dispersal 
devices (RDDs) and other weapons of mass destruction. Most of these 
bomb-disablement tools are relatively simple to assemble in the field, 
can be used safely from a distance, and are affordable, and they are 
currently in use throughout the bomb-disablement community. These tools 
disrupt and ``render-safe'' explosive packages without initiating the 
explosives or destroying forensic evidence.
    Once Sandia has researched, developed, and tested a bomb-
disablement tool, it begins the process of transferring the technology 
to the first-responders community, putting the technology in the hands 
of the men and women who need it. Operation America sponsors include 
Sandia National Laboratories, the National Institute of Justice, and 
DOE.
Critical Infrastructure Protection
    National security and the quality of life in the United States 
depend on the continuous, reliable operation of a complex set of 
interdependent infrastructures consisting of electric power, oil and 
gas, transportation, water, communications, banking and finance, 
emergency services, law enforcement, government continuity, 
agriculture, health services, and others. Today, they are heavily 
dependent on one another and becoming more so. Disruptions in any one 
of them could jeopardize the continued operation of the entire 
infrastructure system. Many of these systems are known to be vulnerable 
to physical and cyber threats and to failures induced by system 
complexity.
    In the past, the nation's critical infrastructures operated fairly 
independently. Today, however, they are increasingly linked, automated, 
and interdependent. What previously would have been an isolated 
failure, today could cascade into a widespread, crippling, multi-
infrastructure disruption. As the documented cases of attacks on vital 
portions of the nation's infrastructure grow, there is a sense of 
urgency within industry and government to understand the 
vulnerabilities.
    The National Infrastructure Simulation and Analysis Center (NISAC), 
which would be transferred to the Department of Homeland Security under 
the Administration's bill, is a comprehensive capability to assess the 
nation's system of infrastructures and their interdependencies. NISAC's 
partners are Sandia National Laboratories and Los Alamos National 
Laboratory, both of which possess extensive supercomputer resources and 
software expertise. NISAC will provide reliable decision support 
analysis for policy makers, government leaders, and infrastructure 
operators. It will perform modeling, simulation, and analysis of the 
nation's infrastructures, with emphasis on the interdependencies.
    Sandia pioneered Probabilistic Risk Assessment (PRA) as a tool for 
evaluating the risks associated with high-consequence systems such as 
nuclear weapons and nuclear power generation plants. We apply this tool 
to risk assessments for critical infrastructures such as dams, water 
utilities, chemical plants, and power plants. Combined with our 
expertise in security systems for nuclear facilities, we have helped 
utilities and industrial associations create security assessment 
methodologies that can guide owners and operators through the 
assessment process to determine vulnerabilities and identify mitigation 
options. Methodologies have been developed for water utilities, 
chemical storage facilities, dams, power plants, and electrical power 
transmission systems.
Cyber Sciences
    Computer systems and networks are attractive targets of attack for 
high-tech criminals, foreign governments, and, increasingly, 
terrorists. Government, commerce, and the military increasingly rely on 
cyber networks in their operations. Computerized Supervisory Control 
And Data Acquisition (SCADA) systems often control the operations of 
critical infrastructure systems such as power utilities and 
distribution networks and municipal water supplies.
    Sandia conducts significant research in the technologies intended 
to protect cyber and network resources and the information that resides 
on such systems. Programs that assess the vulnerabilities associated 
with these systems are in place for our own resources as well as for 
those at other federal government agencies. Sandia operates a SCADA 
laboratory to study such cyber control systems and to determine 
effective protection strategies. We conduct red-teaming to challenge 
cyber and information systems and identify and remove vulnerabilities. 
Our objectives are to enhance the resistance of cyber systems and 
critical information systems to attack and to develop solutions for 
survivability and response options. Our understanding of the issues 
associated with computer and network vulnerabilities is enhanced by the 
microelectronic design and fabrication capability resident at Sandia as 
well as the state-of-the-art work performed as part of NNSA's Advanced 
Simulation and Computing (ASC) campaign.
Nuclear Incident Response
    The President's bill to establish a Department of Homeland Security 
defines a Nuclear Incident Response Team that includes entities of the 
Department of Energy and the Environmental Protection Agency that 
perform nuclear and/or radiological emergency support functions 
(Section 504).
    NNSA plays a vital support role in combating acts of nuclear 
terrorism through its Nuclear Emergency Support Team (NEST). NEST 
provides the FBI and other federal and state agencies with technical 
assistance in response to terrorist use or threat of use of a nuclear 
or radiological device in the United States. NEST also supports the 
Department of State in a similar role for incidents overseas. Another 
NNSA team, the Accident Response Group (ARG), has the different mission 
of providing technical support in response to accidents involving U.S. 
nuclear weapons while they are either in the custody of DOE or the 
military services. The ARG and NEST teams draw from the same pool of 
experts at the NNSA laboratories, all of whom are volunteers.
    NEST maintains a fast-response capability for a radiological 
emergency involving dispersal of radioactive debris--for example, from 
the detonation of a so-called ``dirty bomb'' or radiological dispersal 
device (RDD). NNSA's Radiological Assistance Program (RAP) provides 
initial responders who can be on the scene in a matter of hours. Their 
support role is to characterize the radiological environment, provide 
technical advice to the FBI, FEMA, and other emergency response 
agencies, and to assist with decontamination and material recovery. 
NNSA is in the process of enhancing the Radiological Assistance Program 
to perform radiological weapons detection and device characterization 
missions on a regional basis consistent with the FEMA response regions.
    The Joint Technical Operations Teams (JTOTs) are major operational 
elements of NEST that directly assist military units and crisis 
response operations. These teams are trained and equipped to support 
render-safe operations and advise on stabilization, packaging, and 
disposition procedures.
    In addition to the NEST and ARG capabilities, NNSA maintains 
Consequence Management Teams that are available to provide assistance 
to federal and state agencies that require radiological emergency 
assistance after a detonation has occurred. The teams are trained and 
equipped to support assessment, monitoring and sampling activities, 
laboratory analysis, and health and safety support to incident 
responders.
    Sandia National Laboratories contributes more than one hundred team 
members to the various elements of NEST, ARG, RAP, and Consequence 
Management. Sandia's role focuses largely on RAP incident response, 
device characterization, render-safe techniques, assessment and 
prediction of consequences from radiological incidents and accidents, 
and methods for containment of radiological materials. Sandia is the 
only NNSA laboratory that maintains the capability for containment of 
particulates that would be released in an RDD explosion.
    U.S./Russian Nuclear Security Programs
    Sandia supports a broad range of cooperative programs with Russia 
in nuclear security. These programs, funded by NNSA, DoD's Cooperative 
Threat Reduction program, and the Department of State, address the 
safety and security of nuclear weapons, the security of fissile 
materials, verification of fissile materials, and defense conversion.
    I want to make special note of the importance of the activities 
with Russia. The terrorist attacks last September have made us all 
acutely aware of the catastrophic potential of weapons of mass 
destruction should they end up in the wrong hands. The cooperative 
efforts to protect nuclear materials and maintain state control over 
nuclear capabilities and assets in Russia are important initiatives 
that must continue.
    We promote a vision called ``Global Nuclear Management'' that, if 
realized, would systematize the control of all nuclear materials in the 
world. However, the current state of protection for nuclear materials 
in Russia, while improved through the past efforts of this program, is 
an important indication of the potential for nuclear material 
proliferation. We must continue these efforts with Russia.
         ensuring access to the nnsa and doe laboratories for 
                       homeland security missions
    The national laboratories of the NNSA and DOE are widely regarded 
as the premier science and technology laboratories in the federal 
government. These institutions have a long history of excellence in 
research and development for nuclear weapons and other national 
security applications. They are uniquely able to deploy 
multidisciplinary teams on complex problems in a way that integrates 
science, engineering, and design with product realization. These labs 
already have the scientists and engineers in place to contribute to the 
counterterrorism program, and most of them already handle classified 
research projects, which will be a requirement in dealing with 
terrorism threats issues and responses.
    In a world where threats are increasingly insidious--with worrisome 
developments in chemical and biological weapons, cyber warfare, and 
proliferation of radiological and nuclear capabilities--it is important 
that the NNSA and DOE laboratories be major contributors in the 
national effort to address these threats. These national laboratories 
can provide enormous value to homeland security challenges. They are 
also the logical entities to perform technology evaluation on the many 
products and proposals that will inevitably be advocated to the 
Department of Homeland Security from countless vendors.
    I would recommend that the new Homeland Security Department operate 
initially with the nation's existing research and development centers. 
It is unlikely that a new ``stand-alone'' science and technology 
laboratory could be created from scratch in time to make significant 
contributions. The United States is at war, and we must be bring 
technology to bear as rapidly as possible. There is no luxury of time 
to organize, build, or bring a new laboratory into successful 
operation.
    The natural desire for a new agency to have organic laboratory 
assets that it ``owns'' can be addressed in the longer term. However, 
it makes eminent sense to begin with the assets that exist now at 
national laboratories and other appropriate research providers, then 
evolve over time to a future state where separate labs could be pulled 
out and designated as homeland security laboratories. Ultimately, it 
may prove desirable for existing elements of the national laboratories 
(at least those which demonstrate that they are particularly important 
for homeland security) to be spun-off into independent Federally Funded 
Research and Development Centers (FFRDCs) for homeland security.
    Any new FFRDCs that might be created at some future time should 
always have ``permeable membranes'' that allow sharing of expertise 
from other parts and programs of sister laboratories in the NNSA, DOE, 
or other research centers. Placing a bureaucratic wall around a 
homeland security laboratory would reduce rather than enhance its 
effectiveness.
    It has long been my opinion that the nation would be better served 
if the national laboratories that were created by acts of Congress 
could in fact become true national laboratories, with simplified 
procedures in place to allow their unique resources to be rapidly and 
efficiently applied to support any agency of the federal government 
with responsibility for important national missions. The current 
homeland security crisis easily qualifies as an appropriate case for 
this approach.
    Unfortunately, established bureaucratic structures and regulations 
that keep agencies at arm's length from one another will stand in the 
way of effective utilization of the NNSA or other DOE laboratories for 
homeland security unless legislative action is taken to remove the 
barriers. As a first step, it would be helpful to explicitly authorize 
NNSA to carry out research and development for homeland security by 
adding that activity to the NNSA's list of authorized activities at 
Title 42, Section 2121, of the United States Code. Similar action was 
taken by the 101st Congress when it added technology transfer to the 
NNSA's authorized activities with the Department of Energy National 
Competitiveness Technology Transfer Act of 1989.\2\
---------------------------------------------------------------------------
    \2\ Pub. L. 101-189, div. C, title XXXI, Sec. 3157, Nov. 29, 1989, 
103 Stat. 1684.
---------------------------------------------------------------------------
    Next, the Homeland Security Act should give the Department of 
Homeland Security the power to task the NNSA laboratories directly, 
just as the Science, Energy, Environmental, and other non-NNSA offices 
of DOE are able to do. Similarly, using the Joint Sponsorship 
provisions already within the Federal Acquisition Regulations would 
allow NNSA and the Homeland Security Department to embrace these 
missions and to jointly undertake research and development activities 
under mutual agreement. These authorities would eliminate the 
bureaucratic red tape and additional costs associated with the Work-
for-Others (WFO) process that could otherwise inhibit access and 
utilization of the laboratories by non-DOE sponsors.
 organizing the research and development function in the department of 
                           homeland security
    It will be important for the Homeland Security Department to have 
the authority to determine for itself how and where to make its 
research and development (R&D) investments to support its mission 
goals. There will be some laboratories and institutions that will lobby 
to be designated as homeland security laboratories or as centers of 
excellence for this or that homeland security mission area. The 
Department will need to look beyond labels to demonstrated capabilities 
and a track record of deliverables. Its R&D program should encourage a 
competition of ideas among many performers, including industrial firms, 
universities, and federal laboratories, and then fund the development 
of the best ideas based on considerations of technical merit and not on 
who the performer is.
    The Department of Homeland Security must adopt a two-track strategy 
for R&D that addresses both near-term and long-term needs. DHS must 
quickly demonstrate and deploy applied technology for threats that 
exist now. In the near term, the Department's R&D program must stress 
deployment of technologies for which a research base already exists. It 
will need to rely on laboratories that can work effectively with 
industry and perform Advanced Concepts Technology Demonstrations in an 
expedited fashion under programs managed at the Under Secretary level.
    DHS will also require a strategic research program to address 
longer-term issues. This program should commission research in areas 
that hold potential for breakthrough technologies of importance to 
homeland security. It may perhaps function like the Defense Advanced 
Research Projects Agency (DARPA) or be staffed as a small Federally 
Funded Research and Development Center (FFRDC) reporting to the Office 
of the Secretary, as recommended by the National Research Council 
report.\3\
---------------------------------------------------------------------------
    \3\ Making the Nation Safer: The Role of Science and Technology in 
Countering Terrorism, National Research Council, June 25, 2002, p 12-7.
---------------------------------------------------------------------------
    I believe it will also be important to establish some research 
programs that are funded at the mission level, not just at the task 
level, within key laboratories. Our experience is that laboratory staff 
become far more likely to produce important results in support of their 
missions when they can devote themselves in a streamlined and focused 
way with the most knowledgeable and most qualified individuals having 
the freedom to pursue new ideas, choose the best approaches, and act on 
new research results with a minimum of bureaucracy. What has made this 
model so successful in the past for both our military and other 
sponsors has been the way in which we have integrated new technologies 
by placing the emphasis on technology solutions. Whenever we have been 
given cradle-to-grave responsibility for bringing ``leap-frog science'' 
to bear in the shortest possible time, our technical staff have worked 
in close teamwork with the end users of the technology to assure that 
what is delivered to the field will be successful. This unique approach 
to marrying ``technology-push'' with ``requirements-pull'' is a 
hallmark of Sandia's R&D philosophy.
    Each Under Secretary of Homeland Security will have unique R&D 
requirements. Clearly, the Under Secretary for Chemical, Biological, 
Radiological, and Nuclear Countermeasures will need access to a 
substantially different set of R&D resources than the Under Secretary 
for Border and Transportation Security. But the needs for improved 
technology are widespread.
    We recommend that each Under Secretary create a laboratory network 
tailored for his or her missions by directly tasking existing 
institutions that possess the competencies required. We call this 
entity a ``virtual national laboratory,'' and it has already been tried 
and proven in the NNSA laboratory system and elsewhere as an effective 
model for multi-institutional programs involving research and 
technology development. Virtual national laboratories may be of 
permanent or limited duration and can be reconfigured as necessary for 
evolving requirements.
    To illustrate, the Under Secretary for Chemical, Biological, 
Radiologcial, and Nuclear Countermeasures may design one or more 
matrixed laboratory systems that include representation from the 
National Institutes of Health, some DOE/NNSA labs, leading research 
universities, and the pharmaceutical industry. The Under Secretary for 
Border and Transportation Security may design one or more matrixed 
laboratory systems for his or her needs that include representation 
from the Naval Research Laboratory and other DoD labs, DOE/NNSA, 
industry, and universities.
    Each of these ``virtual national laboratories'' would have a 
defined organizational structure with a laboratory director and program 
directors, although it would own no real property. The laboratory 
director would manage a Laboratory Liaison Council (LLC) with 
representation from the constituent institutions. The LLC would be the 
Under Secretary's vehicle for direct access to the national laboratory 
system. There would be no requirement to go through each institution's 
sponsoring federal agency in a ``work-for-others'' procurement process.
    A significant advantage of this concept is that it encourages 
competition of the right sort--competition of ideas (not direct 
competition of labs for money)--and cooperation on results, pulling 
together the right resources for a particular mission focus. It 
encourages rapid transition of the fruits of research into development 
and application and helps avoid the ``valley of death'' that often 
prevents promising research from moving from development to deployment.
    Specific recommendations to implement this concept in the DHS 
legislation are attached in the appendix to my statement.
                         summary and conclusion
    Sandia National Laboratories and the other NNSA and DOE 
laboratories constitute a broad, multidisciplinary technology base in 
nearly all the physical sciences and engineering disciplines. We are 
eager to leverage our capabilities to support the science and 
technology needs of the new Department of Homeland Security.
    Sandia possesses strong competencies in nuclear, chemical, and 
biological sensors and engineered systems suitable for transfer to 
industry and deployment in homeland security applications. We have been 
proactive in supporting our nation's first responders and addressing 
the challenges of infrastructure protection. We have a track record of 
anticipating emerging homeland security threats and investing in 
technology development to counter them through our Laboratory-Directed 
Research and Development (LDRD) program and sponsor-directed programs. 
We are the premier national laboratory for working with industry to 
transition technologies into deployable commercial applications.
    Bureaucratic and regulatory roadblocks exist that limit access to 
the DOE/NNSA national laboratories by other federal agencies, and those 
obstacles should be removed by the homeland security legislation in 
order to facilitate direct access to those resources. The Homeland 
Security Department needs the authority to manage a research and 
development program that encourages competition of ideas among many 
performers--including industrial firms, universities, and federal 
laboratories--and then fund the development of the best ideas based on 
technical merit and applicability to mission needs.
    On behalf of the dedicated and talented people who constitute 
Sandia National Laboratories, I want to emphasize our commitment to 
strengthening United States security and combating the threat to our 
homeland from terrorism and weapons of mass destruction. It is our 
highest goal to be a national laboratory that delivers technology 
solutions to the most challenging problems that threaten peace and 
freedom.
                                Appendix

    Recommendations for Structuring Research and Development in the 
                    Department of Homeland Security

  <bullet> Each Under Secretary should have authority for ``conducting 
        a national scientific research and development program to 
        support the missions of the Department'' for which he or she is 
        responsible, ``. . . including directing, funding, and 
        conducting research and development relating to the same'' (as 
        per Sec. 301 (2) of the President's bill).
  <bullet> In addition, each Under Secretary should appoint a Director 
        of Research and Development with authority to immediately 
        create networked laboratory systems (virtual national 
        laboratories) through cooperative arrangements with federal, 
        academic, and private research institutions. Appropriate 
        funding will be required.
  <bullet> Directors of Research and Development will be assisted by 
        Laboratory Liaison Councils with representation from the 
        institutions of the virtual national laboratory.
  <bullet> Directors of Research and Development should have authority 
        and appropriated funding to originate and award Cooperative R&D 
        Agreements (CRADAs) and other technology transfer mechanisms 
        between virtual national laboratories and industry on an 
        expedited basis.
  <bullet> DHS legislation should authorize all relevant federally 
        funded R&D institutions to accept direct tasking from the DHS 
        and should instruct ``landlord'' agencies to facilitate DHS 
        taskings of institutions under their sponsorship.
  <bullet> At least initially, DHS should rely on the established great 
        laboratories of the nation, rather than creating new ones for 
        its science and technology (S&T) program. There is insufficient 
        time to establish a ``green field'' laboratory that can make 
        contributions on the scale required in a timely manner.
  <bullet> Congress should add homeland security to the NNSA's list of 
        authorized activities at Title 42, Section 2121 of the United 
        States Code.
  <bullet> Thought must be given to ensuring that S&T activities are 
        not encumbered with bureaucratic processes that stifle the 
        imaginative and innovative work required if we are to be 
        successful. New processes will be required in some cases, 
        rather than importing existing ones from organizations brought 
        into the new department.
  <bullet> As recommended by the National Research Council,\4\ an 
        office of ``Under Secretary for Technology'' should be created, 
        reporting to the Secretary of Homeland Security. This office 
        will manage a strategic, peer-reviewed research program with 
        universities, national laboratories, and industry. Sustained 
        funding at the mission level will be required.
---------------------------------------------------------------------------
    \4\ Ibid., p. 12-6.
---------------------------------------------------------------------------
  <bullet> Also as recommended by the National Research Council,\5\ a 
        Homeland Security Institute should be established as a 
        Federally Funded Research and Development Center (FFRDC) under 
        the direction of the Under Secretary for Technology. This 
        entity should perform policy and systems analysis, help define 
        standards and metrics, and assist agencies with evaluating 
        technologies for deployment.
---------------------------------------------------------------------------
    \5\ Ibid., p. 12-7.

    The Chairman. Thank you very much.
    Dr. Cobb, go right ahead.

   STATEMENT OF DON COBB, Ph.D., ASSOCIATE DIRECTOR, THREAT 
           REDUCTION, LOS ALAMOS NATIONAL LABORATORY

    Dr. Cobb. Thank you, Mr. Chairman and distinguished members 
of the committee, for inviting me here today. It's a privilege 
for me to appear here with my colleagues from the other 
laboratories and to discuss an opportunity that I think is 
really historic, creating a new department to carry on a 
mission of protecting our homeland. It's also a special honor 
for me to represent not only Los Alamos, but also my boss, John 
Brown.
    I'm Don Cobb. I'm the Associate Director for Threat 
Reduction. My responsibilities include the science and 
technology programs we carry out at the laboratory that are 
primarily geared toward reducing threats associated with the 
proliferation of weapons of mass destruction--nuclear, 
chemical, and biological.
    Threat reduction at Los Alamos is one of the three major 
mission areas of the laboratory, and it's about one-fifth of 
the laboratory's work. I bring that up because it was based on 
several decades of research in these areas that we were able to 
respond to the call after 9/11 with our fellow laboratories.
    So I would maintain that the national labs, including Los 
Alamos, are already committed and contributing important 
research and technology products in the fields to protect our 
homeland. We're building on decades of experience countering 
the threats of weapons of mass destruction to do that.
    So it's important not to separate these missions so 
terribly apart that we lose in one area at the expense of the 
other. I think we need to look at a balanced approach that 
fosters homeland security, but, at the same time, we don't lose 
the work that we've been doing in proliferation and counter-
terrorism in the past.
    I believe that the national labs will and have to play an 
important role in reducing the danger of terrorism, because we 
have the multiple capabilities, and we also have the classified 
secure environment to handle the kinds of information that it's 
going to take to meet this challenge.
    Now, my written testimony has a lot of examples. I hope you 
will see from the written testimony that the people at Los 
Alamos, and I know at the other labs, are very dedicated to 
this new mission. I mean, we really care about it. Since 9/11, 
people want to engage, and we're eager to do more.
    I want to talk about a couple of the areas where we're 
involved, and it's not just Los Alamos, but it's areas where we 
contribute in working with universities and industry and the 
other labs. The first one I wanted to talk about, and I think 
Dr. Orbach talked about it in his testimony, Los Alamos and 
Livermore labs are charter members of the original effort to 
sequence the human genome. And recently we've embarked on an 
effort to sequence the DNA from pathogens that are believed to 
be of the greatest concern from a bioterrorism perspective. 
We're doing that with the Office of Science support, as well as 
from the NNSA. And the sequencing effort is really important in 
the fact that it provides the data that you're going to need in 
order to go to the field and get early warning against 
bioterrorism attack. So it's a combination of the biosciences 
and then the technology that goes to the field to provide early 
warning, which I think is the signal capability of the kinds of 
work that the labs bring. For example, this will be important 
in expanding the BASIS capability that was discussed--that was 
mentioned earlier.
    The second one is--I want to just say a few words about 
controlling and monitoring our borders for the passage of 
nuclear materials and in terms of packages and cargo and so on 
entering the country. This is an area where we have a great 
deal of capability yet to be brought to bear, and I believe 
it's one of the areas where before we can claim that we have 
done what is needed to do, we need to engage our collective 
capabilities at the labs and industry, because many of these 
technologies for radiation detection have already been 
commercialized, and we need to get these out into the field. So 
I wanted to mention that one as one that I think is 
particularly important.
    And then the last one, I won't say too much about, 
because--actually Ambassador Robinson mentioned, the joint Los 
Alamos, Sandia, NISAC work, but I would like to say that this 
is really based on 10 years of development of advanced modeling 
and simulation. The U.S. Government has invested $150 million 
at these two labs to put these capabilities together. It's time 
now to pull this together and apply this to critical 
infrastructure. And division--and the reality of NISAC is 
you'll be able to look at the operations with valid models of 
the operations of each element of our critical infrastructure 
and the interdependencies that they have amongst themselves, so 
we can look at vulnerabilities and then help guide decision 
makers on the investments that they'll be making in the future.
    So, with that, I would--I'll stop and am happy to answer 
questions.
    [The prepared statement of Dr. Cobb follows:]
   Prepared Statement of Don Cobb, Ph.D., Associate Director, Threat 
               Reduction, Los Alamos National Laboratory
    Thank you Mr. Chairman and distinguished members of the Senate 
Energy and Natural Resources Committee for inviting me here today to 
discuss the present and future roles of the Department of Energy/
National Nuclear Security Administration (DOE/NNSA) national 
laboratories in protecting our homeland security. I am Don Cobb, 
Associate Director for Threat Reduction at Los Alamos National 
Laboratory. At Los Alamos, I am responsible for all programs directed 
at reducing threats associated with weapons of mass destruction. I 
personally have more than 30 years experience working to reduce these 
threats.
    Los Alamos is operated by the University of California for the DOE/
NNSA and is one of three NNSA laboratories, along with Lawrence 
Livermore National Laboratory and Sandia National Laboratories, 
responsible for maintaining the nation's nuclear stockpile. In addition 
to our stockpile responsibilities, the three NNSA laboratories have 
been involved for decades in technology development and problem solving 
in the realm of arms control and nonproliferation. Through our work in 
these areas, Los Alamos has developed a skill and technology base that 
enabled us to respond immediately following the September 11 attacks, 
to calls for assistance in counter terrorism and homeland security. 
With the President's call for a new Department of Homeland Security, 
Los Alamos stands ready to focus its capabilities in support of this 
new department.
    Today, I would like to discuss with you the broad set of 
capabilities that Los Alamos brings to U.S. efforts to protect our 
homeland from future terrorist attacks. While my testimony is Los 
Alamos centric, progress in science and technology depends on 
collaboration among the national laboratories, government, industry and 
academia.
    Los Alamos National Laboratory firmly supports the creation of a 
Department of Homeland Security (DHS). Consolidation of federal 
homeland security agencies has the potential to protect the nation 
against terrorism.
    The President's proposal would give the Department four divisions: 
Information Analysis and Infrastructure Protection; Chemical, 
Biological, Radiological, and Nuclear Countermeasures; Border and 
Transportation Security; and Emergency Preparedness and Response. Each 
of these mission areas will require focused research and development 
(R&D). My statement will describe some of the key contributions Los 
Alamos and the other national laboratories can make to homeland 
security in each of these areas.
          engaging the science and technology (s&t) community
    ``The government will need mechanisms to engage the technical 
capabilities of the government and the nation's scientific, 
engineering, and medical communities in pursuit of homeland security 
goals,'' says a new National Academies report.\1\ Every division of the 
DHS will require research, development, testing, and evaluation (RDT&E) 
to solve the technical challenges it will face. At Los Alamos, we have 
asked the question, ``How can a newly formed DHS best engage with the 
S&T community, including the national laboratories, universities and 
industry?'' I believe that in order to succeed, DHS requires a single, 
focused S&T office that serves as the central R&D organization for the 
Department. As suggested by the House and Senate bills, this office 
could be placed under a separate Director of Science and Technology. 
The best and brightest human resources, including federal staff 
augmented by scientists and engineers assigned from national 
laboratories, industry and academia, must staff this S&T office. 
Boundaries with other organizations must be ``permeable,'' enabling 
people to move back and forth easily.
---------------------------------------------------------------------------
    \1\ National Research Council Committee on Science and Technology 
for Countering Terrorism, Making the Nation Safer: The Role of Science 
and Technology in Countering Terrorism (Washington, DC: National 
Academy Press, June 2002).
---------------------------------------------------------------------------
    The S&T office would be responsible for the planning and oversight 
of focused RDT&E, including both rapid technology acquisition and long-
term, high-risk, high-payoff research. Functional responsibilities for 
the agency would therefore include:

  <bullet> Threat and vulnerability assessment;
  <bullet> Identification of needs through interactions with other 
        agencies, and with state and local governments;
  <bullet> Strategic planning and prioritization for RDT&E investments;
  <bullet> Program planning, budgeting, funding and oversight;
  <bullet> Systems architectures;
  <bullet> Science and technology acquisition from universities, 
        industry and national laboratories;
  <bullet> Technology integration;
  <bullet> Evaluation of technologies and systems effectiveness; and
  <bullet> Close coordination with end-users during initial system 
        deployments.

    The office should be established quickly, in place and functioning 
concurrently with the establishment of the DHS--we want to maintain, 
and even accelerate, the momentum which has built since September 11. I 
now will describe some of the key contributions Los Alamos is making to 
homeland security.
           information analysis and infrastructure protection
    National Infrastructure Simulation and Analysis Center (NISAC). Los 
Alamos is partnering with Sandia National Laboratories to establish 
NISAC. NISAC is intended to provide improved technical planning, 
simulation, and decision support for the analysis of critical 
infrastructures, their interdependencies, and vulnerabilities for 
policy analysis and emergency planning. This technology is based on a 
decade long, $150M investment in basic research and software 
development, supported by the world's largest secure, scientific 
computing environment. NISAC will provide the type, scale, and 
comprehensive level of information that will enable the nation's senior 
leadership proactively to deny terrorist attack options against 
potentially high-value targets, instead of simply reacting to the 
latest threat scenarios. NISAC will provide essential analytic support 
for discovering and overcoming gaps in our homeland security.
    NISAC was created as part of the U.S.A. Patriot Act of 2001 (P.L. 
107-56). The President's proposal calls for the transfer of NISAC to 
the DHS. Because NISAC has responsibility across all infrastructure 
sectors, it is appropriate that NISAC should directly support the 
agency charged with cross-infrastructure responsibilities. NISAC is 
part of a broader portfolio of infrastructure modeling and simulation 
work at the two laboratories. This is significant. The technical and 
programmatic synergies that accrue to NISAC as a result of this 
association allow for immediate application of the R&D efforts to real 
problems today. From vulnerability assessments of actual 
infrastructures to ``what if'' simulations of biological event 
scenarios, NISAC is providing insights and information to senior 
decision makers now. As this capability matures, we will do more.
    National Transportation Modeling and Analysis Program (NATMAP). 
NATMAP, currently being developed for the Department of Transportation, 
builds on Los Alamos' transportation modeling technology developed over 
the past decade. NATMAP simulates individual carriers--trucks, trains, 
planes, and waterborne vessels--and the transportation infrastructures 
used by these carriers to simulate freight commodity shipments of the 
U.S. transportation network. It moves individual freight shipments from 
production areas, through intermodal transfer facilities and 
distribution centers, to points of consumption. The advantage of the 
NATMAP is that the nation's system can be represented at any level of 
detail--from trucks and goods moving among counties and within regions, 
to national multi-modal traffic flows including cross border trade with 
Mexico and Canada. This strength can be exploited for transportation 
policy, security and infrastructure investment purposes.
    Vulnerability/Threat Assessments: Nuclear Facilities. Over the last 
20 years, Los Alamos and Sandia have analyzed physical security and 
identified vulnerabilities at numerous nuclear facilities throughout 
DOE, DoD, and U.S. Nuclear Regulatory Commission (NRC) facilities. 
These facilities include nuclear reactors, plutonium-handling 
facilities, nuclear weapons storage facilities, commercial nuclear 
power plants, and spent nuclear fuel facilities. We routinely train 
external agencies on developing protection strategies for low-
probability/high-consequence scenarios, such as aircraft crash, 
sabotage, and fire. Fundamental to these activities are the unique 
facilities and capabilities that Los Alamos brings to these analyses. 
We are the only site where highly radioactive materials can be studied 
experimentally for their response to postulated threat scenarios. Such 
an understanding is essential for analyzing threats and their potential 
consequences.
    Threat Analysis and Warning. Following the September 11 attacks, we 
established a multidisciplinary team of analysts searching for evidence 
of terrorist activity. Such analysis requires the latest information 
management technologies, advanced computational methods, and automated 
pattern identification to search enormous amounts of electronic 
information. This tremendous task is complicated by the fact that the 
vast majority of data represents completely innocent activity. Under 
the new Department, a major effort will be needed to develop the tools 
that will provide the ability to accurately synthesize information from 
intelligence, law enforcement, and open sources. Using our experience 
in solving related problems over the years, for example in identifying 
activities indicating WMD proliferation, Los Alamos will continue to 
provide analytic capability in this area.
    Immigration and Naturalization Service: Entry/Exit System. The 
Immigration and Naturalization Service Data Management Improvement Act 
(DMIA) of 2000 (P.L 106-215) created a Task Force to evaluate how the 
flow of traffic at United States ports of entry can be improved while 
enhancing security and implementing systems for data collection and 
data sharing. The Task Force is advisory in nature, and as such, will 
develop recommendations regarding the development and deployment of an 
integrated, automated entry/exit system. A team of experts from Los 
Alamos is working with the Task Force to provide advice and objective 
recommendations regarding the design and development of the system.
    GENetic Imagery Exploitation (GENIE). Los Alamos has developed a 
sophisticated image analysis technology called GENIE to create high-
resolution maps. Current sensor platforms collect a flood of high-
quality imagery. Automatic feature extraction is key to enabling human 
analysts to keep up with the flow. Machine learning tools, such as the 
genetic algorithm-based GENIE, have been successfully used in military 
and intelligence applications of broad area search and object 
detection, evaluation of environmental disasters, space imaging, and 
diagnosis from medical imagery. GENIE has been quickly deployed on a 
wide range of processing systems across the nation, and was recently 
recognized with an R&D 100 award.
    Gigabit Computer Network Traffic Monitoring. Los Alamos has 
recently developed technology that can monitor computer network traffic 
at gigabit/gigabyte rates, which could be applied to the problem of 
terrorist activity detection. By being able to scan network traffic at 
gigabit rates, both for trends as well as between specific sources and 
destinations, our tools can be used to provide indicators or early 
warning of suspicious communications. While many of these traffic 
analysis techniques are well known, they have been limited until now by 
the inability to collect and process data at gigabit rates.
    Geographic Information Systems (GIS). Los Alamos has high-end 
computer systems capable of assembling, storing, manipulating, and 
displaying geographically referenced information. Our GIS make it 
possible to link, or integrate, information that is difficult to 
associate through any other means. For example, a GIS might allow 
emergency planners to easily calculate emergency response times in the 
event of a disaster; we can predict water quality, air quality, 
contaminant transport, wildfires and other natural hazards based on 
defined threat scenarios. A critical component of Los Alamos' GIS is 
our 3D modeling and visualization capability. We can produce wall maps 
and other graphics, allowing the viewer to visualize and thereby 
understand the results of analyses or simulations of potential events.
    chemical, biological, radiological, and nuclear countermeasures
    The response to chemical, biological, radiological and nuclear 
threats necessarily take very different approaches. The dual-use nature 
of chemical and biological materials makes them easily accessible. For 
instance, feritlizer can be used to help plants grow, but the same 
chemicals can also be used in the construction of a bomb. In addition, 
hazardous microorganisms can be grown from very small starting samples. 
Given the prevalence of these materials, the primary focus in 
countering chemical and biological threats is on early detection of 
attack, early warning to authorities and first responders, and rapid 
characterization of the agent to guide response. Radiological and 
nuclear materials, on the other hand, have a much longer history of 
being regulated and safeguarded at their source. Consequently, the best 
way to respond to this variety of threat is to prevent terrorists from 
ever acquiring the necessary materials, protecting them at their 
source. Thus, we have an opportunity for a layered protection strategy 
to counter nuclear terrorism.
Chemical and Biological Countermeasures
    Los Alamos has a long history of working in the biological 
sciences, born out of initial work done on the effects of radiation on 
humans. Over the years, this has developed into a significant 
expertise, including leadership in the international Human Genome 
Project and the development of now widely used biomedical technologies, 
based on our expertise in lasers and isotope chemistry. For example, 
Los Alamos created the field of flow cytometry, which allows 
researchers to flow objects past a laser that can rapidly answer 
questions about individual cells or molecules, like DNA. Thanks to this 
strong foundation in the biosciences, Los Alamos was able to make 
contributions during the recent anthrax attacks, as well as in the 
broader area of biothreat reduction, primarily through our work for 
NNSA's Chemical and Biological National Security Program (CBNP).
Field Detection and Early Identification of Pathogens
    The Biological Aerosol Sentry and Information System (BASIS), a 
joint Los Alamos-Livermore project, provides early warning of airborne 
biological weapons attacks for special events such as the Olympics. 
Planned for use in civilian settings, BASIS can detect a biological 
attack within a few hours, early enough to treat exposed victims and 
limit casualties significantly. It was deployed at the 2002 Winter 
Olympics in Salt Lake City. The BASIS system incorporates distributed 
sampling units (sensors), a re-locatable field laboratory, and an 
operations center that employs a secure web-based communications 
system.
    Advanced BASIS technology is currently being integrated into the 
Biosurveillance Defense Initiative. The Initiative, which is sponsored 
by the Defense Threat Reduction Agency of the Department of Defense and 
the NNSA, is a joint Los Alamos, Livermore, and Sandia program. The 
tri-lab effort will establish an urban test bed for biosurveillance in 
a U.S. metropolitan area this fall. Technologies developed by the three 
NNSA laboratories for early detection of biological incidents, as well 
as Department of Defense systems, will be included in the test bed.
Pathogen Characterization for Forensics, Attribution and Response
    Once an attack has occurred, it is up to the biological science and 
medical communities to respond to the aftermath. These communities, Los 
Alamos included, responded to the challenge posed by the fall 2001 
anthrax attacks. Los Alamos assisted the federal response to the 
attacks from the beginning, providing DNA forensics expertise to the 
investigation, determining what strain of anthrax was used, as well as 
other characteristics important for response (e.g., antibiotic 
resistance or genetic manipulation).
    Los Alamos was able to respond to the attacks as we did because we 
have been working for the past ten years on analyzing the DNA of 
anthrax and building a comprehensive database of strains from around 
the world. Beyond just anthrax, the Laboratory is working on a variety 
of pathogen strain analysis approaches for detection, characterization 
and attribution of threat pathogens. This work, along with that of our 
colleagues at Livermore and Northern Arizona University, has provided 
the assays being used in BASIS. Sophisticated analysis capability 
resides at Los Alamos for more comprehensive pathogen characterization 
and, importantly, for the identification of unknown microbes.
    Los Alamos works with a broad range of characterization and 
identification technologies. For instance, Los Alamos has established a 
DNA fingerprinting method for rapidly identifying the ``genetic 
barcode'' for each threat agent species. We have established an archive 
of such ``barcodes'' so that, when we conduct an analysis on a new 
sample, we can rapidly compare its signature to all those in the 
database. Additionally, if a threat pathogen is known, Los Alamos can 
use our DNA analysis methods to detect a broad range of agent 
properties that are important for understanding the attack and guiding 
prophylaxis and treatment; including evidence of genetic manipulation 
and antibiotic resistance. We can also differentiate strains of the 
known threat agents and can, for some species, determine their original 
geographic origin.
    Biological Demonstration and Application Program. The forensic 
technologies described above, as well as routine analytical techniques, 
are being evaluated and standardized in the Biological Demonstration 
and Application Program (BDAP). BDAP is a collaborative NNSA-sponsored 
effort between Los Alamos, Livermore and the Northern Arizona 
University. The BDAP will facilitate rapid transition of NNSA-developed 
forensic technology into use by the public health, law enforcement and 
intelligence communities.
    Biological Toxin Detection. We have developed a prototype of a 
simple, compact sensor system for detection of biological toxins, 
viruses, and bacteria. The prototype has been sent to a customer for 
use and evaluation. Our initial efforts have been focused on the 
development of a single-channel, hand-held, battery operated instrument 
for detection of cholera and ricin toxins within environmental samples. 
This sensor approach offers high sensitivity and specificity, 
simplicity of use, and rapid response time (5-10 minutes).
    Chemical Detection. Los Alamos has also developed sensors for 
detecting chemical threats. For instance, the Swept Frequency Acoustic 
Interferometer (SFAI) can be used to determine the composition of 
suspected chemical weapons without opening up the weapon or disturbing 
it. These devices are hand-carried and have been tested extensively. 
The technology is so sensitive that it can easily distinguish between 
the contents of cans of Coke<Register> and Diet Coke<Register>. 
Research is also moving forward employing fuel cell technology for 
development of an inexpensive, small and highly sensitive chemical 
agent vapor detector.
Nuclear and Radiological Countermeasures
    As described earlier, the radiological and nuclear threat must be 
dealt with in marked contrast to how the chemical and biological threat 
is managed. For example, if you wait to detect the use of a 
radiological or nuclear device, in most cases, it's too late. Instead, 
what is critical in this area is making every effort possible to secure 
materials at their source and ensure that terrorists cannot access 
them.
Securing Materials at Their Source
    The DOE/NNSA Materials Protection, Control and Accounting (MPC&A) 
program is the first line of defense against nuclear terrorism. With 
the dissolution of the Soviet Union, NNSA/DOE estimates that Russia 
inherited approximately 850 tons of highly enriched uranium (HEU) and 
plutonium. Considering the International Atomic Energy Agency 
definition of significant quantities, this is enough material to make 
more than 50,000 nuclear explosive devices. MPC&A security upgrades are 
complete for about 1/3 of the fissile material identified as being at 
risk of theft or diversion in Russia. Rapid progress is being made to 
increase the security of the remaining materials, but completing the 
effort will take several more years of intensive work.
    Whereas in the past nonproliferation efforts were focused on 
weapons-usable materials, today there is a recognition that other 
radiological materials (used for industrial, medical and research 
purposes) pose a threat in the form of radiological dispersal devices 
(RDDs), or ``dirty bombs.'' Los Alamos is actively working with DOE/
NNSA and counterparts in Russia to develop strategies to secure 
radiological sources that pose a threat in the form of a dirty bomb.
    Thousands of radiological sources are used in the U.S. for 
research, medical and industrial applications. The Nuclear Regulatory 
Commission plans to strengthen control of the sources it licenses for 
these uses. The DOE and its predecessor agencies originally produced 
radiological sources for a variety of defense and civilian 
applications. These so-called ``orphan sources'' are being recovered by 
Los Alamos and repackaged as transuranic waste. More than 3,000 sources 
have been recovered to date. The pace of this recovery effort will 
likely increase to cover the more than 5,000 sources remaining.
Second Line of Defense
    The Second Line of Defense (SLD) program has the mission to detect 
and recover any nuclear material that may slip through the first line 
of defense described above. The program works to strengthen Russia's 
overall capability to prevent the illegal transfer of nuclear 
materials, equipment, and technology to would-be proliferators. The 
immediate goal of the program is to equip Russia's most vulnerable 
border sites with nuclear detection equipment. A future goal is to 
establish a sustainable counter-nuclear smuggling capability in Russia. 
SLD provides training programs for front-line inspectors, and purchases 
detection equipment that can ``sniff'' out nuclear materials.
Protecting U.S. Borders, Bases and Cities
    This area, in effect the third line of defense, strives to detect 
radiological or nuclear materials at U.S. ports of entry. For several 
federal agencies, including the U.S. Coast Guard and the U.S. Customs 
Service, we are providing information on handheld radiation detectors 
and isotope identifiers. We are providing advice on what instruments to 
buy, and instructing operators in their use. Los Alamos is actively 
involved in a maritime surveillance study that analyzes potential 
vulnerabilities of commercial shipping.
    Los Alamos is also playing a role in helping to protect U.S. 
military bases. One example of this is a joint NNSA and Defense Threat 
Reduction Agency effort. Its goal is to improve the Department of 
Defense's ability to detect, identify, respond, and prevent 
unconventional nuclear attacks by national, sub-national, or terrorist 
entities. The project combines technology and resources from both 
agencies to develop, deploy, test and demonstrate nuclear protection 
systems and networks at four different U.S. military installations. 
This effort is currently underway and involves Los Alamos and several 
other NNSA and DOE laboratories. If successful, the systems will be 
applicable to civilian urban areas.
Radiation Sensors and Detection Systems
    Handheld Search Instruments. Handheld instruments are those that a 
police officer, customs inspector, or similar official can use to 
search for radioactive material on a person or in a suspicious package. 
They can identify the isotope emitting the radiation--an enhancement 
that allows a user to distinguish between benign radiation emitters 
such as radiopharmaceuticals or smoke alarms, and the weapons-usable 
material that we want to interdict. Los Alamos has developed a new 
handheld instrument with a Palm interface that enables users to 
distinguish between radiation sources within seconds. The Palm unit can 
provide data about the nature of the nuclear source at hand and the 
isotopes present. Los Alamos is exploring commercial licensing and 
production for this handheld search instrument. Earlier versions, the 
so-called GN (gamma-neutron) series of handheld instruments have 
already been commercialized.
    Package Monitor. The Laboratory has developed systems to detect 
nuclear materials, particularly hard-to-detect ones such as uranium-
235, which might be missed by regular search instruments. An example of 
this is a newly developed package monitor that detects nuclear material 
in parcels via neutron interrogation. A prototype of the package 
monitor is currently being field-tested at a U.S. Customs facility.
    Portal Monitors. Portal monitors are specialized radiation sensors 
in physical packages that are optimized for detecting radiation from 
nuclear materials as a pedestrian or vehicle passes through a choke 
point. Los Alamos is the DOE repository of portal-monitoring expertise 
and has helped developed the technical standards for portal monitor 
performance. LANL has placed portal monitors around the world in 
support of the nuclear Second Line of Defense program as well as 
domestic and international safeguards programs. Currently, LANL is 
involved in the technical evaluation of portal monitors from all U.S. 
vendors against the technical standards.
    Active Interrogation of Cargo Containers. Los Alamos is working 
with Idaho National Engineering and Environmental Laboratory and 
commercial partner ARACOR to develop and test a system that actively 
interrogates large cargo containers (air, sea, rail, and road) to 
determine if there is any nuclear material present. The system, a large 
U-shaped structure with a linear accelerator on one side and x-ray 
detectors on the other, can be driven over a cargo container to produce 
an x-ray image. The image shows neutron emissions, which are a 
signature of nuclear material.
    Long-Range Alpha Detector. The LRAD is potentially valuable for 
sampling volumes of air or extensive surfaces where an alpha emitter 
may have been dispersed, and thus might be used in response to 
radiation-dispersal attacks. LRADs have been used for environmental 
monitoring at places where dispersed uranium is a problem. An LRAD 
implementation for radon monitoring has been commercialized by Eberline 
and could be rapidly adapted to the contamination-monitoring role.
                  emergency preparedness and response
    Los Alamos plays an important role within the area of nuclear 
emergency response. The largest and the most well-known team in this 
area is the DOE-managed NEST team. NEST was created in 1975 in response 
to concerns over nuclear terrorism activity. Its effectiveness is due 
to well-established interagency relationships including significant 
Department of Defense and FBI collaboration. NEST is focused on 
responding to a threatened act involving radiological or nuclear 
materials or devices. Among the range of potential terrorist threats 
involving weapons of mass destruction, the nuclear response 
infrastructure and capabilities are the most mature and capable of 
addressing the threat. NEST includes the capabilities to search for, 
diagnose, and disable an improvised nuclear device.
    NEST depends on a team of highly dedicated individuals at the 
national laboratories and facilities throughout the DOE-complex who 
volunteer their expertise to this program. Los Alamos' NEST and related 
activities are funded at approximately $10 million in fiscal year 2002. 
More than 100 Los Alamos scientists and engineers are involved in 
various aspects of the NEST program. Nearly all are involved in other 
parts of the Laboratory's research in nuclear weapons or threat 
reduction. Many of the employees who work part-time on NEST are 
involved with more than one team within the NEST program.
    It is important to note that NEST is more than a group of 
scientists who stand at the ready with pagers on their belts, waiting 
to be contacted to respond to a crisis. NEST team members at the DOE 
and NNSA laboratories, including Los Alamos, are involved in a wide 
range of related activities including research and development into 
diagnostic tools, disablement techniques, and computer simulations and 
modeling; working with the intelligence and law enforcement communities 
on the analysis of threats and the development of analytical tools; 
training of employees from other government agencies in environments 
that allow hands-on work with the actual nuclear materials that they 
might encounter in the field; and providing subject-matter experts when 
required. Los Alamos has the lead within NEST for development of 
nuclear diagnostic tools to help determine the nature of the suspected 
threat device and for maintenance of what is called the ``home team,'' 
a group of experts parallel to those that would be deployed in the 
field who can provide analysis, advice and technical support.
    Los Alamos is involved to varying degrees in all aspects of the 
national NEST program. The activities of the national team, and Los 
Alamos' role, are as follows.
    Search Activities. Los Alamos is primarily involved in research and 
evaluation of detectors used for search.
    Joint Tactical Operations Team (JTOT). JTOT is a partnering of DOE 
and DoD expertise that provides advice or direct assistance to render 
safe a suspect malevolent employment of a nuclear device by terrorists 
or others and to perform a nuclear safety assessment for the eventual 
safe disposition of the device. Los Alamos plays a major role in the 
JTOT mission and is involved in maintaining management oversight, 
render-safe capability, diagnostics capability, emergency response 
home-team capability, a watchbill (a group of experts who are on call 
24 hours-a-day, seven days-a-week, year-round), communications support 
and deployable equipment, and contingency planning.
    Real Time Radiography. This system uses a portable source of x-rays 
to look at a suspect object in real time, without moving or disturbing 
the object. Using this technique, we can identify electronic components 
within the object, yielding important data for action decisions. Just 
as a dentist uses an x-ray to locate a cavity, we can use this system 
to locate where to drill a suspect object, disrupting its electronics 
and disabling other components. This system was adapted from 
commercially available equipment and enhances what is available to most 
emergency responder units.
    Accident Response Group (ARG). ARG is responsible for dealing with 
incidents involving a U.S. weapon, commonly referred to as a ``Broken 
Arrow.'' Los Alamos has experts on the ARG roster that may be called 
upon if their particular set of knowledge is necessary to deal with the 
given situation.
    Disposition. These assets support both the JTOT and the ARG team, 
making decisions about the ultimate disassembly and disposition of a 
device after it has been made safe to move and ship to a remote 
location.
    Consequence Management. Following an incident, this team is 
involved in the immediate monitoring of any potential radiological 
dispersal and in monitoring and forecasting that can advise responders 
on issues of evacuation and treatment.
    Attribution. This area involves drawing upon capabilities from the 
U.S. weapons testing program to analyze samples and draw forensic 
inferences about a threat device. In the case of a nuclear detonation 
or seizure of a weapon (or precursor material) it will be necessary to 
attribute quickly and accurately the material/item/incident to the 
perpetrators through an understanding of the materials used, type of 
device, yield produced or anticipated, the source of the technology and 
the pathway(s) that lead to the event. This requires an integrated 
national security program that draws on the broad based technical 
expertise available in NNSA as well as key NNSA facilities and 
analytical capabilities.
    Radiological Assistance Program (RAP). Related to but separate from 
NEST, DOE and Los Alamos maintain response plans and resources to 
provide radiological assistance to other federal agencies; state local, 
and tribal governments; and private groups requesting such assistance 
in the event of a real or potential radiological emergency. The Los 
Alamos RAP organization provides trained personnel and equipment to 
evaluate, assess, advise, and assist in the mitigation of actual or 
perceived radiological hazards or risks to workers, the public, and the 
environment. This Los Alamos capability supports associated activities 
throughout RAP Region Four: Kansas, Oklahoma, Texas, Arizona, and New 
Mexico.
                               conclusion
    Los Alamos is a national laboratory with a broad set of 
capabilities in the area of homeland security and a long history of 
serving the nation in this area. As President Bush stated in his June 
6, 2002, address to the nation, ``In the war against terrorism, 
America's vast science and technology base provides us with a key 
advantage.'' Our capabilities will continue to be at the service of the 
nation.

    The Chairman. Thank you very much.
    Dr. Shipp.

 STATEMENT OF BILLY D. SHIPP, Ph.D., PRESIDENT AND LABORATORY 
    DIRECTOR, IDAHO NATIONAL ENGINEERING AND ENVIRONMENTAL 
                           LABORATORY

    Dr. Shipp. Thank you, Mr. Chairman, distinguished members 
of the committee. Thank you very much for the opportunity to be 
able to address you today on this very important item.
    Before I go on, Mr. Chairman, I'd like to acknowledge and 
thank you and the committee for your longstanding support for 
the national laboratories and recognize the senior Senator from 
Idaho, Mr. Larry Craig, for his longstanding support, as well.
    I'd like to take just a slightly different approach, and 
back up and look at what I consider as the three overarching 
roles for the national laboratory system and the national 
laboratories individually, as well. And those being to 
innovate; the second is to integrate; and the third is to 
evaluate.
    Let me deal first with innovation, because that's certainly 
the hallmark of the national laboratory system. We've heard Dr. 
Orbach and a number of the colleagues across the table already 
speak to the many accomplishments that their laboratories and 
the laboratory systems have created. If you want to look at a 
quantitative kind of approach to that, all we have to do is 
look at the recent DOE's Energy 100 list, the annual R&D 100 
list, MIT's technology review 100 list, and you'll find that 
those are populated--perhaps dominated, but certainly populated 
substantially with scientists and scientific contributions from 
the national laboratory systems. This powerhouse of innovation 
is now being brought to bear on our national security and 
homeland-security issues, as well, here.
    Now, I'd like to just recognize what's happened over our 
history of 50 years. Senator Domenici talked about the 
evolution from the AEC to ERDA to DOE. A number of us have 
lived through that, Senator, as well. But recognizing, during 
that time, the national laboratories have evolved to meet the 
needs of the public, to meet the needs of the United States. 
And certainly that's what the case is today. The needs of the 
public and the country has evolved to the point that bringing 
to bear the innovation capabilities of the national 
laboratories is very appropriate.
    Back in mid-November of this past year, the DOE 
laboratories showcased a number of their innovations to the 
Homeland Security Director Tom Ridge in D.C. And, of course, 
the INEL was among those. And I certainly won't list all of the 
things that we have talked about, but I would like to highlight 
just a couple of them. One of them was what we call PINS, 
Portable Isotopic Neutron Spectroscopy system. It's a field-
deployable system that allows you to determine the contents of 
unmarked containers. Even chemical weapons can be identified in 
this manner.
    A second is the weapons-detection system. It's developed 
for the National Institute of Justice. The technology can be 
built into doorways and frames and so forth to identify weapons 
on individuals and can actually project those onto a security 
agent's monitor and tell, not only what it is, but where it is 
on the person.
    And, finally, as an example, the highly enriched uranium 
system that we've been working with colleagues from Los Alamos 
National Laboratory, to look at highly enriched uranium that 
could be contained in cargo containers, a very difficult 
technical task itself.
    The second key role that's inherent to the national 
laboratories is integration. And in homeland security, 
integration becomes very, very important. And this really deals 
with the issue of bringing the best and brightest to bear on 
the most difficult and intractable problems that we have. And 
integration, in effect, does just that. It means leveraging the 
physical and human assets from the locations, wherever they may 
be. And I can just echo what my colleagues have said, and the 
panel previous to us, as well, as a number of the committee 
members have acknowledged--to be able to integrate, you've got 
to be able to draw up on all of the assets, whether they be in 
the universities, whether they be in the national laboratories, 
and certainly across our whole system to be able to effect 
solutions to those very intractable problems. The DOE 
laboratories and the NNSA laboratories all have relationships 
with the universities, private industry, and so forth. They can 
facilitate that. It's a routine part of our business.
    Finally, I'd like to deal with the issue of evaluation, 
because the DOE laboratories and national laboratories have 
unique systems out there, and we have the ability to deal with 
the complexity of issues that private industry simply cannot 
do.
    And if I can turn just a bit parochial for a moment with 
the Idaho National Engineering and Environmental Laboratory, we 
are the largest continuous geographic laboratory, occupying 
some 890 square miles, about 85 percent of the size of the 
State of Rhode Island. We have a completely secure and 
isolatable power and communications systems. We have many other 
considerations, acknowledging what Mr. Craig--Senator Craig 
said earlier about the--our view that it would be a wonderful 
choice as--for a critical infrastructure test range that we've 
been working with Sandia and the Pacific Northwest Laboratory 
on, as well. With our existing infracture as a secure, remote 
location and the workforce that we have, we believe it would be 
a natural candidate for a center of excellence in the proposed 
Homeland Security Department.
    In conclusion, Mr. Chairman, it is my belief that DOE's and 
NNSA national laboratories have and certainly will continue to 
provide the kind of support to this country that we have in the 
past in securing both our security--our energy security as well 
as our national security. And, as one of the laboratory 
directors, I can assure you that we will bring those to bear, 
and we'll bring them to bear in a seamless kind of 
organization. And, as you consider the new legislation, I hope 
you will continue as you have to consider the role of the 
national laboratories and the direct accountability and the 
direct access from this new department into them.
    Thank you very much.
    [The prepared statement of Dr. Shipp follows:]
 Prepared Statement of Billy D. Shipp, Ph.D., President and Laboratory 
   Director, Idaho National Engineering and Environmental Laboratory
    Mr. Chairman and distinguished members of the committee, good 
afternoon and thank you for giving me the opportunity to speak with you 
on a subject of such great importance to our nation--the present and 
future roles of U.S. Department of Energy and NNSA (National Nuclear 
Security Administration) national laboratories in protecting homeland 
security.
    As the director of the Idaho National Engineering and Environmental 
Laboratory, the former associate director of Pacific Northwest National 
Laboratory and as the state of Idaho's Science Advisor, I've committed 
most of my adult life to the advancement of science and feel personally 
responsible for helping chart a prudent course into a safer, more 
technologically assured future.
    As I seek to fulfill that responsibility, I thank you, Mr. 
Chairman, for the support we receive from this committee and Idaho's 
senior senator, Larry Craig.
    Before I get into the core of my remarks today, I would like to add 
my voice to the chorus of those who champion the overall Department of 
Energy National Lab System. Whether focusing on national security, 
energy security, environmental quality or the basic science that 
underpins life itself, the national labs are a national treasure of 
nearly incalculable value. The lab system is home to a critical mass of 
unique facilities and unparalleled human resources that is the envy of 
the world, and must be preserved and strengthened. The investment this 
nation has made in its lab system must be leveraged now, as never 
before, to both maximize return on taxpayers' hard-earned dollars and 
to improve the safety and quality of all of our lives.
    That said, let me now share my view on the roles of the DOE's and 
NNSA's national labs in the specific area of protecting homeland 
security. From where I sit, I see three overarching roles that our labs 
are uniquely suited to fulfill. The first is to INNOVATE. The second is 
to INTEGRATE. And the third is to EVALUATE.
                                innovate
    The national lab system is a powerhouse of innovation, as has been 
proven over many years and verified by a multitude of external 
entities. The Energy 100 list compiled last year by the Department of 
Energy and judged by an outside panel of experts offers an excellent 
example of the breadth of innovation resident in the DOE system of 
labs. From energy-efficient electronic ballasts for fluorescent 
lighting to development of advanced cancer radiotherapy treatment 
systems, the contributions of the labs have been life-enhancing and 
expansive. The annual Research and Development 100 competition that 
seeks to identify the world's 100 most significant technological 
developments of the year is routinely populated with the work of DOE/
NNSA and INEEL scientists. And MIT's Technology Review 100--assessing 
our nation's best and brightest young scientists under age 35--this 
year acknowledged more DOE lab scientists, including one from the 
INEEL.
    And this innovative powerhouse that is the national lab system has 
focused on the new national challenge of enhancing homeland security. 
In mid-November of last year, the DOE labs showcased their national 
security tool chests for Homeland Security Director Tom Ridge . . . and 
many of you.
    My lab, the INEEL, was among the research centers displaying wares 
at the event. We showcased our Portable Isotopic Neutron Spectroscopy 
system. PINS is a mobile, readily field-deployable system for the 
identification of the contents of unmarked or unknown objects. In fact, 
PINS was used extensively here in Spring Valley, when abandoned and 
buried World War I-era chemical weapons were discovered in suburban 
yards. The U.S. Army has integrated PINS with other technologies into a 
complete system to identify or verify the contents of chemical weapons 
that are being prepared for destruction. The system also has been used 
numerous times throughout the United States to identify the contents of 
unknown objects uncovered at construction or demolition sites or at 
industrial plants. The Army has ably demonstrated its use for homeland 
security.
    Though not showcased last November, the INEEL's labs have developed 
and continue to develop a wealth of other homeland security-enhancing 
technologies. Notable among these is a weapons detection system--
developed with the support of the National Institute of Justice--that 
can be built into existing doorways, can find and measure weapons on a 
person and then display the locations of those weapons on a security 
guard's TV screen. The technology has already been licensed to the 
private sector, creating jobs and getting an important technology out 
into the field. But more importantly, our concealed weapons detector 
offers greater protection for children and adults wherever it is 
installed--schools, courthouses or public buildings.
    Another significant technology addressing a national issue is our 
unique solution to detect smuggled weapons-grade uranium buried in 
cargo containers. Our scientists--working with researchers at Los 
Alamos--have proven that electron accelerators cannot only identify 
small amounts of special nuclear material, they can differentiate 
between HEU (Highly Enriched Uranium) and legally shipped medical or 
commercial isotopes.
                               integrate
    A key role and inherent capability of the national lab system is 
INTEGRATION. In homeland security, rapid progress depends on putting 
our best and brightest to work in a collaborative environment . . . to 
encourage synergy and avoid redundancy.
    Integration means leveraging physical and human assets in multiple 
locations and from the public and private sectors. The DOE labs have 
strong pre-existing relationships with non-DOE federal and private-
sector organizations and universities.
    At the INEEL, we are co-managed by the Inland Northwest Research 
Alliance--a consortium of eight universities stretching from Alaska to 
Utah--with significant capabilities in homeland security-enhancing 
research. Specific centers or specialties include Utah State's Center 
for Microbe Detection and Physiology, University of Idaho's Center for 
Secure and Dependable Software and Idaho State University's Idaho 
Accelerator Center.
    We are collaborating with Sandia National Laboratories on SCADA 
(supervisory control and data acquisition) systems research and 
testing, using INEEL's secure and isolatable power generation and 
delivery systems.
    We do integration work for not only DOE but also other agencies, 
such as command and control systems for the Air Force and munitions 
assessment systems for the Army. The AN/TSQ-209 Communication Central 
was designed and deployed by the INEEL to automate requests for air 
support. It incorporated defense-wide communication software developed 
by Lockheed Martin. We are analyzing its considerable potential for 
emergency response communications.
                                evaluate
    Finally, DOE labs have unique facilities needed to put promising 
homeland security-enhancing technologies to the test. The private 
sector simply doesn't have anything in scale and capability close to 
what the DOE labs offer the nation.
    At the INEEL, we excel in this area of evaluation. That's why the 
Navy depends on us so heavily to support its nuclear propulsion 
program. It is why the Air Force has come to us for everything from the 
nuclear-powered airplane in the 1950's to precision measuring systems 
today.
    We, at the INEEL, offer the largest continuous geographic area of 
any of the national labs. We have completely secure and isolatable 
power and communications systems, and many other considerations that 
make us the nation's top choice for a CRITICAL INFRASTRUCTURE TEST 
RANGE.
    As new protective technologies are developed, we must conduct an 
extensive independent test and evaluation process to validate the 
capabilities and, ultimately, to define standards by which 
infrastructure protection technologies are certified. Computer modeling 
and simulation alone are not enough. The interdependencies of complex 
systems must be tested and validated on a scalable basis from bench-top 
to full-scale real-world conditions.
    The INEEL proved this concept in the nuclear industry when we 
conducted the Loss of Fluid Test and the Semi-Scale programs that 
helped define nuclear safety codes. The Critical Infrastructure Test 
Range will complement efforts to model equipment, systems, and 
interdependencies with numerical simulations.
    Critical infrastructure ``consequence management'' is as 
significant a homeland security tool as any sensor or detector. Much 
effort is being placed on the development of mitigating actions to 
protect our people from attacks involving chemical, biological, or 
nuclear weapons. I would suggest it is imperative that we have a 
`consequences control' program to mitigate the impacts of these kinds 
of attacks on our critical infrastructures. The INEEL is addressing 
this issue within its Test Range program.
    With its existing complex infrastructure, secure and remote 
location, and experienced work force, the INEEL Critical Infrastructure 
Test Range is a key element of the nation's homeland security and a 
natural candidate for consideration as a Center of Excellence for the 
proposed Homeland Security Department.
                               conclusion
    Today, we are major contributors, but even more so tomorrow, DOE's 
and NNSA's national labs will play essential roles in enhancing 
homeland security. Combating those who harbor ill will toward the 
United States will require constant vigilance and considerable 
investment. Our foes are, right now, seeking new technologies and 
avenues to assault us. We must press on in our efforts to stay ahead of 
them. As laboratory director of the INEEL, I assure you that my 
facility is on the job today, as it has been for over a half-century . 
. . and we're up to the challenges of tomorrow. We will innovate, 
integrate and evaluate technology-based solutions that will advance our 
common national interest in enhanced homeland security.
    As you respond to the call to create the Department of Homeland 
Security, it is vital that this new Department access the great 
strengths of the national laboratories. Thank you.

    The Chairman. Thank you very much.
    Dr. Drucker?

   STATEMENT OF HARVEY DRUCKER, Ph.D., ASSOCIATE LABORATORY 
             DIRECTOR, ARGONNE NATIONAL LABORATORY

    Dr. Drucker. Mr. Chairman, committee, thank you so much for 
the opportunity to address you today.
    The risks of terrorism in the 21st century really pose a 
new set of concerns and challenges to an open, democratic, 
technology-based society. In science and technology, that means 
we have to do something that we did a long time ago. We have to 
respond with something equivalent to the Manhattan Project. We 
need to draw on the best and the brightest, on the broadest 
cross-section and the most diverse blend of disciplines we can, 
in national laboratories and academe and industry. We need to 
look for a number of different methodologies to combat those 
who wish to harm us. There will not be any magic one cure--
there will not be any one magic technology in the chemical and 
biological area, in area of nuclear--dispersion of nuclear 
materials.
    Let me give you a few examples of what a non-weapons lab 
can do in this effort. In the nuclear area, really going back 
to Enrico Fermi and stag field--we're kind of proud of that--
okay, we have been involved in the fuel cycle. We understand 
it. We believe better than probably any lab in the world, 
again, going back to our total history. We are not a weapons 
lab, but we understand how commercial nuclear energy works. We 
understand the processes, the materials associated with it, the 
issues of not just products produced, but of waste produced. 
We, in the process of working in this area, have become quite 
expert at detection of nuclear materials at every level, from 
finding something kilometers away to finding something in a 
cache in a stairwell. That is of particular importance when you 
consider the threat of radiation dispersal devices, the so-
called ``dirty bomb.''
    We can, in addition to detecting these materials, analyze 
them. If we think that there is something there, we can begin 
to do the sorts of chemical and radiologic analysis that will 
allow us to attribute and will allow us to determine--and I 
hope this doesn't happen--what is the risk of such a device to 
the public after it's been used. We have broad expertise and a 
number of different methodologies that we've developed for 
decontaminating areas that have been contaminated with 
radioactive materials and returning them to service.
    In the infrastructure area, going back to the days of the 
National Acid Precipitation Assessment Program, we've looked at 
energy generation, we've looked at its transmission and its 
distribution. We've looked at this for natural gas, liquid 
fuels, electricity. We know what these systems look like.
    Working with our colleagues at Sandia and Los Alamos, we're 
not looking at how these systems intertwine. A cutoff of 
natural gas, as most of you know, can mean a cutoff of 
electricity, especially cutoff at peaker plants. We need to 
know, not only how these systems intertwine each with the 
other, but how the cyber systems which operate them interface 
with them if we are to develop a defense against attacks on our 
energy infrastructure. We need all that information, and we 
need to take it and put it in such a fashion that those who 
would respond to emergencies would be able to route power 
effectively after an incident involving the energy 
infrastructure. And I believe that we've got a good chance of 
doing that.
    The third area that I want to spend some time on is this 
really new one for the world, comprehensive bio-defense, 
defense against biological and chemical weapons. Let me give 
you a few factlets. Five years ago if you wanted to know the 
full molecular basis of a protein structure, it took you 910 
days, almost three years. We can now get you a protein 
structure--full, high-level protein structure, every little bit 
molecule in it dancing--in about 38 days. That's a 24-fold 
acceleration.
    Is this an academic fact? No. It turns out that proteins 
are the targets for chemical and biological weapons. If we 
understand their structure, if we understand what renders 
them--what are the causes of harm to them from chemical--what 
are the mechanisms of harm from chemical and biological agents, 
we can develop prophylactics, things that will prevent such 
effects--drugs that will prevent the effects of these agents. 
We can develop therapeutics, materials that will alleviate the 
symptoms. And, more importantly, we can develop vaccines that 
are specific and less harmful than the existing vaccines.
    What is the basis of this? Well, there are a lot of 
different bases, a lot of which does arise from the work of the 
Department of Energy and its national laboratories. Primarily 
this is a result of new light sources, synchrotron light 
sources that are capable working--pardon me--of providing 
tremendous amounts of data on protein structures faster than 
anything we've been able to do before. It's also a function of 
developing new robots that are capable of essentially starting 
from genetic material and taking that genetic material and 
going through all the way through to protein crystals which can 
get placed in these new powerful light sources.
    I guess what I'd like to conclude with, I think it's very 
clear that we, at Argon, and at other non-weapons laboratories, 
are ready and willing to serve our country and to provide 
capabilities that really will be of more than moderate service 
against the present threats.
    Thank you.
    [The prepared statement of Dr. Drucker follows:]
   Prepared Statement of Harvey Drucker, Ph.D., Associate Director, 
                      Argonne National Laboratory
                              introduction
    This presentation is intended to make two key points with regard to 
the current and potential contribution of the Department of Energy's 
(DOE's) multiprogram laboratories to the achievement of national 
homeland security objectives. These are:

  <bullet> The broad and diverse base of technical expertise, 
        capabilities, and facilities developed by the non-weapons 
        national laboratories places them in a unique position to 
        address the non-traditional and unconventional domestic threats 
        posed by international terrorism.
  <bullet> Because bioterror weapons appear to present the greatest 
        long-term domestic threat, a coalition of federal laboratories, 
        government agencies, and private industry can and should 
        implement a national biodefense initiative that is sufficiently 
        effective to make bioweapons essentially irrelevant.

    A brief discussion of the capabilities resident at Argonne National 
Laboratory will help to indicate the validity of these assertions. 
Argonne is one of DOE's government-owned, contractor-operated, multi-
program research facilities. It is operated for the DOE by the 
University of Chicago. The laboratory has an annual budget of about 
$480 million and employs approximately 4,000 people. It occupies two 
sites--in Illinois and Idaho--that total 2,400 acres.
    Argonne is the DOE lead laboratory for nuclear fuel cycle research. 
It builds and operates major national user facilities, and it conducts 
basic and applied research, development, and assessment programs for 
and with DOE, other federal agencies, and state and local government. 
The Laboratory collaborates extensively with university and private-
sector research partners.
     laboratory capabilities derived from non-defense research and 
                          development missions
    Multidisciplinary, multiprogram, non-weapons laboratories like 
Argonne have developed a very broad base of scientific and technical 
capability. We have found that basic research and technology 
development performed for DOE and other sponsors can, and, we believe, 
will make major contributions to homeland security. As a nation, 
terrorism poses an incredible number of threats to a multitude of 
targets. Our defense and response to unconventional nuclear, 
biological, and chemical threats will require different ways of 
thinking, and a range of technologies yet undeveloped that can provide 
us information, response, amelioration, and prevention. It will require 
the integration and re-synthesis of existing science and technology to 
fit these new needs. For example, as the DOE lead laboratory for 
civilian nuclear fuel cycle research, Argonne is a national center of 
excellence for the detection, management, decontamination, and disposal 
of nuclear materials, radioisotopes, and other sources of radiation. 
For that same reason, the Laboratory has developed a significant base 
of expertise to address the health and environmental impacts of 
exposure to these hazards, and the staff is knowledgeable about 
techniques for minimizing their effects. The Laboratory is therefore 
well positioned to provide effective technical support for the process 
of detecting, communicating, reacting, responding, mitigating, 
preventing, and neutralizing the threat of domestic nuclear or 
radiological terrorist attacks.
    As a major DOE physical science research facility, Argonne is also 
positioned to address non-traditional, security-related research and 
development problems that are technically complex and require 
specialized, and possibly unique equipment and facilities. For 
instance, the Structural Biology Center at Argonne's Advanced Photon 
Source is equipped to play a key role in characterizing new or unknown 
bioagents and can provide biomolecular information needed to develop 
prophylactic and remedial drugs or vaccines. Core basic research 
programs at non-weapons laboratories, such as Argonne, have a dual 
value. They not only support peacetime applications, but can also have 
significant potential value in countering terrorism. Thus, a current 
Argonne program to develop a biohazards detector has relevance for both 
human health diagnostics and homeland security.
      argonne's national security research and development program
    Although it is not the Laboratory's primary mission, the expertise 
of Argonne's staff and the Laboratory's research and engineering 
facilities are also applied in direct support of the national security 
goals of the Department of Energy, the Department of Defense, and other 
public agencies. These activities aim to reduce threats that result 
from the proliferation or use of weapons of mass destruction, and from 
nuclear, biological, or chemical attacks on critical components of our 
domestic infrastructure. The current annual budget of the Laboratory's 
national security research and development effort is approximately $42 
million. It includes three key components:

  <bullet> Nuclear non-proliferation, treaty verification, and arms 
        control
  <bullet> Domestic infrastructure assurance
  <bullet> Chemical and biological counter-terrorism science and 
        technology

    nuclear non-proliferation, treaty verification, and arms control
    This program is based on the Laboratory's recognized expertise in 
nuclear fuel cycles and nuclear materials. It aims to reduce the threat 
to U.S. national security by limiting the spread of nuclear, 
biological, and chemical weapons of mass destruction. Among the more 
pressing problems that face the United States is assuring the integrity 
of systems for controlling nuclear materials in the independent states 
that resulted from the dissolution of the former Soviet Union and in 
the nuclear-capable nations of south and southeast Asia. Argonne 
supports the U.S. effort to provide technical assistance to these 
nations to help improve their systems for monitoring, control, and 
export of nuclear materials; for decontamination and decommissioning; 
and for assuring the security and safe disposal of reactor fuels and 
other materials that might be used in the manufacture of weapons.
    The capabilities that the Laboratory brings to this international 
program are equally applicable to homeland nuclear security (Figure 
1).* Thus, for example, Argonne is equipped to develop and apply 
sensitive detectors for identifying facilities, equipment, and 
containers used to make, handle, or conceal nuclear materials. As a 
participant in the DOE Region V Radiological Assistance Program (RAP), 
Argonne currently collaborates with local and federal authorities. In 
this association, the Laboratory provides technical advice, training, 
expert personnel and equipment, and monitoring and assessment support 
for the mitigation of immediate radiation hazards and risks to workers, 
the public, and the environment due to radiation emergencies and 
incidents (Figure 2). In this regard, the Laboratory has been working 
with Chicago-area emergency providers from city to suburbs at levels 
from senior executive to first responder. We are active in the 
Antiterrorism Task Force for Northern Illinois and are communicating 
with the FBI teams responsible for incident management relative to 
their needs and our capabilities for providing immediate aid. The goal 
is to provide our relevant skills commensurate with events in the 
field.
---------------------------------------------------------------------------
    * All figures and exhibits have been retained in committee files.
---------------------------------------------------------------------------
    The Laboratory can do this because it maintains substantial 
capabilities for nuclear-related field and lab measurements, radiation 
dose estimation, decontamination, emergency construction, radioactive 
materials handling, nuclear risk management, and domestic nuclear 
threat attribution. For example, Argonne operates a facility 
specifically designed to receive and encapsulate actinides for their 
subsequent safe characterization at a normal Advanced Photon Source 
beamline. This capability bears directly on the attribution of 
potential terrorist acts involving nuclear materials. Exhibit 1 
provides a more detailed summary of Argonne's major facilities for 
applying science and technology to nuclear and radiological counter-
terrorism.
                   domestic infrastructure assurance
    Argonne's infrastructure research, technology, and assessment 
program aims to assure the security and reliability of critical U.S. 
infrastructures and the safety of associated populations. The program 
develops and evaluates technologies and methods for detecting, 
combating, and recovering from nuclear, biological, or chemical, 
terrorism. The current effort includes vulnerability assessments 
focused on physical, operational, and cyber security, and the 
interdependencies of critical infrastructural elements, such as 
electricity, natural gas, transportation, and telecommunication 
systems. It considers the potential for cascading impacts resulting 
from disruptions to one or more types of infrastructure; methods of 
detecting events affected by interdependencies; and improved technology 
and procedures for preventing and recovering from such events. An 
important component of the program is an infrastructure outreach 
project that aims to increase the security awareness of infrastructure 
owners and operators and promote sharing of best practices and lessons 
learned. Argonne's community critical infrastructure protection project 
collaborates with communities and local utilities to develop plans and 
procedures for municipalities to prevent or recover from major 
disruptions to energy infrastructure (e.g., natural gas supply 
systems). The Laboratory recently led a study of the infrastructure 
interdependencies associated with the attack on the World Trade Center 
and provided infrastructure assurance support for the Olympic Games in 
Utah. In the Chicago Metropolitan Area, Argonne, in partnership with 
the Commonwealth Edison Company, the City of Chicago, 270 surrounding 
municipalities, and three pilot communities, has developed 
comprehensive guidelines for addressing electrical power system 
disruptions. The results are currently being applied in California, 
Utah, and other regions. Figures 3 and 4 summarize some of the more 
critical needs for analytical techniques and technologies to support 
domestic infrastructure protection efforts, and Figures 5a through 5f 
illustrate some of Argonne's recent technical support activities in 
this area.
    chemical and biological counter-terrorism science and technology
    Within the framework of its basic and applied science programs, the 
Laboratory maintains substantial expertise and facilities for 
addressing potential chemical and biological threats. These 
capabilities include instruments and sensors for detection of chemical 
and biological threats in air, water, and soil, whether dispersed over 
kilometers or hidden within sites and caches. Facilities are also 
available for evaluating the effectiveness of chemical and biological 
monitoring methods at both the Laboratory and field scales. The 
Laboratory can provide technical assistance in emergency situations and 
deploy fast-response systems for protecting first responders, 
decreasing exposure times, estimating population exposures and reducing 
risk. Under the sponsorship of the Departments of Energy and Defense, 
the Laboratory has developed portable biochip microarrays capable of 
detecting and identifying anthrax and other bioagents (Figure 6). For 
the Joint Chemical Aid Detector Program (JCAD), the Laboratory 
developed a hand-held, cyanide gas microsensor. (Figure 7). With the 
Sandia and Livermore laboratories, Argonne is now demonstrating 
technologies for mitigating impacts from chemical and biological 
attacks on interior infrastructures deemed to be at high risk, such as 
subways, airports, and public buildings (Figure 8). Argonne also 
participates in the U.S. Army program for assessing environmental risks 
associated with chemical agents (Figure 9).
    At the Advanced Photon Source (Figure 10), the Laboratory operates 
a unique structural biology facility that can provide information 
required to support the development of drugs, vaccines, and other 
pharmaceuticals for treatment of exposure. Other available facilities 
include capabilities for determining the health and environmental risk 
from the dispersion of chemical and biological agents, and expertise 
for evaluating the potential effect of such agents on populations and 
materials. Argonne is also equipped to develop appropriate protective 
materials and methods of decontamination. Expertise, equipment, and 
facilities are available to conduct laboratory and field analyses for 
attribution of chemical and biological attacks.
    Among the relevant special-purpose facilities that are currently 
operational at the Laboratory are: an electron microscopy center 
capable of examining and characterizing nanoscale embodiments likely to 
be used in chemical and biological detectors; a multi-bay robotics 
laboratory capable of developing remote manipulators for use in 
hazardous situations; a mobile laboratory for chemical agent detection 
and confirmation of onsite decontamination subsequent to cleanup 
operations; and a certified level 2 dilute chemical agent facility for 
development of analytical methods, detector testing, development of 
decontamination technologies, and validation of transport models. 
Exhibit 2 provides a more detailed summary of Argonne's major 
facilities for applying science and technology to chemical and 
biological counter-terrorism.
              pathway to a national biodefense initiative
    A recent study of the potential impact of attacking American cities 
with nuclear, chemical, and biological weapons indicated that bioterror 
weapons represent the most dangerous domestic threat. This study 
simulated nuclear, chemical, and biological attacks on three American 
cities. What is most striking is that a biological attack can be 
expected to produce many more casualties than either a nuclear or a 
chemical weapon.
    The effectiveness of biological weapons is highly dependent on the 
rapidity of the defensive response. If efficient mechanisms for early 
detection, communication, reaction, response, mitigation, and 
prevention are in place, the potential impact of an attack can be 
reduced enormously. In principle, a sufficiently effective biodefense 
system could make biological weapons irrelevant in the same sense that 
an effective strategic defense initiative can deter the ballistic 
missile threat--because the probability of success would be too low to 
justify the use of the weapon.
    Speed at every stage of a biodefense system is key to its success. 
This includes the ability to detect and identify an unknown bioagent; 
analyze it to determine what countermeasures (vaccines, drugs, anti-
toxins, etc.) would be effective; and then engineer, produce, and 
distribute an appropriate preventive or curative pharmaceutical or 
disinfectant. In this regard the news is promising: Five years ago the 
total time required to produce a useful characterization of a protein 
structure was about 910 days. Advances in bioengineering since then 
have reduced the time to about 38 days--an acceleration factor of 24. 
Further progress can be expected at each stage of the process as 
analytical techniques and technology in the fields of genomics, 
structural biology, and computation continue to improve. It is now 
possible to visualize the elements of a technological pathway that 
could support the development of an effective national biodefense 
initiative. The technical underpinnings of such a system would include:

  <bullet> Instruments and laboratories capable of detecting and 
        identifying unknown bioagents.
  <bullet> Facilities and expertise equipped to analyze a bioagent at 
        the cellular level.
  <bullet> Facilities and expertise required to produce and purify 
        bioagent proteins.
  <bullet> Facilities and expertise required to crystallize bioagent 
        proteins.
  <bullet> X-ray facilities required to determine the structure of 
        bioagent proteins.
  <bullet> Expertise and computational resources required to analyze 
        bioagent protein structure.
  <bullet> Expertise and computational facilities required to design 
        and bioengineer proteins.
  <bullet> The capacity to design and develop pharmaceuticals and 
        predict their potential effects.
  <bullet> The capacity to rapidly produce designer pharmaceuticals. 
        The organization, authority, and facilities required to 
        evaluate and certify new pharmaceuticals.
  <bullet> The capacity for rapid, high-volume distribution of 
        pharmaceutical agents to targeted populations.

    Of these elements, the first six to seven exist in some form in the 
DOE national laboratories that participate in the genomics and 
structural biology programs. The last four to five exist in some form 
in the pharmaceutical industry and in public agencies, such as the U.S. 
Food and Drug Administration. These resources are not, for the most 
part, presently organized and equipped to deliver the kind of rapid 
response required to support an effective biodefense program, but the 
components are present and technical progress continues. Figures 11 and 
12 indicate how a fully developed biodefense system might function to 
produce a pharmaceutical needed to counter a bioterror attack.
    Given the gravity of the bioterror threat, the state of the art, 
and the availability of public and private resources, two initial steps 
deserve serious consideration:

  <bullet> Definition in detail of a technical and organizational 
        pathway that would lead to the establishment of a cost-
        effective national biodefense system.
  <bullet> Initiation of a limited-scale government-industry pilot 
        project designed to serve as a proof-of-concept.

    Figures 13 through 15 summarize the case for a biodefense 
initiative and suggest a possible first-stage course of action. It is 
worth noting that such an initiative can be expected to produce 
substantial spinoff benefits for medical science, public health, and 
the pharmaceutical industry.
                               conclusion
    We respectfully suggest that:

    1. Because of the exceptional breadth and depth of the technical 
capabilities developed during the course of conducting peacetime 
research and development programs, non-weapons, multiprogram 
laboratories like Argonne are in a position to make a uniquely valuable 
contribution to the attainment of homeland security objectives that 
involve defense against unconventional nuclear, chemical, and 
biological attacks by a non-traditional enemy. We further suggest that 
the multiprogram laboratories have already provided a significant body 
of evidence to confirm this assertion through the successful 
contributions to nuclear, chemical, and biological counter-terrorism 
that they have already made under the direct sponsorship of public 
agencies responsible for national security. It remains to organize 
these laboratories and their interactions in ways that will enable them 
to optimize their capacity to contribute to the new, high-priority 
national goal of homeland security.
    2. Appropriate exploratory and initial steps should be taken 
immediately to establish a national biodefense initiative that takes 
full advantage of the resources available through an effective 
collaboration of federal laboratories, government agencies, and the 
private sector. Minimum steps are a detailed specification of the 
technical and organizational pathway to this objective and initiation 
of a proof-of-principle pilot project.

    The Chairman. Well, thank you all very much. The main 
thrust of the testimony has been that this panel has been that 
laboratories have a great deal to contribute to solving the 
security problems we face here from terrorism or potential 
terrorism. And I certainly agree with all of that.
    Let me just ask a few questions, though, about how we 
should best try to structure this new department. Let me ask 
Dr. Happer first. The proposal, as I understand it from the 
department for managing the research and development 
responsibilities in this new agency is to have one of the 
programmatic elements assigned that responsibility--that is, 
this undersecretary for chemical, biological, radiological, and 
nuclear countermeasures would be responsible for the R&D 
activities.
    An alternative to that would be to have someone in the 
nature of a chief technology officer, who would have a 
department-wide responsibility and would work for the Secretary 
and be able to sort of oversee R&D-related activities, 
department-wide. Do you have a point of view as to what makes 
the most sense?
    Dr. Happer. Well, I think that, to really make an impact, 
whoever is given charge of this has to have a budget, so to--
the idea that some sort of distinguished advisor is going to 
tell the Secretary, you know, wise things to do without actual 
budget authority, I just don't think will work. So I think it 
has to be set up so that----
    The Chairman. So it's going to be line authority. Whoever 
is in charge of R&D has to have the budget related to R&D, in 
your opinion.
    Dr. Happer. I feel strongly that way. You know, I've 
watched a lot of chief scientists in this town, and they're 
very smart people, but they can't make things happen without 
money.
    The Chairman. Okay. Let me ask the same type of question I 
was asking Ambassador Brooks. I'm not clear in my own mind how 
this new department would interface with these national 
laboratories in a concrete way in the sense that we're saying 
we're taking some elements that are now in the Department of 
Energy in NNSA, and we're transferring those to this new 
department and presumably transferring the budget for those to 
this new department. And whoever this person in charge of R&D 
in the new department turns out to be, they would presumably be 
able to do it--what they wanted with that budget, within 
limits. How would that work? I mean, this is not the same as is 
going on now at the national laboratories, as I understand it. 
I think the national laboratories are now essential Department 
of Energy laboratories operated on--by contractors----
    Dr. Happer. Right.
    The Chairman. And they do work for whatever agency they are 
tasked to do work for, in addition to what they're doing for 
the Department of Energy. Am I right about that?
    Dr. Happer. That's right. And in previous testimony, it was 
clear that ``work for others'' has a lower priority. It's 
whatever is available. And so I think that this new agency will 
have to something better than ``work for others'' pecking 
order.
    Now, maybe something similar to it would be, you know, 
DTRA, the Defense Threat Reduction Agency--it used to have 
another name--that did a lot of work at the national 
laboratories. It was a big part of their program. I should let 
the labs speak for themselves, but it seemed to me that that 
worked fairly well.
    The Chairman. Okay. Do any of the other witnesses have a 
point of view on this second--this question I'm asking about 
how this new department would interface with the laboratories? 
Ambassador Robinson, did you have a point of view?
    Ambassador Robinson. I believe they're still working out 
the details for how it would take place. When I urged that you 
streamline the procedures, these are some of the things I had 
in mind.
    Now, we have found a relationship called ``joint 
sponsorship,'' at which one agency and another agency can agree 
that work is crucial to them both and that they will provide 
joint sponsorship. From that point, you don't have to go 
through the rather cumbersome work for others, and there are 
taxes on work for others and a lot of other players in the game 
that slow down progress, and that you can interchangeably agree 
to use the procedures of either agency. So it's a trust 
relationship. Fine. We know there are procurement regulations 
that have to apply, but we don't have to apply both sets under 
joint sponsorship. One of them will be good enough, and you can 
move forward with the work.
    I believe the Office of Homeland Security is considering 
having the President declare the status of this S&T work to be 
a joint activity between several departments, and particularly 
the National Nuclear Security Administration, and that would be 
very helpful, in my view, in allowing us to move forward 
together.
    The Chairman. Well, the question that would occur to me is 
why don't we have this joint sponsorship arrangement with the 
Department of Defense and with the intelligence community or 
agencies, as well as with the new Department of Homeland 
Security? I mean, if it works well, which, as you describe, I 
have no reason to doubt that----
    Ambassador Robinson. It's provided for under the Federal 
acquisition regulations, but you know this town as well as I 
do. Surrender of sovereignty is always a tough thing to get 
someone to agree to----
    The Chairman. Well, maybe we could solve a lot of problems 
and just have everything that goes on at the labs be done under 
this procedure. I mean, everything that's done for any of the 
Federal agencies and that way eliminate some of the problems 
that currently exist.
    Ambassador Robinson. I suggested that in my testimony, and 
we have talked about, as groups of laboratories directors 
together----
    The Chairman. Great.
    Ambassador Robinson. Many years ago, you gave us the title 
``national laboratories,'' as opposed to ``energy 
laboratories'' or ``security laboratories.'' You gave us 
``national laboratories.'' But the rest of the apparatus didn't 
keep up with that and catch up with that.
    I believe what is needed is to make us national 
laboratories. In fact, and if any problem within the government 
that requires science and technology to solve should be able to 
use any of these laboratories in the same seamless way that the 
National Security--National Nuclear Security Administration or 
the DOE can today. We had a discussion prior to this hearing 
with Ambassador Brooks. He would support that.
    Dr. Anastasio. Can I just add a comment to that?
    The Chairman. Certainly.
    Dr. Anastasio. I think, especially these kinds of 
mechanisms are appropriate when the programmatic activity, the 
mission goal, is a sustained mission over a significant period 
of time. Sometimes the ``work for others'' mechanisms are 
appropriate when you have just a project that's done that's a 
finite, you know, short period of time, and you need to come in 
and get some work done and get out. But for something like 
homeland security, where you would expect this is going to 
require a sustained investment, these kinds of mechanisms, I 
think, are very appropriate.
    Dr. Drucker. Let me also comment on that.
    The Chairman. Dr. Drucker.
    Dr. Drucker. We have been doing work for a number of years 
for the Nuclear Regulatory Commission. We've got a division of 
people that are supported by them--about 80 people. We don't 
have any particular difficulty working for NRC. We don't have 
any particular difficulty working for the Environmental 
Protection Agency or NIH. Where there is a match between what 
the agency needs and what we are capable of doing and what DOE 
needs, there is no real difficulty in working together.
    The Chairman. Very good.
    Dr. Drucker. So I'm pretty much saying what we're all 
saying.
    The Chairman. Well, let me defer to Senator Domenici, and 
let me just advise folks we have started a couple of votes, and 
there are two votes in a row, so I will defer to Senator 
Domenici, and then when he is finished with his questions, he 
can adjourn the hearing. Thank you all very much.
    Senator Domenici. Senator Bingaman, thank you very much for 
the meeting today, for your patience, and for your sitting 
throughout the entire afternoon. I almost said ``episode,'' 
but----
    [Laughter.]
    Senator Domenici. Let me say, now, just before you leave, 
the bill that I put in that--on homeland security that had to 
do with the eight Senators that sponsored this bill with me, we 
have joint sponsorship in that, and it's been thoroughly looked 
at. They've looked at it, and maybe we can at least get it to 
our staffs and think of applying it broader. We have applied it 
in this particular one, but it's just a little piece of working 
overseas.
    Let me just talk a minute. First, to those who originally 
put together a plan, as loose as it has to be, I think a very 
serious mistake was made, Dr. Happer. I don't think they should 
have put any laboratory's name in as being the lead, because we 
can get 75 people of high scientific persuasion, and we can 
give them the three laboratories and say, ``Take a week each 
and tell us which is best,'' and it just depends, but I can 
tell you they all wouldn't come down for one, no matter what, 
and so you've got these marvelous people--some have been 
working 20 years, 30 years, some at Argon on a different keel, 
but clearly great people wondering, you know, ``Are we going to 
have a laboratory that is super to us?'' So I wish they would 
never had put it on. So I think it's gone, whether people think 
it is or not. We'll just be working on it in due course.
    But let me tell you all that some very strange things 
happened as I've listened here. You know, Dr. Robinson, I could 
almost say the laboratory that sits before us that least 
followed the mandate of their mission in the past 20 years, or 
had missions that were not military, probably come out as 
laboratories that, at the beginning, might be best able to 
serve in this new capacity. Now, I say that because the 
laboratories that are run for the Department of Energy's 
nuclear activities--nuclear-weapons activities are challenged 
at, more than once a year, officially, for exceeding their 
mission--their mission being, no matter what great scientists 
you have, here's your mission. You make bombs, you make sure 
they're safe, and stay out of everybody else's business.
    Now, it's been impossible to do that, right? They're just--
the ventures are too good--are too diverse, diffuse--and then 
you have rightfully told us, ``Give us 6 to 10 percent money 
that is loose. If ever the 10-percent money, the LDRD money, 
will come to the surface, it's when we now inventory our 
laboratories and find out what are they doing that might help 
in this venture because they did not have to apply their great 
scientists to laboratory activities for nuclear weapons. It was 
to use their scientists where their scientists went with 
something great, as you saw it great.
    So I would think that you're going to find many of those 
activities, the things that have pushed you in areas that 
you're going to find when they come and say, ``Can you do 
this,'' you're going to say, ``Yes, we weren't doing it to 
build a bomb, but we were doing it because of such and such.'' 
So I do hope you chose well, because I do believe that's going 
to have something to do with the end product.
    And, last, we had a--one little project that Sandia and Los 
Alamos did, the National Infracture Simulation and Analysis 
Center. I guess we are finally calling it NISAC. A fantastic 
gadget. That's too small a word. But am I right that the 
administration is finally beginning to put that somewhere with 
an office to use it? Can you tell me, Dr. Cobb?
    Dr. Cobb. Senator, that's correct. That's one of the things 
that they have earmarked that they will need in support of 
their new critical infrastructure programs.
    Ambassador Robinson. Well, they do have it report to a 
different undersecretary than the rest of the R&D, and I 
believe that's appropriate.
    Senator Domenici. Two last comments. Everybody says yes. I 
don't say yes yet. To assume there would be no additional money 
needed because everybody's going to move people around, and 
when we're finished we're going to have the same number of 
people we now have, and it shouldn't cost any more. Well, let 
me tell you, I--that seems to me to say that we have a lot of 
people that aren't doing their work today, or you're being 
asked to do a very big mission that's--amounts to little or 
nothing. And I think neither are true.
    So I haven't--I haven't come close to saying it won't come 
close to saying it won't cost any more for the science, that 
you can keep all the functions of the laboratories intact, and 
you can do this other little job for us on the side.
    Ambassador Robinson. Let me give you a third alternative, 
Senator.
    Senator Domenici. Sure.
    Ambassador Robinson. The talent with technical degrees, you 
can do this work is the rate-limiting part.
    Senator Domenici. Yeah.
    Ambassador Robinson. We can't create a Ph.D. physicist or 
engineer for 8 years if you started us today with a pot of 
money. And so we believe you've got to redirect work of people.
    Senator Domenici. Sure.
    Ambassador Robinson. I think there will be extra money 
needed in the steps following what we do to get the--field with 
the hardware. That's going to involve industry folks. We 
already work with university folks at the front end, but we're 
rate-limited by scientifically trained people.
    Senator Domenici. Let me also say to all of you with so 
much talent around in so many places you can bring to bear good 
things. One of the difficult problems is going to be to 
determine what things we ought to be doing when, and which are 
short-term, which are long-term. And I suggest that you ought 
to be very careful as to what you end up agreeing to in terms 
of how that's most apt to be right. That's a very tough 
problem. You could sit down with 25 smart people for how long--
One week? Two weeks? Ten days?--and say, ``What are the 
issues?'' I'm just putting something on that you can 
understand--that we can all understand. But it's going to be 
tough.
    Dr. Cobb. Could I just make a short comment?
    Senator Domenici. Of course.
    Dr. Cobb. I think the National Academy's study was a good 
start. It didn't solve all the problems, but it did set 
priorities, so it was helpful.
    Senator Domenici. And we are going to adjourn until the 
call of the chair. Thank you.
    [Whereupon, at 4:55 p.m., the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

                              Department of Energy,
               Congressional and Intergovernmental Affairs,
                                Washington, DC, September 20, 2002.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman: On July 10, 2002, Linton Brooks, Acting 
Administrator, National Nuclear Security Administration, and Dr. 
Raymond Orbach, Director, Office of Science, testified regarding the 
present and future roles of the Department of Energy and National 
Nuclear Security Administration National Laboratories in protecting our 
homeland security.
    Enclosed are the answers to 14 questions submitted by Senators 
Schumer and Murkowski to complete the hearing record.
    If we can be of further assistance, please have your staff contact 
our Congressional Hearing Coordinator, Lillian Owen, at (202) 586-2031.
            Sincerely,
                                           Dan Brouillette,
                                               Assistant Secretary.
[Enclosures]
              Responses to Questions From Senator Schumer
    Question 1. Though most of the work that goes on at Brookhaven is 
non-security related scientific research, Brookhaven Scientists do play 
an important role in creating the technology used for security 
technology. In your opinion, are the portions of labs like Brookhaven 
that work on national security technology better situated under DOE or 
DHS jurisdiction?
    Answer. The Department of Energy (DOE) should retain responsibility 
for the national laboratories, such as Brookhaven National Laboratory 
(BNL) that carry out R&D not only for the DOE, but also for several 
other agencies in the government. Over 65 percent of the work at BNL 
directly supports Office of Science programs. Some work at Brookhaven 
that supports national security and is currently being funded by DOE, 
may in the future be funded by the Department of Homeland Security 
(DHS). This work could be done under existing mechanisms.
    Question 2. If Homeland Security, what happens to the role 
Brookhaven plays in civilian research and projects? Will that role be 
discontinued? Can we count on Homeland Security to pay attention to 
that role?
    Answer. The establishment of a Department of Homeland Security will 
not disrupt the important role that BNL plays in carrying out civilian 
research. If there are important potential applications of that 
civilian research to DHS needs, we will develop mechanisms, such as 
partnerships or direct DHS funding, to accommodate those needs without 
disrupting BNL's mission.
    Question 3. If the Department of Energy, will labs like Brookhaven 
be part of the homeland security process?
    Answer. DOE and DHS will work together to ensure the resources of 
laboratories like Brookhaven are available to carry out research for 
DHS.
    Question 4. How can we ensure that their work is used in the war on 
terrorism? For example, Brookhaven is the leader in developing nuclear 
detection devices that we could install at ports and at our borders.
    Answer. The President's proposal recognizes that the 
responsibilities and authorities to fight the war against terrorism and 
to ensure our national security are currently spread among many 
agencies. The establishment of the DHS will bring these together. DOE 
and DHS will work together to ensure that DHS will be able to fully use 
the capabilities of DOE laboratories in contributing to the war on 
terrorism; and that they can continue to carry out important national 
security related work for DOE and other agencies. This partnership 
could be implemented through existing mechanisms.
    Question 5. How will the Department of Energy work with the 
Department of Homeland Security to ensure that technology coming out to 
labs like Brookhaven is used for Homeland Security purposes?
    Answer. The DOE laboratories, especially after September 11, have 
already demonstrated the ability of our scientists and engineers to 
respond quickly and effectively to the challenges posed by terrorism. 
We will work closely with DHS to ensure that laboratory technology will 
be used for Homeland Security purposes. We expect that in carrying out 
our core missions we will produce technologies that also may be 
leveraged for homeland security.
    Question 6. Is it possible for our labs to exist under dual 
jurisdiction? If so, who would control what? Is there any precedent for 
this type of arrangement?
    Answer. As Secretary Abraham testified before the Select Committee 
on Homeland Security on July 16, 2002, at each DOE facility ``a portion 
of the laboratory would be dedicated to DHS activities, and the DHS 
would assume responsibility for the management of domestic security R&D 
through joint sponsorship agreements to include direct tasking. Current 
contracting relationships between the operating organization and the 
workforce will not be disrupted. DHS would control funding for homeland 
security programs, and allocate it as necessary to meet homeland 
security goals.'' It is expected that some of the workforce at the 
laboratories may be dedicated to DHS activities, but that they will be 
available to support DOE's activities.
    Question 7. How have DOE and White House officials worked together 
to decide which labs go where? How can we prevent turf battles from 
taking place?
    Answer. DOE and DHS are working together to outline options for 
ensuring the best distribution of our respective responsibilities, and 
have sought corporate options and identified alternative mechanisms for 
ensuring full and open access to the Department's laboratories.
    DOE is committed to continuing this communication to ensure an 
ongoing partnership with DHS to avoid turf battles that distract the 
labs from meeting the needs of the country.
                              dirty bombs
    Question 1. Is the current nuclear Emergency Operations System 
designed for and funded to interdict and prevent a nuclear or large 
radiological attack against major urban metropolitan regions like New 
York?
    Answer. In the event of a threatened or potential nuclear/
radiological attack in the U.S., the Federal Bureau of Investigation 
would be the lead federal agency. The FBI would request DOE assets be 
deployed in order to assist in the prevention of, or response to, a 
nuclear/radiological incident. DOE has unique capabilities to search 
for nuclear/radiological devices and to prevent or minimize their 
detonation. These capabilities are fully funded and staffed, and are 
available on a round-the-clock basis.
    Question 2. How will the Department of Homeland Security fund and 
organize its Weapons of Mass Destruction outreach to state and local 
entities?
    Answer. Inquiries about any aspect of the Administration-proposed 
Department of Homeland Security should be directed to the existing 
Office of Homeland Security.
             Responses to Questions From Senator Murkowski
    Question 1. The United States has a large energy infrastructure 
that is generally not well protected through physical security such as 
refineries and petrochemical facilities, oil and natural gas pipelines, 
and electric transmission lines. What role will the Department of 
Homeland Security play in assuring the physical protection of our 
energy infrastructure?
    Answer. The new Department of Homeland Security (DHS) would be 
responsible for comprehensively evaluating the vulnerabilities of and 
coordinating a national effort to secure the nations's energy 
infrastructure. Protecting the nation's critical energy infrastructure 
is the shared responsibility of the federal, state and local 
governments and the private sector, which owns most of the energy 
infrastructure. The Administration's homeland security bill would 
transfer to DHS the energy assurance functions of DOE, which is 
actively engaged in addressing critical energy infrastructure issues. 
We expect that DHS would work closely with industry to develop and 
maintain a comprehensive assessment of the energy infrastructure and to 
develop and implement security standards for protecting critical energy 
infrastructures. Specifically, in discharging its responsibility for 
assuring the physical protection of the nation's energy infrastructure, 
we expect that DHS would, among other things:

  <bullet> collect comprehensive information on potential threats to 
        the national energy infrastructure;
  <bullet> develop with industry analyses of physical and cyber 
        vulnerabilities of the national infrastructure and scientific 
        and technological solutions to correct or minimize system 
        vulnerabilities;
  <bullet> develop contingency plans to minimize risks to the economy 
        and public health and safety through analysis of 
        interdependencies and modeling of the cascading effects of 
        events that affect the energy infrastructure;
  <bullet> provide industry information necessary to implement security 
        plans that effect or deter terrorist acts through target 
        hardening and implementation of procedures that complicate 
        terrorist's attack planning; and
  <bullet> coordinate national, state and industry response and 
        recovery capabilities to ensure seamless integration of plans 
        and procedures.

    Question 2. Our electric power industry is really an integrated 
North-American system. Since an electrical disturbance in Canada or 
Mexico could affect power in the U.S.--and the other way around as 
well--it would seem to me that we need to include both Canada and 
Mexico in our homeland security efforts. What plans are there to 
cooperate & coordinate with the Governments of Canada and Mexico as we 
develop our homeland security program?
    Answer. The Department is actively coordinating with 
representatives of the governments of Mexico and Canada on our energy 
critical infrastructure protection and homeland security efforts. DOE's 
Offices of Energy Assurance (EA) and Policy and International Affairs 
(PI) are participating in the ad hoc Critical Infrastructure Protection 
Forum of the U.S.-Canada-Mexico North American Energy Working Group. 
The Critical Infrastructure Protection Forum was established to provide 
a vehicle for consultation and information exchange among the 
governments of the three countries on energy critical infrastructure 
vulnerabilities and mitigation strategies. On April 12, 2002, DOE 
hosted a meeting of the Group for presentations by DOE national 
laboratory staff on DOE's vulnerability assessment methodologies. At 
the request of representatives of the Government of Mexico, OEA and PI 
are planning a trilateral meeting in Mexico in the August-September 
time frame for deliberations on the application of DOE vulnerability 
assessment methodologies to specific types of energy infrastructures.
    DOE is the energy sector lead on the standing committees of the 
President's Critical Infrastructure Protection Board (PCIPB), 
established by Executive Order 13231, ``Critical Infrastructure 
Protection in the Information Age.'' Pursuant to the Executive Order, 
DOE is engaged in cooperation with representatives of the governments 
of Mexico and Canada under the auspices of the PCIPB International 
Interdependencies Working Committee, which was established to support 
the Department of State efforts to coordinate with the governments of 
other countries, including Mexico and Canada, U.S. initiatives and 
programs for physical and cyber critical infrastructure protection.
    On June 17-19, 2002, DOE participated along with representatives of 
other agencies in a meeting with representatives of the Mexican 
government to consider and develop strategies to implement the Smart 
Border Declaration signed by Presidents Bush and Fox. The U.S. and 
Canada signed a similar document. These declarations commit the U.S., 
Mexico and Canada to cooperative efforts to secure cross-border 
critical infrastructures.
    Question 3. Our energy infrastructure is run by computers, many of 
which are accessible through the internet. Our electric utilities are 
increasingly the target of computer hackers--possibly including foreign 
powers--who have already on occasion managed to penetrate their control 
networks. What role will the Department of Homeland Security play in 
assuring the cyber-protection of our energy infrastructure?
    Answer. The Administration's proposed legislation to create a new 
Department of Homeland Security recognizes that cyber security is a 
very important element of critical infrastructure protection and, 
consequently, cyber security will be a key function of the new 
Department's Division of Information Analysis and Infrastructure 
Protection.
    The nation's telecommunications systems are connected directly to 
many critical infrastructure sectors. The speed, virulence, and 
maliciousness of cyber attacks have increased dramatically in recent 
years. Accordingly, the Department of Homeland Security would place a 
high priority on protecting our cyber infrastructure from terrorist 
attack by unifying and focusing the key cyber security activities 
performed by the Critical Infrastructure Assurance Office (now in the 
Department of Commerce) and the National Infrastructure Protection 
Center (now in the FBI). In addition, the response functions of the 
Federal Computer Incident Response Center (now in General Services 
Administration) and the functions and assets of the National 
Communications System (now in the Department of Defense) would augment 
the infrastructure protection capabilities.
    Question 4. The free flow of information between the private sector 
and the Government is critical to the protection of our energy 
infrastructure, but industry is reluctant to provide sensitive 
information to government because it may become subject to release 
under the Freedom of Information Act and government has difficulty 
providing threat information to industry because much is classified. Do 
you think that the Freedom of Information Act should be modified to 
assure the non-disclosure of critical and sensitive industry 
information? Do you think that security clearances should be granted to 
personnel in critical infrastructure industries so that government 
threat information can be provided to industry?
    Answer. DOE supports section 204 of the Administration's homeland 
security bill, the ``Homeland Security Act of 2002,'' which would 
exempt from the Freedom of Information Act, section 552 of title V, 
United States Code, critical infrastructure and vulnerability 
information voluntarily provided by non-Federal entities or individuals 
and which is or has been in the possession of the Department of 
Homeland Security. Regarding security clearances for employees of 
critical infrastructure industries, DOE in the past has granted 
security clearances to certain industry personnel who require access to 
classified information pertaining to threats and is prepared to do so 
in the future in appropriate circumstances. For example, DOE has 
granted security clearances to certain personnel employed by the Trans 
Alaska Pipeline to permit the DOE to provide them classified 
information pertaining to threats against the pipeline.
    Question 5. One key impediment to infrastructure protection are our 
Federal antitrust laws. Industry is concerned that if they try to 
jointly act to protect their infrastructure--either through R&D or 
through joint physical and cyber protection efforts--they may run afoul 
of the antitrust laws. Do you think that some sort of antitrust 
exemption should be provided for joint industry infrastructure 
protection efforts?
    Answer. The Department defers to the views of the Department of 
Justice on this question.

                                    

      

</pre></body></html>
